<html>
<title> - STATUS OF THE BOEING 737 MAX: STAKEHOLDER PERSPECTIVES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
         STATUS OF THE BOEING 737 MAX: STAKEHOLDER PERSPECTIVES

=======================================================================

                                (116-22)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 19, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            
             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             
                             
                           ______

              U.S. GOVERNMENT PUBLISHING OFFICE 

37-467 PDF             WASHINGTON : 2019                            
                             
                             
                             
                             
                             


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair

ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
ELIJAH E. CUMMINGS, Maryland         Arkansas
RICK LARSEN, Washington              BOB GIBBS, Ohio
GRACE F. NAPOLITANO, California      DANIEL WEBSTER, Florida
DANIEL LIPINSKI, Illinois            THOMAS MASSIE, Kentucky
STEVE COHEN, Tennessee               MARK MEADOWS, North Carolina
ALBIO SIRES, New Jersey              SCOTT PERRY, Pennsylvania
JOHN GARAMENDI, California           RODNEY DAVIS, Illinois
HENRY C. ``HANK'' JOHNSON, Jr.,      ROB WOODALL, Georgia
Georgia                              JOHN KATKO, New York
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
DINA TITUS, Nevada                   GARRET GRAVES, Louisiana
SEAN PATRICK MALONEY, New York       DAVID ROUZER, North Carolina
JARED HUFFMAN, California            MIKE BOST, Illinois
JULIA BROWNLEY, California           RANDY K. WEBER, Sr., Texas
FREDERICA S. WILSON, Florida         DOUG LaMALFA, California
DONALD M. PAYNE, Jr., New Jersey     BRUCE WESTERMAN, Arkansas
ALAN S. LOWENTHAL, California        LLOYD SMUCKER, Pennsylvania
MARK DeSAULNIER, California          PAUL MITCHELL, Michigan
STACEY E. PLASKETT, Virgin Islands   BRIAN J. MAST, Florida
STEPHEN F. LYNCH, Massachusetts      MIKE GALLAGHER, Wisconsin
SALUD O. CARBAJAL, California, Vice  GARY J. PALMER, Alabama
Chair                                BRIAN K. FITZPATRICK, Pennsylvania
ANTHONY G. BROWN, Maryland           JENNIFFER GONZALEZ-COLON,
ADRIANO ESPAILLAT, New York            Puerto Rico
TOM MALINOWSKI, New Jersey           TROY BALDERSON, Ohio
GREG STANTON, Arizona                ROSS SPANO, Florida
DEBBIE MUCARSEL-POWELL, Florida      PETE STAUBER, Minnesota
LIZZIE FLETCHER, Texas               CAROL D. MILLER, West Virginia
COLIN Z. ALLRED, Texas               GREG PENCE, Indiana
SHARICE DAVIDS, Kansas
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California

                                  (ii)

  


                        Subcommittee on Aviation

                     RICK LARSEN, Washington, Chair

ANDRE CARSON, Indiana                GARRET GRAVES, Louisiana
STACEY E. PLASKETT, Virgin Islands   DON YOUNG, Alaska
STEPHEN F. LYNCH, Massachusetts      DANIEL WEBSTER, Florida
ELEANOR HOLMES NORTON,               THOMAS MASSIE, Kentucky
  District of Columbia               SCOTT PERRY, Pennsylvania
DANIEL LIPINSKI, Illinois            ROB WOODALL, Georgia
STEVE COHEN, Tennessee               JOHN KATKO, New York
HENRY C. ``HANK'' JOHNSON, Jr.,      DAVID ROUZER, North Carolina
Georgia                              LLOYD SMUCKER, Pennsylvania
DINA TITUS, Nevada                   PAUL MITCHELL, Michigan
JULIA BROWNLEY, California           BRIAN J. MAST, Florida
ANTHONY G. BROWN, Maryland           MIKE GALLAGHER, Wisconsin
GREG STANTON, Arizona                BRIAN K. FITZPATRICK, Pennsylvania
COLIN Z. ALLRED, Texas               TROY BALDERSON, Ohio
JESUS G. ``CHUY'' GARCIA, Illinois   ROSS SPANO, Florida
EDDIE BERNICE JOHNSON, Texas         PETE STAUBER, Minnesota
SEAN PATRICK MALONEY, New York       SAM GRAVES, Missouri (Ex Officio)
DONALD M. PAYNE, Jr., New Jersey
SHARICE DAVIDS, Kansas, Vice Chair
ANGIE CRAIG, Minnesota
GRACE F. NAPOLITANO, California
SALUD O. CARBAJAL, California
PETER A. DeFAZIO, Oregon (Ex 
Officio)

                                 (iii)
                                 

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                   STATEMENTS OF MEMBERS OF CONGRESS

Hon. Rick Larsen, a Representative in Congress from the State of 
  Washington, and Chair, Subcommittee on Aviation, opening 
  statement......................................................     1
Hon. Garret Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Subcommittee on Aviation:

    Opening statement............................................     3
    Prepared statement...........................................     5
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure, opening statement..............................     7
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     9
    Prepared statement...........................................    11

                               WITNESSES

Sharon Pinkerton, Senior Vice President, Legislative and 
  Regulatory Policy, Airlines for America:

    Oral statement...............................................    12
    Prepared statement...........................................    14
Captain Daniel Carey, President, Allied Pilots Association:

    Oral statement...............................................    18
    Prepared statement...........................................    19
Captain Chesley B. ``Sully'' Sullenberger III, Pilot, US Airways 
  (Retired):

    Oral statement...............................................    21
    Prepared statement...........................................    22
Sara Nelson, International President, Association of Flight 
  Attendants--CWA, AFL-CIO:

    Oral statement...............................................    26
    Prepared statement...........................................    27
Hon. J. Randolph Babbitt, Former Administrator, Federal Aviation 
  Administration:

    Oral statement...............................................    34
    Prepared statement...........................................    36

                       SUBMISSIONS FOR THE RECORD

Letter from Nadia Milleron and Michael Stumo, Submitted for the 
  Record by Hon. Larsen..........................................     6
Statement of Lori L. Bassani, National President, Association of 
  Professional Flight Attendants, Submitted for the Record by 
  Hon. Larsen....................................................     6
Prepared Statement of Paul Hudson, President, FlyersRights.org, 
  Submitted for the Record by Hon. Larsen........................    73
Photos of 89 of the 157 Victims of the Ethiopian Airlines Flight 
  302 Crash, Submitted for the Record by Hon. Larsen.............    74

                                APPENDIX

Responses from the following witnesses to questions for the 
  record from Hon. Garret Graves:

    Sharon Pinkerton, Senior Vice President, Legislative and 
      Regulatory Policy, Airlines for America....................    75
    Captain Chesley B. ``Sully'' Sullenberger III, Pilot, US 
      Airways (Retired)..........................................    76
    Hon. J. Randolph Babbitt, Former Administrator, Federal 
      Aviation Administration....................................    77
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             June 14, 2019

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Subcommittee on Aviation
    FROM:   Staff, Subcommittee on Aviation
    RE:       Subcommittee Hearing on ``Status of the Boeing 737
    MAX: Stakeholder Perspectives''

                                PURPOSE

    The Subcommittee on Aviation will meet on Wednesday, June 
19, 2019, at 10:00 a.m. in 2167 Rayburn House Office Building 
to hold an hearing titled, ``Status of the Boeing 737 MAX: 
Stakeholder Perspectives.'' The hearing is intended to gather 
views and perspectives from aviation stakeholders regarding the 
Lion Air Flight 610 and Ethiopian Airlines Flight 302 
accidents, the resulting international grounding of the Boeing 
737 MAX aircraft, and actions needed to ensure the safety of 
the aircraft before returning them to service. The Subcommittee 
will hear testimony from Airlines for America, Allied Pilots 
Association, Association of Flight Attendants--CWA, Captain 
Chesley (``Sully'') Sullenberger, and Randy Babbitt.

                               BACKGROUND

    The Federal Aviation Administration's (FAA) mission is to 
provide the safest, most efficient aerospace system in the 
world. According to the FAA, the risk of a fatal commercial 
aviation accident in the United States has been cut by 95 
percent since 1997. There has only been one commercial airline 
passenger fatality in the United States in more than 90 million 
flights in the past decade.\1\ Prior to that single passenger 
fatality in April 2018, the last fatal domestic commercial 
airline accident occurred in February 2009, when Colgan Air 
Flight 3407 crashed near Buffalo, New York, killing all 49 
onboard and one person on the ground.\2\ However, in a span of 
five months, there have been two fatal commercial airline 
accidents involving the new U.S.-designed and manufactured 
Boeing 737 MAX aircraft operated by foreign air carriers 
outside the United States, raising safety concerns. According 
to the Flight Safety Foundation, worldwide, there were more 
than 50 fatal airline accidents each year through the early and 
mid-1990s, claiming more than 1,000 lives annually.\3\ 
Fatalities dropped from 1,844 in 1996 to just 59 in 2017, then 
rose to 561 last year and 209 already this year (primarily due 
to the two 737 MAX accidents).\4\
---------------------------------------------------------------------------
    \1\ On April 17, 2018, Southwest Airlines Flight 1380 experienced 
an engine failure, resulting in loss of an engine inlet and cowling. 
Fragments struck the airplane's fuselage and damaged a cabin window, 
killing one passenger onboard.
    \2\ NTSB, Loss of Control on Approach, Colgan Air, Inc., Operating 
as Continental Connection Flight 3407, Bombardier DHC 8 400, N200WQ, 
https://www.ntsb.gov/investigations/AccidentReports/Pages/AAR1001.aspx.
    \3\ David Koenig and Tom Krisher, Recent Airline Crashes Run 
Against Trend Toward Safer Flying, U.S. News and World Reports and 
Associated Press, May 6, 2019, available at https://www.usnews.com/
news/business/articles/2019-05-06/recent-airline-crashes-run-against-
trend-toward-safer-flying/.
    \4\ Id.
---------------------------------------------------------------------------

     I. FOREIGN AIR CARRIER ACCIDENTS INVOLVING THE BOEING 737 MAX

A. LION AIR FLIGHT 610

    On October 29, 2018, Lion Air Flight 610 (JT610)--a Boeing 
737 MAX--an Indonesian domestic flight en route to Pangkal 
Pinang from Jakarta, crashed into the Java Sea at 450 miles per 
hour approximately 11 minutes after takeoff, killing all 189 on 
board (184 passengers and 5 crew).
    According to the preliminary accident report by Indonesia's 
Komite Nasional Keselamatan Transportasi (KNKT),\5\ prior to 
departure, the aircraft's left and right angle of attack (AoA) 
sensors, which measure the angle between the airplane's wings 
and the oncoming air, provided the pilots inaccurate readings 
(a 20-degree difference between left and right sensors). This 
faulty data made the accident aircraft believe it was in a 
stall and therefore activated a Boeing system on the 737 MAX 
called the ``maneuvering characteristics augmentation system'' 
(MCAS). The MCAS was designed to adjust the handling of the 
aircraft so that it operates similarly to previous 737 models 
by pushing the nose of the aircraft down based on certain data 
inputs. However, due to erroneous AoA data, the MCAS on JT610 
activated (i.e., pushed the nose of the aircraft down) more 
than two dozen times during the 11-minute flight. The pilots' 
manual attempts to counter the MCAS were ultimately 
unsuccessful.
    The preliminary report provides information on the flight 
crew, including: \6\
---------------------------------------------------------------------------
    \5\ Translated means ``Transportation Safety National Committee'' 
or ``National Transportation Safety Committee.''
    \6\ Lion Air 601 Preliminary Report available at https://
reports.aviation-safety.net/2018/20181029-0_B38M_PK-
LQP_PRELIMINARY.pdf.
---------------------------------------------------------------------------
    <bullet>  Pilot in Command: 6,028 hours (including 5,176 
hours in the Boeing 737; the number of hours in the Boeing 737 
MAX is not provided).
    <bullet>  First Officer: 5,174 hours (including 4,286 hours 
in the Boeing 737; the number of hours in the Boeing 737 MAX is 
not provided).
    According to the preliminary report, there were problems 
reported by flight crews operating the aircraft on October 26, 
27, and 28. The pilots of the flight immediately preceding the 
accident flight (on October 28) experienced similar problems to 
the accident flight on October 29. On the October 28 flight, 
despite experiencing problems, the pilots continued flying with 
manual trim, with the stick shaker activated, and without auto-
pilot until safely landing at Jakarta more than one hour later. 
They reported certain problems to the airline but not the stick 
shaker activation. The aircraft was serviced, tested, and 
determined ready for flight.
    On November 7, 2019, the FAA issued an Emergency 
Airworthiness Directive (AD) requiring operators of the 737 MAX 
to ``revise their flight manuals to reinforce to flight crews 
how to recognize and respond to uncommanded stabilizer trim 
movement and MCAS events.'' \7\ Specifically, the AD stated 
that in the event of an ``erroneously high [AoA] sensor input . 
. . there is a potential for repeated nose-down trim commands 
of the horizontal stabilizer. This condition, if not addressed, 
could cause the flight crew to have difficulty controlling the 
airplane, and lead to excessive nose-down attitude, significant 
altitude loss, and possible impact with terrain.'' \8\ The AD 
identified existing flight crew procedures to be used in such 
circumstances.
---------------------------------------------------------------------------
    \7\ Daniel K. Elwell, FAA, Testimony before for the Senate Commerce 
Committee, Aviation and Space Subcommittee, hearing on State of Airline 
Safety: Federal Oversight of Commercial Aviation, at 7 (Mar. 27, 2019).
    \8\ FAA Emergency Airworthiness Directive, AD 2018-23-51 (Nov. 7, 
2018), available at http://rgl.faa.gov/Regulatory_and_Guidance_Library/
rgad.nsf/0/83ec7f95f3e5bfbd8625833e0070a070/$FILE/2018-23-
51_Emergency.pdf.
---------------------------------------------------------------------------
    Indonesia's KNKT is leading the ongoing accident 
investigation. As mentioned previously, on November 27, 2018, 
the KNKT issued a preliminary report on the Lion Air crash. The 
preliminary report was compiled prior to the recovery of the 
cockpit voice recorder and does not contain analysis. The final 
report, which will include the probable cause(s) of the 
accident, is expected later this year. The National 
Transportation Safety Board (NTSB) is assisting with this 
investigation.

B. ETHIOPIAN AIRLINES FLIGHT 302

    On March 10, 2019, Ethiopian Airlines Flight 302 (ET302)--a 
Boeing 737 MAX--en route from Bole International Airport in 
Addis Ababa, Ethiopia, to Nairobi, Kenya, crashed approximately 
six minutes after takeoff. The accident resulted in the death 
of all 157 people on board (149 passengers and 8 crew members).
    According to the Ethiopian Ministry of Transport's 
preliminary accident report, erroneous AoA data from one sensor 
triggered the MCAS during flight, pulling the nose of the 
aircraft down, before it ultimately crashed into terrain. 
Unlike the Lion Air pilots, the Ethiopian Airline pilots hit 
the ``STAB TRIM CUTOUT'' switches (disconnecting the electric 
portion of the plane's stabilizer), in accordance with Boeing's 
emergency checklist described in the FAA's Emergency AD issued 
months prior. The pilots did not reduce the throttle after 
takeoff and the aircraft accelerated to between 450 and 500 
knots. The maximum design speed of the aircraft is 340 knots. 
As depicted in the image included in Appendix 1, using the 
manual trim wheel at excessive airspeed can be difficult or 
nearly impossible due to the downward force on the plane's 
tail. According to the preliminary accident report, the pilots 
reactivated the motor on the stabilizer, allowing MCAS to push 
the nose down again. The pilots were unable to recover.
    The preliminary report provides information on the flight 
crew, including \9\:
---------------------------------------------------------------------------
    \9\ ET302 Preliminary Report available at http://www.ecaa.gov.et/
documents/20435/0/Preliminary+Report+B737-800MAX+%2C%28ET-AVJ%29.pdf/
4c65422d-5e4f-4689-9c58-d7af1ee17f3e.
---------------------------------------------------------------------------
    <bullet>  Pilot in Command: 8,122 flight hours (including 
1,417 hours in the Boeing 737, and 103 hours in the Boeing 737 
MAX).
    <bullet>  First Officer: 361 flight hours (including 207 
hours in the Boeing 737, and 56 hours in the Boeing 737 MAX).
    Immediately following the accident, foreign civil aviation 
authorities began grounding the Boeing 737 MAX planes. On March 
11, 2019, the FAA issued a Continuous Airworthiness 
Notification to the International Community (CANIC) for 737 MAX 
operators, describing the FAA's activities following the Lion 
Air accident in support of continued operational safety of the 
737 MAX fleet. On March 13, two days later, the FAA ordered a 
temporary grounding of the fleet operated by U.S. airlines or 
in U.S. territory. The Boeing 737 MAX remains grounded today.
    The Ethiopian government is leading the accident 
investigation. As mentioned previously, on April 4, 2019, 
Ethiopia's Ministry of Transport's Aircraft Accident 
Investigation Bureau issued a preliminary report on the 
Ethiopian Airlines crash. A final report detailing probable 
cause(s) of the accident is expected within the year. The NTSB 
is assisting with this investigation as well.

C. ISSUES TO BE CONSIDERED IN 737 MAX ACCIDENT INVESTIGATIONS

    An aviation accident rarely has one probable cause. Rather, 
accident investigators consider a number of factors, including: 
operations, weather, human performance, survival factors, and 
aircraft structures, power plants, and systems, to name a few.
    In terms of the two 737 MAX accidents, as the United States 
is the state of design and manufacture of the accident 
aircraft, the FAA and NTSB are serving as technical experts to 
examine aircraft design and certification. In accordance with 
Annex 13 to the U.N. Chicago Convention of the International 
Civil Aviation Organization (ICAO), Indonesia and Ethiopia will 
(respectively) be responsible for examining a number of 
factors, including: pilot experience, pilot training, 
operational factors, and aircraft maintenance.
    International Pilot Training Standards. According to ICAO 
Standards and Recommended Practices, the pilot-in-command 
requires an Airline Transport Pilot License (ATP). An ATP 
requires a pilot have ``completed not less than 1,500 hours of 
flight time.'' Further, ``[t]he Licensing Authority shall 
determine whether experience as a pilot under instruction in a 
flight simulation training device is acceptable as part of the 
total flight time of 1,500 hours. Credit for such experience 
shall be limited to a maximum of 100 hours, of which not more 
than 25 hours shall have been acquired in a flight procedure 
trainer or a basic instrument flight trainer.'' \10\
---------------------------------------------------------------------------
    \10\ See ICAO Annex 1, Personnel Licensing, at section 2.6 
(regarding airline transport pilot (ATP) license).
---------------------------------------------------------------------------
    ICAO also provides standards to obtain a Multi-Crew Pilot 
License (MPL), which ``allows a pilot to exercise the 
privileges of a co-pilot in a commercial air transportation on 
multi-crew aeroplanes.'' \11\ ICAO Standards for an MPL are set 
at a minimum of 240 hours ``as the minimum number of actual and 
simulated flight hours performing the functions of the pilot 
flying and the pilot non-flying.'' \12\ The ICAO Standard 
``does not specify the breakdown between actual and simulated 
flight hours and thus allow part of the training curriculum 
that was traditionally conducted on aeroplane to be done on 
flight simulation training devices.'' \13\ The applicant pilot 
is required to meet ``all the actual flying time for a private 
pilot license plus additional actual flying time in instrument, 
night flying and upset recovery.''
---------------------------------------------------------------------------
    \11\ See ICAO, Multi-Crew Pilot License, https://www.icao.int/
safety/airnavigation/Pages/peltrgFAQ.aspx#anchor24.
    \12\ Id.
    \13\ Id.
---------------------------------------------------------------------------
    FAA Certification and Delegation of Authority. All aircraft 
and aviation products are subject to FAA certification prior to 
their sale and use in the United States. The FAA is responsible 
for regulating aviation safety, which includes approving the 
design and manufacture of new aircraft and aviation products 
before they enter the National Airspace System (NAS).\14\ 
Therefore, the FAA will need to review and approve any software 
fix proposed by Boeing and determine whether changes to the 737 
MAX training program are needed to get the aircraft back into 
commercial service.
---------------------------------------------------------------------------
    \14\ See 49 U.S.C. Sec. Sec.  44702, 44704; GAO, Aviation 
Manufacturing: Status of FAA's Efforts to Improve Certification and 
Regulatory Consistency (July 31, 2014), GAO-14-829T, at 1.
---------------------------------------------------------------------------
    Since even before the FAA was formed over 60 years ago, the 
Federal government has delegated some safety certification 
responsibilities to technical experts in the industry. As 
airplanes, engines, and their constituent systems became 
increasingly complex, Congress authorized the FAA to leverage 
the product-specific knowledge among appropriately-qualified 
employees of manufacturers to determine a new product's 
compliance with the applicable provisions of the Federal 
Aviation Regulations. A designee may receive authority to 
examine, inspect, and test aircraft and persons for the purpose 
of issuing certificates.\15\
---------------------------------------------------------------------------
    \15\ GAO-14-829T at 4.
---------------------------------------------------------------------------
    The delegation program allows the FAA to leverage limited 
resources to focus on the areas of highest-risk and make timely 
certification decisions. According to the Government 
Accountability Office (GAO), in terms of the breadth or scope 
of activities performed by FAA designees, designees perform 
more than 90 percent of FAA's certification activities.\16\ 
However, the FAA has ultimate responsibility to ensure 
appropriate oversight is taken and aircraft are certified in a 
safe manner.
---------------------------------------------------------------------------
    \16\ GAO, Aviation Safety: FAA Efforts Have Improved Safety, but 
Challenges Remain in Key Areas (Apr. 16, 2013), GAO-13-442T, at 3-4. In 
a May 7, 2019, email to Committee staff, the GAO clarified that the 90 
percent number refers to the breadth or scope of FAA activities on 
which designees can do rather than the amount of certification work 
done by designees.
---------------------------------------------------------------------------
    Since the original 737 aircraft was certified in the 1960s, 
there have been more than a dozen new models of the aircraft 
approved for flight. The 737 MAX is the latest version of the 
737 aircraft. With regard to the FAA certification of the 737 
MAX, the process to issue a type-certificate, from initial 
application to final certification, took five years, according 
to the FAA.\17\ The process included 297 certification flight 
tests, including tests of the MCAS functions. The final type 
certificate was issued in March 2017. The FAA reports it was 
``directly involved'' in the System Safety Review of the 
MCAS.\18\
---------------------------------------------------------------------------
    \17\ See Koenig, supra note 3 at 6.
    \18\ Id.
---------------------------------------------------------------------------

                   II. REVIEWS OF THE BOEING 737 MAX

    Subsequent to the two fatal foreign airline Boeing 737 MAX 
accidents, the U.S. Department of Transportation (DOT), FAA, 
and Boeing have stood up various panels, including those 
explained below.

A. SAFETY OVERSIGHT AND CERTIFICATION ADVISORY COMMITTEE (SOCAC)

    On March 25, 2019, as mandated by Congress in the FAA 
Reauthorization Act of 2018, DOT announced it will stand up the 
Safety Oversight and Certification Advisory Committee. The 
SOCAC is required to advise the Transportation Secretary on 
policy-level issues related to FAA safety certification and 
oversight programs, including efforts to streamline aircraft 
and flight standards certification processes, utilization of 
delegation authorities, risk-based oversight efforts, and 
training programs. The SOCAC will develop training and 
continuing education objectives for FAA engineers and safety 
inspectors. While not directly tasked with Boeing 
certification, aircraft certification is a key tasking of the 
committee.

B. SAFETY OVERSIGHT AND CERTIFICATION ADVISORY COMMITTEE SPECIAL 
                    COMMITTEE

    On March 25, 2019, DOT announced it would create a Special 
Committee to review the FAA's Aircraft Certification Process 
(Special Committee) within the structure of the SOCAC, 
described previously.\19\ The Special Committee is tasked with 
reviewing the procedures of the FAA for the certification of 
new aircraft, including the Boeing 737 MAX.\20\ The Special 
Committee's review of the certification process includes the 
``FAA certification process workplan, process timeline, 
Organization Designation Authorization, Designated Engineering 
Representatives Authorization/Certification, Authorized 
Representation Certification and oversight thereof.'' \21\ The 
Special Committee will focus primarily on the Boeing 737 MAX 8 
certification process from 2012 to 2017 and make 
recommendations for how the process could be improved.\22\ Its 
findings and recommendations will then be presented directly to 
the DOT Secretary and the FAA Administrator for their 
consideration.\23\
---------------------------------------------------------------------------
    \19\ FAA, DOT Announces Special Committee to Review FAA's Aircraft 
Certification Process (2019), available at https://
www.transportation.gov/briefing-room/dot1619.
    \20\ Id.
    \21\ DOT, Letter to General McDew (2019), available at https://
www.transportation.gov/sites/dot.gov/files/docs/briefing-room/337281/
gen-darren-mcdew.pdf.
    \22\ Id.
    \23\ Id.
---------------------------------------------------------------------------

C. JOINT AUTHORITIES TECHNICAL REVIEW

    On April 2, 2019, the FAA established a Joint Authorities 
Technical Review (JATR) \24\ to conduct a comprehensive review 
of the certification of the automated flight control system 
(MCAS) on the Boeing 737 Max, including evaluating aspects of 
its design and pilots' interaction with the system, determining 
its compliance with all applicable regulations and identifying 
future enhancements that might be needed.\25\
---------------------------------------------------------------------------
    \24\ FAA, FAA Updates on the Boeing 737 MAX: FAA Establishes Joint 
Authorities Technical Review (JATR) for Boeing 737 MAX (2019), 
available at https://www.faa.gov/news/updates/?newsId=93206.
    \25\ On March 26, 2019, Chair of the House Committee on 
Transportation and Infrastructure Peter DeFazio (D-OR) and Chair of the 
Subcommittee on Aviation Rick Larsen (D-WA) sent a letter to FAA Acting 
Administrator Daniel K. Elwell, urging the agency to engage an 
independent, third-party review composed of individuals with the 
technical skills and expertise to objectively assess the corrective 
measures proposed for the 737 MAX by Boeing.
---------------------------------------------------------------------------
    The JATR is chaired by former NTSB Chairman Chris Hart and 
comprised of a team of experts from the FAA, National 
Aeronautics and Space Administration (NASA), and international 
aviation authorities, including China, Indonesia, Australia, 
Brazil, Canada, Singapore, the United Arab Emirates (UAE), and 
the European Union Aviation Safety Agency (EASA).\26\ The JATR 
had its first meeting on April 29, 2019, and is expected to 
last three months from the date it was established.\27\ The 
JATR is not tied to the FAA's decision for return to service of 
the 737 MAX. That decision will be based upon FAA's assessment 
of the sufficiency of the proposed software updates and pilot 
training to address known issues for grounding the aircraft.
---------------------------------------------------------------------------
    \26\ FAA Establishes JATR, supra note 24.
    \27\ Id.
---------------------------------------------------------------------------

D. TECHNICAL ADVISORY BOARD

    On May 6, 2019, the FAA launched the Technical Advisory 
Board (TAB). The TAB is tasked with conducting an independent 
review of Boeing's proposed software change and its integration 
into the 737 MAX flight control system. The review, which will 
run parallel to FAA's software reviews and flight tests, will 
include experts from the FAA, U.S. Air Force, the Volpe 
National Transportation Systems Center and NASA. The TAB is 
distinct from the JATR, in that the JATR focuses broadly on the 
earlier certification of the automated flight control system.

E. BOEING BOARD OF DIRECTORS REVIEW COMMITTEE

    On April 5, 2019, Boeing announced it was creating a panel 
that will examine the design and development of its 
aircraft.\28\ According to Boeing's statement, the panel will 
examine ``company-wide policies and processes for the design 
and development of its aircraft'' and will also ``confirm the 
effectiveness of [its] policies and processes for assuring the 
highest level of safety on the 737-MAX program, as well as 
[its] other airplane programs, and recommend improvements to 
[its] policies and procedures.'' \29\
---------------------------------------------------------------------------
    \28\ Boeing, Statement from Boeing CEO Dennis Muilenburg: We Own 
Safety--737 MAX Software, Production and Process Update (2019), 
available at https://boeing.mediaroom.com/2019-04-05-Statement-from-
Boeing-CEO-Dennis-Muilenburg-We-Own-Safety-737-MAX-Software-Production-
and-Process-Update.
    \29\ Id.
---------------------------------------------------------------------------

                      III. ONGOING INVESTIGATIONS

A. U.S. HOUSE OF REPRESENTATIVES COMMITTEE ON TRANSPORTATION AND 
                    INFRASTRUCTURE

    On March 13, 2019, Chairman Peter A. DeFazio and 
Subcommittee on Aviation Chairman Rick Larsen launched an 
investigation by the Committee on Transportation and 
Infrastructure into the certification of the Boeing 737 MAX.

B. DOT INSPECTOR GENERAL

    On March 19, 2019, Secretary of Transportation Elaine Chao 
requested the DOT Inspector General (DOT IG) conduct an audit 
``to compile an objective and detailed factual history of the 
activities that resulted in the certification of the Boeing 
737-MAX 8 aircraft.'' \30\
---------------------------------------------------------------------------
    \30\ The DOT IG reports similar audit requests from the Chairman 
and Ranking Member of the Senate Committee on Appropriations, 
Subcommittee on Transportation, Housing and Urban Development, and 
Related Agencies; and Senator Richard Blumenthal (D-CT). See DOT OIG, 
Audit Announcement: FAA's Oversight of Boeing 737 MAX Certification, 
available at https://www.oig.dot.gov/sites/default/files/
Audit%20Annoucement%20-%20FAA%27s%20Oversight
%20of%20the%20Boeing%20737%20MAX%20Certification.pdf.
---------------------------------------------------------------------------
    On March 19, 2019, Chairman DeFazio and Aviation 
Subcommittee Chairman Rick Larsen asked DOT IG to investigate 
the certification process for the Boeing 737 MAX, including how 
each of the new features on the plane, including the AoA 
sensors and the MCAS, were tested and certified. The request 
also seeks investigation of the FAA's decision not to revise 
pilot training programs and manuals to reflect flight critical 
automation systems; how new features of the aircraft were 
communicated to airline customers, pilots and foreign civil 
aviation authorities; whether ODA authority contributed to any 
of the factors FAA considered in its decision-making; and a 
status report on how corrective actions have been implemented 
since the Lion Air crash in October 2018.
    On March 29, 2019, Chairman DeFazio, Ranking Member Sam 
Graves, Aviation Subcommittee Chair Larsen, and Aviation 
Subcommittee Ranking Member Garrett Graves requested that the 
DOT IG launch an investigation of international pilot training 
standards and training for commercial pilots operating outside 
of the United States, including training for the Boeing 737 
MAX.

C. U.S. DEPARTMENT OF JUSTICE

    According to multiple news sources, it was reported that 
the U.S. Department of Justice (DOJ) is conducting a criminal 
investigation into the FAA's certification of the Boeing 737 
MAX.\31\ Reports indicate the investigation began after the 
October 2018 Lion Air crash and is primarily focusing on the 
certification process.\32\ According to news reports, the FBI 
Seattle Office and the Justice Department's criminal division 
in Washington State are leading the investigation.\33\ The 
Justice Department has declined to comment.
---------------------------------------------------------------------------
    \31\ See Steve Miletich, FBI Joining Criminal Investigation into 
Certification of Boeing 737 MAX, The Seattle Times (Mar. 20, 2019), 
available at https://www.seattletimes.com/business/boeing-aerospace/
fbi-joining-criminal-investigation-into-certification-of-boeing-737-
max/; Evan Perez and Shimon Prokupecz, Justice Department Issues 
Subpoenas in Criminal Investigation of Boeing, CNN (Mar. 21, 2019), 
available at https://www.cnn.com/2019/03/20/business/boeing-justice-
department-subpoenas/index.html.
    \32\ Id.
    \33\ Id.
---------------------------------------------------------------------------

D. U.S. SECURITIES AND EXCHANGE COMMISSION

    According to multiple news sources, it was reported that 
the Securities and Exchange Commission (SEC) is investigating 
whether Boeing ``was adequately forthcoming to shareholders 
about material problems with the [Boeing 737 MAX]'' and whether 
the company's ``financial statements have appropriately 
reflected potential impacts from the problems.'' \34\ The SEC 
has declined to comment.\35\
---------------------------------------------------------------------------
    \34\ Bloomberg, Boeing Faces SEC Probe into Disclosures about 737 
MAX Troubles (May 24, 2019), https://www.bloomberg.com/news/articles/
2019-05-24/boeing-faces-sec-probe-into-disclosures-about-737-max-
troubles.
    \35\ Id.
---------------------------------------------------------------------------

              IV. NEXT STEPS AND IMPACTS OF THE GROUNDING

    Returning to Service in the United States. After the 
October 2018 Lion Air crash, Boeing announced that the company 
is working on a design change to implement a software patch for 
the MCAS. Boeing continues to work on the certification 
documentation required to certify the MCAS software enhancement 
and the associated pilot training material. The FAA is 
responsible for reviewing and approving this and any other 
design changes to the 737 MAX. According to the FAA, the ``737 
MAX will return to service for U.S. carriers and in U.S. 
airspace only when the FAA's analysis of the facts and 
technical data indicate that it is appropriate.'' \36\ Boeing 
CEO Dennis Muilenburg expects the 737 MAX to return to service 
by the end of 2019,\37\ although the FAA has not committed to a 
timeline.\38\
---------------------------------------------------------------------------
    \36\ Elwell, supra note 7, at 9.
    \37\ CNBC, Boeing CEO Says Troubled 737 MAX Jets Should be Flying 
by the End of the Year (June 3, 2019).
    \38\ NBCDFW, FAA Meets with International Regulators Over Boeing 
737 MAX (May 23, 2019), https://www.nbcdfw.com/news/local/FAA-Meets-
With-International-Regulators-Over-Boeing-737-Max-510341841.html.
---------------------------------------------------------------------------
    International Input. On May 23, 2019, the FAA convened 
foreign civil aviation authorities from around the world in 
Fort Worth, Texas, to explain the agency's plan and approach to 
evaluating Boeing's forthcoming changes to the 737 MAX.\39\ As 
stated by Acting FAA Administrator Dan Elwell, 
``Internationally, each country has to make its own decisions, 
but the FAA will make available to [its] counterparts all that 
[it has] learned, all that [it has] done, and all of [its] 
assistance under [U.S.] International Civil Aviation 
Organization commitments.'' \40\ The European Union (EU) has 
stated it will require four conditions before allowing the 737 
MAX to fly again in its skies, including that the European 
Aviation Safety Agency (the EU's equivalent of the FAA) 
approves Boeing's updates to the aircraft separate from the FAA 
determination.\41\
---------------------------------------------------------------------------
    \39\ FAA Acting Administrator Dan Elwell's Opening and Closing 
Remarks at Directorates General Meeting, May 22 & 23 2019, https://
www.faa.gov/news/updates/?newsId=93206
&omniRss=news_updatesAoc&cid=101_N_U.
    \40\ Id.
    \41\ POLITICO, Shadow of Global Mistrust Colors FAA's 737 MAX 
Gathering (May 22, 2019).
---------------------------------------------------------------------------
    Impacts on Airlines and their Customers. There are more 
than 370 Boeing 737 MAX aircraft worldwide,\42\ and, according 
to news reports, there are fewer than 100 operated by U.S. 
airlines and grounded at this time.\43\ Southwest Airlines is 
the top 737 MAX operator in the United States. Airlines have 
cancelled thousands of flights as a result of the international 
grounding of the 737 MAX aircraft and have made schedule and 
fleet adjustments to best accommodate passengers.\44\ According 
to news reports, United Airlines alone has cancelled more than 
3,000 flights and has removed its 14 MAX aircraft from 
scheduled service through August 3, 2019,\45\ and American 
Airlines has removed its 24 MAX aircraft from scheduled service 
through September 3, 2019.\46\ It is reported that even after 
the 737 MAX returns to service, airlines recognize potential 
difficulty in getting passengers comfortable flying in the 
aircraft again.\47\ Media reports indicate that at least one 
airline has cancelled its contract with Boeing for new 737 MAX 
aircraft altogether.\48\
---------------------------------------------------------------------------
    \42\ See Boeing, 737 MAX Updates, https://www.boeing.com/
commercial/737max/737-max-contacts.page.
    \43\ CNBC, U.S. Grounds Boeing 737 MAX Planes, Citing Links Between 
2 Fatal Crashes (Mar. 13, 2019), https://www.cnbc.com/2019/03/13/
boeing-shares-fall-after-report-says-us-expected-to-ground-737-max-
fleet.html.
    \44\ See American Airlines statement, June 9, 2019, http://
news.aa.com/news/news-details/2019/The-Latest-Information-About-737-
MAX-Operations/default.aspx; Statement of Gary Kelly, Southwest 
Airlines, April 26, 2019, https://www.southwest.com/html/air/737-MAX-
8.html?clk=737MAX8_190408; and CNBC, United CEO Says He's Not Sure 
Travelers Will Want to Fly a Boeing 737 MAX--Even After a Fix (May 30, 
2019).
    \45\ United CEO, supra note 44.
    \46\ CNBC, American Airlines Extends Cancellations from Grounded 
Boeing 737 Max to Sept. 3 (June 9, 2019), https://www.cnbc.com/2019/06/
09/american-airlines-extends-boeing-737-max-to-september.html.
    \47\ Id.
    \48\ See e.g., Reuters, Azerbaijan Cancels $1 Billion Contract with 
Boeing for Safety Reasons (June 3, 2019), https://www.reuters.com/
article/us-boeing-azerbaijan/azerbaijan-cancels-1-billion-contract-
with-boeing-for-safety-reasons-idUSKCN1T413D.
---------------------------------------------------------------------------

                               WITNESSES

    <bullet>  Sharon Pinkerton, Senior Vice President, 
Legislative and Regulatory Policy, Airlines for America
    <bullet>  Captain Daniel Carey, President, Allied Pilots 
Association
    <bullet>  Captain Chesley Sullenberger, Pilot, US Airways 
(Retired)
    <bullet>  Sara Nelson, International President, Association 
of Flight Attendants--CWA
    <bullet>  The Honorable Randy Babbitt, Former 
Administrator, Federal Aviation Administration

                              APPENDIX 1. 
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Seattle Times, ``Why Boeing's emergency directives may have failed to 
           save 737 MAX,'' by Dominic Gates on April 3, 2019.


         STATUS OF THE BOEING 737 MAX: STAKEHOLDER PERSPECTIVES

                              ----------                              


                        WEDNESDAY, JUNE 19, 2019

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2167, Rayburn House Office Building, Hon. Rick Larsen 
(Chairman of the subcommittee) presiding.
    Mr. Larsen. The subcommittee will come to order. I ask 
unanimous consent the chair be authorized to declare recesses 
at today's hearing. Without objection, so ordered.
    I also ask unanimous consent members not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearing and ask questions. Without objection, so 
ordered.
    Good morning. And I want to thank today's witnesses for 
joining the subcommittee's ongoing discussion on the status of 
the Boeing 737 MAX. Today's hearing is the second in a series 
investigating the tragic Boeing 737 MAX accidents. The purpose 
of today's hearing is to hear from people who fly the airplanes 
and from the people who fly in the airplanes, and those who 
represent them.
    A total of 346 people have died in the Lion Air and 
Ethiopian Airlines accidents, and their loved ones deserve 
answers. The traveling public's confidence in U.S. aviation is 
shaken. Congress, the administration, and industry must work 
together to restore confidence in air travel. The foundation of 
this committee's investigation into the Boeing 737 MAX is 
ensuring safety.
    As I have said before, if the public does not feel safe 
about flying, then they won't fly. If they don't fly, airlines 
don't need to buy airplanes. If they don't need to buy 
airplanes, airplanes don't need to be built. And if there is no 
need to build airplanes, there will be no jobs in aviation.
    The foundation of the aviation industry is its safety, and 
today's hearing builds on the committee's ongoing 
investigation. Safety remains this committee's guiding 
principle. In this committee we use all tools to reduce the 
likelihood of future tragedies.
    I want to start by updating subcommittee members and the 
public on the committee's work since last month's hearing.
    Chair DeFazio and I continue to engage with the Federal 
Aviation Administration, the NTSB, Boeing, pilots, aviation 
stakeholders, and others about these accidents. Second, the 
committee's oversight and investigation team continues to work 
with the FAA and Boeing on securing records that the chair and 
I requested on the certification of the MAX.
    More recently, Chair DeFazio and I have recently wrote to 
Transportation Secretary Chao and FAA Acting Administrator 
Elwell, expressing concerns about the slow pace of the FAA's 
response to our records request. It is my expectation that both 
will cooperate with the committee's investigation in a timely 
manner. Third, we have written to Boeing, United Technologies 
Corporation, and the FAA, requesting a timeline and supporting 
documents related to the awareness of when the angle of attack, 
or the AOA, disagree alert, on some Boeing 737 MAX planes, was 
defective, as well as when the groups notified airlines about 
this defect.
    The committee is aware of information suggesting that 
Boeing decided in November of 2017 to defer a software update 
to correct the AOA disagree alert defect until 2020, 3 years 
after discovering a flaw, and only accelerated its timeline 
after the October 2018 Lion Air accident. This information is 
deeply concerning, and the committee must find out what Boeing 
knew, when the company knew it, and who it informed.
    I also have questions about the decision to not deem the 
AOA disagree alert as safety critical. The information the 
committee is requesting will help us better understand these 
management decisions. And I as well, again, encourage all 
members of the subcommittee to continue personally monitoring 
the situation. Staff continues to be available for any 
questions the subcommittee may have surrounding our 
investigation and can provide you with updates as they become 
available.
    What I hope to hear today from witnesses: More than 300 
Boeing 737 MAX planes have been grounded worldwide since the 
Ethiopian Airlines accident in March, and more than 130 are 
parked. More than 4,500 orders for the MAX worldwide remain 
unfilled since Boeing stopped delivering, that is over a longer 
period of time.
    Today's hearing is an opportunity to gather views and 
perspectives from key users of the aircraft--pilots, flight 
attendants, the industry, and those representing passengers' 
views--on what the FAA, Boeing, and the airlines need to do 
before returning the 737 MAX to service. The committee is not 
here yet to make conclusions as to what caused these accidents, 
that is the NTSB's job, but as with any aviation accident, 
investigators must consider a multitude of factors, including 
aircraft design, aircraft maintenance, weather, and human 
performance, before making a final determination of probable 
cause or causes.
    In the end, there will be a root cause and there will be 
contributing factors. Nevertheless, it is critical the public 
hear from frontline stakeholders as part of our oversight work.
    Captain Carey and Captain Sullenberger, I look forward to 
hearing the pilots' perspective on these accidents, pilots' 
role in the FAA certification process, and associated pilot 
training.
    Ms. Nelson, flight attendants are on the front lines of 
passengers. I am interested in hearing your thoughts of what 
must take place to restore the confidence of the flying public 
and help you perform your important work.
    Ms. Pinkerton, I would like to hear more about the impact 
of the grounding on the airlines, airlines' engagement with the 
FAA and Boeing on certification of the aircraft and related 
fixes, and next steps to ensure safety.
    And, Mr. Babbitt, as a former FAA Administrator, I look 
forward to your thoughts on the importance of coordination of 
the international aviation community on this issue and how the 
FAA can regain its credibility and restore the public's trust.
    And I hope today's testimony will help this committee 
better understand what is needed to restore the trust of the 
flying public and show this committee's commitment to safety by 
asking all the appropriate questions.
    As Congress seeks answers during the Lion Air and the 
Ethiopian Airlines accidents, this committee must also work to 
restore the public confidence in the MAX and the FAA's mission, 
importantly, to maintain the safety of U.S. aviation in 
aerospace. The committee will continue its thorough 
investigation until it fully understands all the issues 
surrounding the 737 MAX accidents.
    And I will continue to work with Chair DeFazio and my 
colleagues, Representative Graves and Representative Graves in 
the full committee, as well as FAA, NTSB, Boeing, aviation 
stakeholders, and the families of victims throughout this 
process.
    So, again, I want to thank today's witnesses. I look 
forward to hearing your insights, and I turn to Representative 
Graves of Louisiana for an opening statement.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. I don't 
know why you keep mispronouncing my name and pronouncing his 
the right way.
    I want to thank you all for being here today. And I think 
the most important thing that we all need to stay focused on is 
the families and the victims. I am, once again, very, very 
sorry for your loss. Anything we do that loses sight that this 
is about people, it is about lives lost, it is about safety, is 
a distraction. And throughout this process, we need to stay 100 
percent focused on lessons learned, on safety, and making sure 
that this does not happen again.
    In light of that, I want to go through and reference some 
of the different committees and efforts that are underway right 
now to ensure that we do extract every lesson learned from 
these disasters and make sure that other families don't have to 
go through the devastating situation that these families are 
going through today.
    Right now, the special committee on Safety Oversight and 
Certification Advisory Committee, a DOT-initiated group, is 
going through studying this process, lessons learned, from the 
disasters. The Safety Oversight Certification Advisory 
Committee that, once again, DOT has established, is going 
through and evaluating the lessons learned here. Joint 
Authorities Technical Review is an FAA-initiated group that is 
looking at this. The Boeing board of directors has a review 
committee that Boeing initiated. The Technical Advisory Board, 
FAA initiated. There are various Department of Transportation 
inspector general investigations that are underway right now. 
And as I recently became aware, this committee is doing an 
investigation and has hired investigators to look at this as 
well. So there are numerous efforts that are underway right now 
to ensure that we chart a better path forward.
    I want to thank all the witnesses for being here today. 
Thank you to every single one of you. And I did have a chance 
to review your testimony.
    Ms. Nelson, you make a really important point in your 
testimony talking about how we need to ensure that we don't 
allow this to erode the United States sort of standing in the 
international aviation community. And you are exactly right 
about that, we need to ensure we do that.
    Captain Sullenberger, thank you for being here. In your 
testimony, you talk about the chain of events, and I think you 
used the term ``causal chain of events'' that contributed to 
this. We need to make sure, and a lot of people are focused on 
one single aspect of this, but I think it is important, your 
testimony is exactly right, that we do need to look at every 
aspect, not just one. Certainly, the MCAS system has been a 
focus of this and it needs to continue to be, but we need to 
make sure we look at every other step in the process as well to 
make sure that we don't fix one thing and don't recognize 
perhaps the failures or challenges associated with other 
aspects of this. And I appreciate that.
    Mr. Babbitt, thank you for your testimony. And you talked 
about your confidence in the FAA certification system, and yet 
I think you said in your testimony that it is not perfect. But 
one of the things that you do have faith in, and don't let me 
put words in your mouth, but I will leave it in your testimony, 
you talked about how the certification process may be 
imperfect, but you do have a lot of faith in our ability to 
adapt and fix it.
    One of the things in reviewing all of your testimony, that 
comes to mind, we are becoming more heavily reliant upon 
technology. We know it in everything that we do. And I have got 
my old car that I drive that has virtually no technology, and 
if I get in somebody who has got a newer car, and all of the 
different sensors that are out there, and the rearview mirrors 
when you are changing lanes, when you are fading off, when you 
are going too fast, it is somewhat overwhelming and it is very 
different. Is it making us become more complacent in driving, 
in flying planes? And if so, how do we challenge that? How do 
we challenge that--us becoming more complacent and ensuring 
that we stay as alive as on top of what we are doing and don't 
become too dependent upon this technology.
    How does that technology challenge the certification 
process? How does the certification process need to adapt to 
the fact that we are becoming more reliant upon technology to 
ensure, once again, that we are staying alive, that we are 
paying attention to what is happening?
    Look, at the end of the day, I am going to circle back to 
where I started. This is about safety and it is about people. 
And there have been many efforts that we have seen over the 
past few months to make this a partisan effort, and I cannot 
disagree with that more. I think it is a huge mistake to do 
that. There is nothing that is partisan about this. Every 
single one of us that are here today in this room, every one of 
us that is on this dais, we all need to stay singularly focused 
on the fact this is about safety and people.
    And I want to thank you, Mr. Chairman, for having this 
second hearing today, and I am looking forward to the 
witnesses. I do want to make note, we have a markup in another 
committee, four bills that are very much related to the State 
that I represent, and I am going to have to run in and out. I 
think we have 80 amendments over there.
    So I yield back.
    [Mr. Graves of Louisiana's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Garret Graves, a Representative in Congress 
   from the State of Louisiana, and Ranking Member, Subcommittee on 
                                Aviation
    Thank you, Mr. Chairman, for calling today's hearing.
    I also want to express my condolences to the families and friends 
of those lost in the two accidents, some of whom are with us today. 
This is the second hearing that the Subcommittee has held on the Boeing 
737 MAX, and we are closely following open investigations and the FAA 
and NTSB process for making key fixes. Throughout this process we must 
stay focused on lessons learned, safety, and ensuring that this tragedy 
never repeats itself.
    As has been said before, the United States has the strongest 
aviation safety record in the world. The reason we have such a safe 
system is that past Congresses and administrations of both parties have 
pushed partisanship aside and worked together to improve the safety of 
our system.
    When accidents happen, we must ask hard questions and demand that 
aviation stakeholders do the same.
    The FAA is asking itself hard questions, as is Boeing. We would be 
remiss if we didn't expect airlines and pilot organizations to ask 
themselves similarly hard questions.
    In addition to design and potential certification deficiencies, we 
have to understand why pilots facing similar challenging circumstances 
react in very different ways. We have to take a look at industry 
assumptions on pilot responses and human-computer interfaces. And we 
have to figure out whether global pilot training requirements 
adequately prepare pilots for all situations they may face, 
particularly when automated systems fail.
    If we don't work to understand these factors, we are not doing 
everything we can to keep the flying public safe.
    We are all committed to ensuring that automated aircraft systems 
provide the safety benefits they are supposed to. But when automation 
fails, a well-trained pilot must be prepared to respond. By looking 
into all these issues, we can seek to avoid accidents relating to 
automation failures on other aircraft too.
    At some point, the Boeing 737 MAX will fly again. The FAA has laid 
out a rigorous and uncompromising process for the aircraft to go 
through before its return to service. Based on what we know currently, 
we believe it will involve changes to the MCAS system and changes to 
training requirements.
    We can all be confident that the FAA will only unground the 737 MAX 
when it is certain that Boeing has addressed any identified issue and 
that the aircraft is completely safe to fly.
    I believe that Congress must be at least as meticulous and 
deliberative as the FAA in our efforts to figure out what went wrong 
and determine what our next steps are.
    Thank you again, Mr. Chairman, for holding today's hearing.

    Mr. Larsen. Thank you, Representative Graves. And it is 
fair for you to make sure you make your votes and your markup. 
We appreciate that.
    Before I turn to Chair DeFazio for an opening statement, I 
just ask unanimous consent the following be entered into the 
record of today's hearing: A June 12 letter from Ms. Nadia 
Milleron and Mr. Michael Stumo to Chair DeFazio, and the 
written testimony from the Association of Professional Flight 
Attendants.
    Hearing no objection, so ordered.
    [The information follows:]

                                 <F-dash>
Letter from Nadia Milleron and Michael Stumo, Submitted for the Record 
                             by Hon. Larsen

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <F-dash>
   Statement of Lori L. Bassani, National President, Association of 
Professional Flight Attendants, Submitted for the Record by Hon. Larsen
    On behalf of the National President of the Association of 
Professional Flight Attendants (APFA), I am submitting this testimony 
to the Committee on Transportation and Infrastructure. APFA is the 
largest mainline Flight Attendant Union in the world and represents the 
28,000 plus Flight Attendants of American Airlines. First and foremost, 
APFA grieves for our professional colleagues, the 12 Flight Attendants 
who lost their lives in the Lion Air and Ethiopia Airlines crashes, as 
well as for the 330 passengers and 4 pilots who perished. These people 
expected the Boeing 737 MAX 8 planes they were flying on and operating 
to be fit for service. We now know that they were not.
    These accidents account for a massive loss of life. In the wake of 
this loss, we are left with a dire commitment to fulfill. As safety 
professionals, we in the aviation industry must ensure that accidents 
like these never happen again. We need our investigative agencies to 
set aside all political interests to uncover exactly what happened with 
the MAX 8 and why it happened. We need our agencies to spare no 
expense, or time, to ensure that when the 737 MAX returns to the air it 
is 100% airworthy.
    The members of APFA are and will be on the forefront of the issues 
surrounding the MAX 8. Aside from Southwest, American Airlines flies 
the largest fleet of the MAX 8 among all airlines. The 24 planes in our 
fleet have been pulled from service and this has affected over 100 
flights a day. The flying public and schedules of flight crew have been 
impacted.
    Though various parties will be involved in determining the timeline 
to get the MAX 8 in operation again, as Flight Attendants, we will be 
the ones fielding the questions and concerns of passengers when the 
plane is reintroduced. Our Flight Attendants must be included every 
step of the way as they must be 100 percent comfortable and confident 
in the aircraft's airworthiness to transport customers and crew.
    Let me state that we have the highest regard for our pilots, 
members of our brother union, the Allied Pilots Association, which 
represents American Airlines' pilots. We stand in solidarity with APA 
as they continue to advocate for what they need to feel confident in 
the aircraft they are flying. Recently, it was reported that our flight 
deck crewmembers were denied access to a 737 MAX simulator. APA wanted 
their own safety experts to test this full-motion simulator that has 
integrated the new fixes for the Boeing MCAS before it went through the 
FAA certification process. Our pilots expected to be able to test these 
new systems prior to certification so that their input would have real 
bearing on the final solution. In a statement last week, Jason 
Goldberg, a spokesperson for APA said, ``We really have no idea why 
this stance would be taken towards our participation. We can't 
understand why.'' We don't either. This is not acceptable. The pilots 
who fly the 737 MAX every day must be involved, like the Flight 
Attendants at every step in the reintroduction.
    I would like to point out one key issue that must be addressed 
prior to the 737 MAX going back into service. The overriding question 
or issue is one of trust. Does the public, and do our Flight Attendants 
and pilots, trust our management, the FAA, and Boeing to make their 
decisions solely based on safety?
    Let me be clear. While we understand management's position that the 
grounding of the 737 MAX has created a hardship during the busy summer 
travel season, financial considerations should never trump safety. We 
applaud Mr. Ali Bahrami, the FAA's Associate Administrator for Safety, 
who recently stated that although the FAA is ``under a lot of 
pressure,'' the MAX would be returned to service only after design 
reviews, flight testing and the other safety checks are successfully 
completed. While Mr. Bahrami was reluctant to give a date, he agreed 
with Boeing's estimate of a return by the end of 2019. We believe the 
public gets mixed messages when members of AA management make arbitrary 
statements that the MAX will be ``ready to go'' by mid-August. Let me 
assure you that as cabin crew, we spend the greatest amount of time 
with the traveling public and they rely on us to reaffirm that we have, 
and will continue to have, the safest aviation system in the world. As 
Flight Attendant safety professionals, our top priority is safety, 
period.
    To underscore the trust deficit that our regulators and 
manufacturers have developed, NPR recently polled its listeners and out 
of 1,600 respondents, over 1,000 said that they would not fly the MAX 
when it is returned to service.
    Again, I have raised the issue of trust because it is the Flight 
Attendants who will be on the front line when this plane goes back in 
the air. If the public does not believe that the process of returning 
the 737 MAX 8 to service is not the result of a thorough, rigorous, and 
transparent safety-driven process, then this aircraft will likely be 
forever tainted.
    The Transportation and Infrastructure Committee must continue to 
exercise its constitutionally mandated responsibility to conduct 
oversight of executive branch agencies. I congratulate Chairman DeFazio 
and Chairman Larsen for conducting this important hearing. I look 
forward to future hearings once the FAA approval software and training 
fixes are announced. Congress must continue its oversight functions on 
behalf of all people, airline passengers and crew.

    Mr. Larsen. And with that, I will turn to Chair DeFazio for 
an opening statement.
    Mr. DeFazio. Thank you, Mr. Chairman.
    This is, of course, our second hearing. I don't think we 
should be here today. I don't think 346 people should have 
died, and I believe that this was preventable.
    We have family here today who lost a daughter, and we will 
hear from them at a future meeting. But there are a lot of 
questions that still remain unanswered, and we are pressing 
forward with this as a very comprehensive investigation. A lot 
of it leads back to the Organizational Designation 
Authorization process, certification process.
    The question about the role of engineers in this process 
versus that of operators, pilots, and other safety 
professionals who work on those planes. It is inexplicable to 
me, and I asked--in the first hearing, I asked the Acting 
Administrator, I said, is this a safety critical system, MCAS? 
And he said, yes. And my question then was: How could we allow 
a safety critical system with a single point of failure? We do 
not allow that in the aviation industry. Well, the answer from 
Boeing, at an early meeting after Lion Air was, well, the 
pilots were the backup system. The pilots didn't know it 
existed.
    And the original system was relatively mild, .6 degrees of 
deflection, you know, not repeated overrides of the pilot's 
command, and, you know, that was in the manual. But then the 
Boeing engineers changed it to 2\1/2\ degrees repeated 
overriding the pilot's decision, and asked the FAA to take it 
out of the manual. Now, that to me is shocking. It is in the 
first manual when it is a relatively mild system that kind of 
is similar to what we are going to--they are proposing with 
their fix, except it will have two angle-of-attack sensors 
input and other modifications.
    So how could the FAA agree to that? Did they understand 
what it did? Did anybody understand what this would do? I don't 
think the implications were fully known.
    There have been 14 versions of this plane since 1967. It 
has been an incredible workhorse airplane. You know, I have 
flown on one, I am sure, thousands of times. I have flown 6 
million miles since I have been in Congress, so many, many, 
many times. But at some point, you got to think there is a 
cutoff, where this is a new plane and it is different than the 
one from 1967. And it shouldn't just be an amended-type 
certificate, it has to go through recertification. Now, of 
course, that is a longer process. It is more expensive, it 
might require pilot retraining. And the question is, why didn't 
we get to that point with this plane? And that also goes for 
the longer term looking at the certification ODA process.
    Further, we discovered that the disagree light was 
inoperable in many of the planes, the ones that hadn't bought 
the extra package, apparently inadvertently, according to 
engineers. But this was not reported to FAA for a year. And 
until it became public, Boeing had no intention of fixing that 
till 2020. Could that have played a role in helping to prevent 
these tragedies? Well, we will never quite know that, will we? 
You know, that is unacceptable.
    And we have been in touch with both Boeing itself and 
United Technologies Corporation, who designed that software, to 
ask for a timeline and some explanation of how they think that 
is a proper procedure. You know, we are going to hear today 
from a number of people who are going to provide compelling 
testimony. I won't go through the list again, others have 
mentioned it. But I want to thank you for being here today.
    We have now begun to receive substantial numbers of 
documents from both Boeing and the FAA, and I have the 
oversight staff and the aviation staff going through those 
documents. And we will, I expect, fully expect, at a future 
hearing have the FAA back in and have Boeing in to this 
committee once we have the documentation digested that we need 
to ask the meaningful, very pointed questions we will ask.
    With that, I yield back the balance of my time.
    Mr. Larsen. Thank you, Chair DeFazio.
    I recognize the ranking member of the full committee, 
Representative Graves of Missouri.
    Mr. Graves of Missouri. Thank you, Mr. Chairman. And thank 
you and Ranking Republican Graves for having this hearing. And 
I also want to express my condolences to the families and 
friends of the accident victims.
    You know, today's hearing is going to focus on how to 
safely return the 737 MAX back to service. And this process, it 
has to be careful, it has to be deliberative, and all involved 
have to be absolutely laser focused on safety. I believe 
everyone at the FAA and at Boeing understand that to do 
anything less than that is absolutely unacceptable. We owe it 
to all of those who tragically lost their lives to get it 
right.
    As this process moves forward, input from the stakeholders, 
both in the United States and around the world, is going to be 
very important. And today, the subcommittee is going to hear 
from some of those stakeholders.
    As many of you know, I am extremely proud of our aviation 
system here in the United States, and much of that pride stems 
from how safe our system has been. And knowing how imperative 
it is that we maintain this record and reputation, for that 
matter, I want to share some of my thoughts on safely 
ungrounding the 737 MAX.
    First, the FAA's process to certify the 737 MAX--to certify 
the fix on the MAX, it has to be and will be a very intensive 
process. The FAA is going to conduct technical and operational 
reviews and assessments, simulator and flight testing. There is 
going to be evaluations and reevaluations and reevaluations on 
top of that. And they are also going to share information with 
and consider the comments and recommendations from the 
stakeholders that are out there. And ultimately, I anticipate 
that the FAA is going to issue multiple notices and multiple 
directives and orders.
    In addition, the Technical Advisory Board, or the TAB, and 
we will hear a lot of about that with experts on there from the 
FAA, from the U.S. Air Force, from NASA, from the Volpe 
National Transportation Systems Center, they are all going to 
conduct parallel and an independent review, and the FAA is 
going to consider their recommendations in this process.
    Boeing is going to need to demonstrate compliance with 
safety regulations and with the FAA directives. U.S. airlines 
are also going to have to demonstrate compliance with all FAA 
directives, and they will need to implement the required 
training across their fleets.
    Internationally, each country is going to have to make its 
own ungrounding decision. The FAA is going to share 
information, and they are going to provide assistance as it is 
requested. And I am glad that the FAA is working with the 
international regulators towards finding consensus regarding 
the certification and return to service the 737 MAX.
    The second thing is the FAA is working with Boeing, they 
are working with the airlines, they are working with pilots and 
international regulators, and they are going to determine what 
training is going to be required both prior to the ungrounding 
and as recurrent training obviously moves forward in this 
process. And I believe it is critically important that we avoid 
focusing primarily just on pilot training on the old MCAS 
system and what occurred in the two MAX accidents. Because 
there is real concern that training to the old system could 
result in negative training by unintentionally introducing or 
reinforcing outdated information or inapplicable concepts which 
could actually decrease safety, and they could, they could 
actually decrease safety.
    The third thing is, I think it is vitally important that we 
allow for the various investigations and reviews to run their 
full course before we take any legislative action. To act 
preemptively would only be--it is only going to be for optics. 
And for people to be able to say that we did something, that is 
what that would only be about, rather than solving what I think 
is an identifiable problem in our system. Aviation accidents 
rarely have one contributing factor. Those of us who fly, we 
know that. There is always a number of investigations, and 
there are a number of investigations that are looking at the 
certification of the 737 MAX. And if problems are found, I do 
believe that they have to be addressed.
    But in reading the preliminary accident reports as well as 
obviously many others with a lot of flying experience, many 
have raised concerns with the pilot training, with pilot 
experience, with aircraft maintenance, and definitely with 
airline operations. And all of these issues have to be 
investigated and they have to be reviewed. To ignore any 
possible factor or to jump to any predetermined conclusions 
about those factors, it creates the risk of future accidents 
that could have been prevented by full and thorough 
investigations.
    And my final thing is we have to avoid politicizing our 
aviation system. Safety is what the core--it is absolutely at 
the core of what every pilot, every flight attendant, every air 
traffic controller, engineer, repairman, manufacturer, every 
inspector, every operator, and every regulator strives for each 
and every day. It is the reason why in the last decade here in 
the United States there have been nearly 7 billion passengers 
on 90 million commercial flights with 1 fatality. That is a 
heck of a record for the FAA and the aviation community in the 
United States, and it is a heck of a record to be very proud 
of.
    And certainly, one loss of life is one too many. But that 
unprecedented safety record is due to the safety culture of the 
aviation industry, which includes a collaborative and 
nonpunitive approach to certification and safety oversight. And 
we must uphold that strong safety culture and that reputation.
    Over the next few months, the FAA and Boeing are going to 
work hard at ensuring that the safe return of the 737 MAX, that 
it is safely returned to service. And their progress is 
obviously going to be very closely monitored, not only by this 
committee, but by the entire world. But I can say without any 
hesitation that I believe that the Acting Administrator of the 
FAA, that I believe him when he said that the FAA will return 
the 737 MAX to service in the United States only--only when it 
determines, based on the facts and technical data, that it is 
safe to do so. Only then will it happen.
    So, again, I want to thank you, Chairman, for having this 
hearing, and I would yield back the balance.
    [Mr. Graves of Missouri's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Chairman Larsen and Ranking Member Graves, for holding 
this hearing.
    I would also like to again express my condolences to the friends 
and families of the accident victims.
    The focus of today's hearing is how to safely return the 737 MAX to 
service. This process must be careful and deliberative, and all 
involved must be laser-focused on safety. I believe everyone at the FAA 
and Boeing understand that to do anything less is absolutely 
unacceptable.
    We owe it to all those who tragically lost their lives to get this 
right.
    As this process moves forward, input from stakeholders, both in the 
United States and around the world, is very important. Today the 
Subcommittee will hear from some of those stakeholders.
    As many of you know, as a pilot I am extremely proud of our 
aviation system in the U.S., and much of that pride stems from how safe 
our system has been. Knowing how imperative it is that we maintain this 
record and reputation, I want to share some of my thoughts on safely 
ungrounding the 737 MAX.
    First, the FAA's process to certify the 737 MAX fix must be--and 
will be--intensive. The FAA will conduct technical and operational 
reviews and assessments, simulator and flight testing, and evaluations 
and reevaluations. They will also share information with, and consider 
comments and recommendations from, stakeholders. Ultimately, I 
anticipate that the FAA will issue multiple notices, directives, and 
orders.
    In addition, the Technical Advisory Board (TAB), with experts from 
the FAA, the U.S. Air Force, NASA, and the Volpe National 
Transportation Systems Center will conduct a parallel and independent 
review, and the FAA will consider their recommendations.
    Boeing will need to demonstrate compliance with safety regulations 
and FAA directives. U.S. airlines will also have to demonstrate 
compliance with FAA directives, and they will need to implement 
required training across their fleets.
    Internationally, each country will make its own ungrounding 
decision, and the FAA will share information and provide assistance as 
requested.
    I am glad that the FAA is working with international regulators 
towards finding consensus regarding the certification and return to 
service of the 737 MAX.
    Second, the FAA is working with Boeing, airlines, pilots, and 
international regulators, and will determine what training will be 
required, both prior to the ungrounding and as recurrent training going 
forward.
    I believe it is critically important that we avoid focusing pilot 
training on the old MCAS system and what occurred in the two MAX 
accidents. There is a real concern that training to the old system 
could result in negative training by unintentionally introducing or 
reinforcing outdated information or inapplicable concepts, which could 
actually decrease safety.
    Third, it is vitally important that we allow the various 
investigations and reviews to run their course before we take 
legislative action. To act preemptively would only be for optics--for 
people to be able to say we did something--rather than solving an 
identifiable problem in our system.
    Aviation accidents rarely have one contributing factor. There are a 
number of investigations looking at the certification of the 737 MAX, 
and if problems are found they must be addressed. But, in reading the 
preliminary accident reports I, as well as many others with flying 
experience, have also raised concerns with pilot training, pilot 
experience, aircraft maintenance, and airline operations. All of these 
issues must also be investigated and reviewed.
    To ignore any possible factor or to jump to predetermined 
conclusions about those factors creates the risks of future accidents 
that could have been prevented by full and thorough investigations.
    Finally, we must avoid politicizing aviation safety. Safety is at 
the core of what every pilot, flight attendant, controller, engineer, 
repairman, manufacturer, inspector, operator, and regulator strives for 
each and every day. It is the reason that in the last decade in the 
United States, there have been nearly 7 billion passengers on 90 
million commercial flights, with only one fatality. That is a heck of a 
record for the FAA and aviation community in the U.S. to be proud of. 
Certainly, one life lost is one too many, but that unprecedented safety 
record is due to the safety culture of the aviation industry, which 
includes the collaborative, non-punitive approach to certification and 
safety oversight. We must uphold that strong safety culture.
    Over the next few months, the FAA and Boeing will be hard at work 
ensuring the safe return to service of the 737 MAX. Their progress will 
be closely monitored not only by this committee but by the world. But I 
can say without any hesitation that I believe the Acting Administrator 
of the FAA when he said, ``the FAA will return the 737 MAX to service 
in the United States only when [it] determine[s], based on facts and 
technical data, that it is safe to do so.''
    Thank you again for holding today's hearing.

    Mr. Larsen. Thank you, Representative Graves.
    I want to now welcome our witnesses. I am not going to read 
titles and biographies, but we will have Sharon Pinkerton from 
A4A; Captain Dan Carey of Allied Pilots; Captain Chesley 
Sullenberger, retired pilot; Sara Nelson from the AFA-CWA; and 
Honorable Randy Babbitt, former Administrator, FAA.
    And I recognize each of you for 5 minutes. Without 
objection, though, our witnesses' full statements will be 
included in the record. Since it has been made part of the 
record, we request you limit your oral testimony to 5 minutes.
    And first, we will recognize Sharon Pinkerton for 5 
minutes.

     TESTIMONY OF SHARON PINKERTON, SENIOR VICE PRESIDENT, 
   LEGISLATIVE AND REGULATORY POLICY, AIRLINES FOR AMERICA; 
  CAPTAIN DANIEL CAREY, PRESIDENT, ALLIED PILOTS ASSOCIATION; 
   CAPTAIN CHESLEY B. ``SULLY'' SULLENBERGER III, PILOT, US 
   AIRWAYS (RETIRED); SARA NELSON, INTERNATIONAL PRESIDENT, 
  ASSOCIATION OF FLIGHT ATTENDANTS--CWA, AFL-CIO; AND HON. J. 
   RANDOLPH BABBITT, FORMER ADMINISTRATOR, FEDERAL AVIATION 
                         ADMINISTRATION

    Ms. Pinkerton. Good morning. Chairman DeFazio, Ranking 
Member Graves, Chairman Larsen, Ranking Member Graves, thank 
you for having this hearing today. My name is Sharon Pinkerton. 
I am the senior vice president for policy at Airlines for 
America. It is an honor and privilege to be here today to talk 
about aviation safety. Nothing is more fundamental to this 
industry than a commitment to safety.
    U.S. carriers have led the world in aviation safety for 
decades, and we are very proud of that record, but the events 
that are bringing us here today have humbled us. These are 
sobering tragedies. And as an industry, as Americans, as human 
beings, we mourn the lost lives on Lion Air flight 610 and 
Ethiopian Airlines flight 302.
    I want to convey, not just our condolences, but also our 
industry's commitment to support policies and actions that are 
going to help ensure the highest level of aviation safety.
    Our industry doesn't simply shrug off failures like this; 
we fixate on root and proximate causes in order to learn from 
what happened, and take that knowledge to better ensure the 
safety of our passengers and crew.
    As an industry, we are constantly challenging ourselves to 
meet and exceed the highest levels of safety. It has to be said 
that travel on U.S. passenger carriers remains exceptionally 
safe, as the committee knows, because you have played a role in 
shaping this system. We have flown almost 8 billion people on 
94 million flights over the last 10 years. And in that time, 
there was one fatality, and although that is too many, our 
record is remarkable.
    Commercial aviation remains the safest mode of 
transportation by a wide margin, but we cannot and we will not 
rest on the status quo, and that is our promise to you and to 
the families that are here.
    As you know, several authorities are still reviewing the 
two overseas accidents. It is important to allow those 
investigations to conclude before rendering final judgment. But 
we know from experience that there are usually several factors, 
not just one, that contribute to any accident. While we wait 
for the findings and recommendations, Boeing has taken 
responsibility and pledged to make improvements by updating the 
flight control software. Our response must be deliberate, rely 
on facts and data, before we form recommendations, which is how 
the FAA is approaching these accidents.
    The FAA's safety and regulatory framework is the gold 
standard in the world, and our safety record is the proof of 
that. We have a culture of collaboration in aviation where 
everyone throughout the system, public and private employees, 
manufacturers, carriers, everyone is encouraged to speak up and 
speak out if they see a potential safety issue.
    The industry does work closely with the FAA, and we believe 
that a transparent and collaborative relationship is critical 
to making the safest aviation system in the world even safer.
    Our safety record is the result of deliberate and systemic 
improvements over many years. We have moved from an early 1990s 
very forensic approach, looking back to determine what 
happened, to a very proactive and predictive data-driven 
approach to determine that anticipates and prevents accidents 
before they occur.
    It was really in the mid-1990s that the industry and the 
FAA started to rely more on data: data from the plane, data 
from our employees, data from the controllers. The Commercial 
Aviation Safety Team, or CAST, was formed to give all of the 
players, labor unions, operators in the FAA, manufacturers, a 
seat at the table to share information. And the 1996 FAA bill 
provided protection to entities to help create a safe 
environment for that information sharing. The Aviation Safety 
Information Analysis and Sharing program, otherwise known as 
ASIAS, represents the overarching program that connects all of 
the FAA's safety programs and shares data from across those 
programs and uses that information to identify risk and develop 
mitigation strategies.
    What is extraordinary about how this industry approaches 
data sharing, it is unique to the aviation mode. Aviation data 
is not proprietary. We don't compete. We communicate and we 
collaborate when it comes to safety.
    With respect to the impacts of the grounding of the MAX on 
passengers, there were three U.S. carriers that were operating 
the MAX when the aircraft was grounded in March; those carriers 
immediately began reassigning existing resources to minimize 
disruption passengers. Fortunately, carriers were able to 
accommodate over 99 percent of impacted travelers through 
rebooking and rerouting.
    Of course, the question still remains, when will the MAX be 
returned to service? And the answer is, not before the FAA, 
working with our pilots, certifies that it is safe, and not 
before adequate training is performed.
    The FAA, working closely with our pilots unions, our 
technical experts----
    Mr. Larsen. Ms. Pinkerton, I am going to have to ask you to 
wrap up.
    Ms. Pinkerton [continuing]. And Boeing, is engaging in a 
rigorous process.
    I will close by saying safety is something not that our 
industry doesn't take for granted, and we never will. For us in 
the aviation community, our hearts break for the family 
members. However, we take solace in the fact that there are 
dedicated professionals, both public and private, that will do 
everything they can to maintain our tremendous safety record 
and build on it moving forward.
    Thank you.
    [Ms. Pinkerton's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Sharon Pinkerton, Senior Vice President, 
        Legislative and Regulatory Policy, Airlines for America
    Chairman Larsen, Ranking Member Graves, Members of the Committee,
    Before I begin, on behalf of our industry, I would like to offer 
both profound and heartfelt condolences to the families, friends and 
loved ones of the passengers and crew members aboard both Lion Air 610 
and Ethiopian Airlines 302 as well as our commitment to actions and 
policies to help ensure the highest level of aviation safety. Our 
hearts and thoughts are with them.
    My name is Sharon Pinkerton and I am the Senior Vice President of 
Legislative and Regulatory Policy for Airlines for America (A4A). Thank 
you for the opportunity to testify. We welcome and appreciate the 
opportunity to discuss our most important and paramount priority, 
aviation safety.
    Nothing is more foundational to our industry than our deep 
commitment to safety; it is an ingrained second nature that touches 
every aspect of our global industry. The entire aviation community 
understands that safety is the bedrock upon which consumer confidence 
is built. When it comes to safety, our baseline is perfection. When 
perfection is not attained, it is critical we undertake a methodical 
and deliberate review of all the components of our extremely complex 
and technical system to make sure we isolate problems and identify the 
fixes necessary to make our system better. As an industry, we look 
forward to playing a constructive role in building upon and improving 
the tremendous safety record we have all worked so hard to achieve. 
That's why the flying public can have tremendous confidence in the U.S. 
airline industry today. We have an unparalleled safety record that any 
other industry--let alone any other mode of transportation--should 
envy. We must not lose sight of the fact that aviation is THE safest 
mode of transportation by any measure.
                     aviation safety--facts matter
    Safety of our passengers and employees is at the core of U.S. 
airline operations and everything we do. The unprecedented safety 
record of U.S. carriers has been the result of deliberate and systemic 
improvements over many years. We've moved from a forensic approach of 
determining what happened in aviation accidents to a proactive, data-
driven approach which identifies risks and hazards aimed at preventing 
accidents before they occur.
    The nation's impressive commercial aviation safety record is due in 
large part to the aviation industry and government voluntarily 
investing in calculated safety enhancements to further reduce the 
nearly infinitesimal fatality risk in U.S. commercial air travel. For 
example, the work of the Commercial Aviation Safety Team (CAST) data 
driven regulations, and other industry safety activities, contributed 
to reducing the fatality risk for commercial aviation in the U.S. by 83 
percent from 1998 to 2008. Today, the CAST aims to reduce the remaining 
risk (50 percent) by 2025 by further leveraging industry data and 
analytical tools from the Aviation Safety Information Analysis and 
Sharing Program (ASIAS). These efforts and others like them have helped 
the U.S. achieve the safest period in its history.
    Because there are few commercial aviation accidents and no common 
causes, more data points are needed. Voluntary programs such as the 
Aviation Safety Action Program (ASAP), Flight Operational Quality 
Assurance (FOQA) program and Air Traffic Safety Action Program (ATSAP) 
give air carriers and the government insight into millions of 
operations so potential systemic safety issues and trends can be 
identified.
    Together with our industry partners, the FAA and labor, we identify 
and manage risk through several collective efforts and those voluntary 
programs. For example, the ASAP encourages voluntary reporting of 
safety issues and events that come to the attention of pilots, cabin 
crew, mechanics and dispatchers. ASAP is based on a safety partnership 
that includes the FAA, the certificate holder and employee labor 
organizations. Employees report instances of noncompliance and safety 
concerns without fear of recrimination. ASAP reports are analyzed and 
evaluated, and corrective measure are taken by the industry to address 
the safety concerns raised.
    Similarly, CAST and ASIAS represent long-standing commitments to 
building safety partnerships between government and industry that focus 
on pursuing safety improvements in a collaborative and proactive 
manner. ASIAS connects a wide variety of voluntarily provided safety 
data from airline aircraft performance data and safety reports as well 
as other information sources from across industry. The ASIAS program 
works closely with a variety of integrated safety teams to analyze 
safety data, identify risks and develop mitigation strategies. The 
program continues to evolve but has matured to the point that it now 
incorporates voluntarily provided safety data from operators that 
represent 99 percent of U.S. air carrier operations in the National 
Airspace System (NAS).
    While any loss of any life is tragic, the odds of suffering a 
fatality are far greater as a pedestrian, riding a bike, being a 
passenger in a car or even being struck by lightning, based on data 
from the collaborative efforts between government and industry to 
improve aviation safety.
    We strongly believe the FAA's safety and regulatory framework is 
the gold standard in the world, and our U.S. safety record demonstrates 
its success. As an industry, we will continue to adapt to change; 
identify new risks and hazards; collectively and collaboratively 
analyze risk; develop mitigation strategies; and continue to make the 
safest airspace system in the world even safer. Our continued success 
depends on these strong partnerships built on trust.
                industry impact, assessment and response
    For A4A member airlines that operated the 737 MAX, the FAA decision 
to ground the aircraft created several immediate operational 
challenges. These challenges were most acute at the onset of the 
grounding as carriers were forced to make quick operational decisions 
to accommodate passengers and adjust schedules. The extent of the 
necessary adjustments varied based on overall fleet size, segments 
operated, available spare aircraft and other factors. Below is a table 
showing the 737 MAX aircraft in U.S. airline fleets as of March 31, 
2019:

------------------------------------------------------------------------
             U.S. Airline                 737 MAX Fleet as of 3/31/19
------------------------------------------------------------------------
Southwest                              34
American                               24
United                                 14
------------------------------------------------------------------------
  Subtotal USA                         72
------------------------------------------------------------------------

    Impacted carriers immediately started a process of forensically 
analyzing their individual operations for available aircraft to cover 
flight segments in order to minimize customer disruption as much as 
possible. While each carrier dealt with the situation in a manner 
consistent with their respective business, in general, the industry 
employed an array of mechanisms to cope with the disruptions, including 
but not limited to:
    <bullet>  Trimmed 2019 capacity growth;
    <bullet>  Incorporated spare aircraft into the active schedule;
    <bullet>  Increased daily utilization of other aircraft types;
    <bullet>  Deferred some painting, Wi-Fi installation/upgrades, and 
selected other discretionary enhancements;
    <bullet>  Reduced frequency on longer routes where alternative 
routings were practicable;
    <bullet>  Temporarily suspended lighter routes;
    <bullet>  Leveraged automated rebooking tools (99 percent of 
passengers rebooked within 24 hours); and
    <bullet>  Consideration of leasing additional aircraft or deferring 
retirements.
    In the initial days after the grounding, it was unclear how long 
the aircraft would remain grounded. Given the uncertainty, carriers 
made schedule adjustments in order to accommodate the loss of the 
aircraft for three- to four-week periods. Many of those short-term 
plans have now been extended for months. The lack of certainty remains 
to this day, which means carriers will have to continuously revisit 
schedules and operational plans as the situation progresses. The bottom 
line is that impacted air carriers will do everything they can to make 
sure customers are accommodated.
    Fleet management is a continual challenge. As the Committee knows, 
U.S. airlines have been making significant upgrades to their fleets 
over the past decade, which means new aircraft are coming on-line every 
day, including several 737 MAX. In addition to the scheduling 
accommodations made for existing aircraft, carriers have had to adjust 
flight schedules and service plans based on the unknown delivery 
schedule. Following is a table of 737 MAX orders for A4A members as of 
March 31, 2019:

------------------------------------------------------------------------
    A4A Member Airline                On Order as of 3/31/2019
------------------------------------------------------------------------
Southwest                   268 (44 in the remainder of 2019)
American                    76 (16 in the remainder of 2019)
United                      171 (16 in the remainder of 2019)
Alaska                      32 (3 in the remainder of 2019)
------------------------------------------------------------------------
  Subtotal USA              515 (76 in the remainder of 2019)
------------------------------------------------------------------------
Air Canada                  37 (12 in the remainder of 2019)
------------------------------------------------------------------------


    As indicated, several dozen 737 MAX aircraft were slated for 
delivery between the date of the grounding and the remainder of the 
year, and the return of the aircraft is generally not expected in time 
for the peak summer travel season. In fact, A4A has projected summer 
2019 air travel on U.S. airlines to rise for the tenth consecutive year 
to an all-time high of 257.4 million passengers (2.8 million per day). 
The more 737 MAX time is built into the schedule, the more aircraft 
time is needed to cover lost availability. A4A estimates 737 MAX-
related summer flying reductions of approximately 250 daily flights and 
43,000 daily seats for American, Southwest and United alone. This 
pulldown in capacity is likely to put upward pressure on load factors.
    The high load factors and use of spare aircraft for active flying--
to partially offset the void left by the grounded MAX fleet--will make 
irregular operations caused by severe weather or other factors more 
difficult to mitigate. Carriers are preparing accordingly and will 
continue to be as nimble as possible to provide a seamless operation, 
capitalizing on investments in equipment, staff and training made over 
the past several years.
               airworthiness--return to service decision
    As noted, there is currently significant uncertainty related to the 
timeline upon which the 737 MAX will be approved to return to service. 
However, we recognize and agree that a full and robust process of 
analyzing and testing any software design and training requirements is 
of the utmost importance and the first step toward re-establishing 
public confidence. Boeing has indicated they have put the software 
update through hundreds of hours of analysis, laboratory testing, 
verification in a simulator, and test flights. As the industry 
continues to await guidance from Boeing and the FAA on the impending 
737 MAX software enhancements and training requirements, we are 
encouraged by the reported progress and proposed path forward for 
returning the aircraft to service. We are confident that, once 
certified by the FAA, the proposed enhancements will support the safe 
operation of the MAX--making the aircraft one of the safest in the sky. 
We are confident in our employees, procedures, airplanes, training, 
maintenance, and performance monitoring systems. Boeing has said that 
the software update will provide another layer of safety to the 
operation of the MAX aircraft. We look forward to the FAA's final 
guidance and will fully comply with any modifications and additional 
training requirements to strengthen the reliability of the 737 MAX.
    We fully expect the 737 MAX eventually will be deemed airworthy and 
will return to service. When that decision is made, each carrier will 
take specific steps based on its operations, maintenance and training 
programs. In fact, much of the planning has been on-going since the 
initial removal from service. Multiple departments at the airlines 
including aircraft maintenance, training, crew planning and scheduling 
as well as network planning and scheduling have roles in returning the 
aircraft to service. While specific timing may vary, generally, once 
the 737 MAX is approved for return to service several steps will be 
taken, including but not limited to:
    <bullet>  Necessary modifications to software and/or physical 
installations resulting from the Maneuvering Characteristics 
Augmentation System (MCAS) review must be implemented, completed and 
inspected;
      <bullet>  While A4A members who operate the 737 MAX support the 
findings of the FAA Flight Standards Board (FSB) for Level B training 
and checking for the MCAS system, we are awaiting a release of training 
guidance and will review and comment once that training guidance has 
been issued.
    <bullet>  Assurance that aircraft are in compliance with all 
current Airworthiness Directives that may have been issued or that 
became due during the out-of-service period;
    <bullet>  Assurance that any calendar-scheduled maintenance tasks 
are accomplished;
    <bullet>  Accomplish all pre-flight service checks per applicable 
maintenance manuals;
    <bullet>  Review the aircraft's Maintenance Logbook and execute an 
Airworthiness Release for flight; and
    <bullet>  Execute any required maintenance flight tests.
    We are confident that the collaborative global process the FAA has 
undertaken will eventually lead to a decision that will be supported by 
manufacturers, operators, pilots and foreign regulatory bodies as well 
as the flying public. The FAA has been transparent with international 
regulators throughout this process by sharing their safety response to 
these accidents as well as their data and testing. Make no mistake, it 
will take a significant amount of work, but a collaborative message and 
understanding will go a long way toward building public confidence in 
the aircraft. We look forward to playing a constructive role in that 
process.
                             recommendation
    We believe it is more important than ever that we make fact-based 
data-driven decisions when it comes to policy toward our aviation 
safety system. Our industry has learned over the decades to wait for 
ongoing investigations to conclude before rushing to judgment. Our 
aviation system is safer than ever, and the U.S. commercial aviation 
safety record is second to none.
    Our safety record has evolved over decades with collaboration 
between the FAA, manufacturers, air traffic controllers, pilots, 
operators and many others. An open culture of effective collaboration 
should not be misconstrued with coziness. There is no doubt or 
disagreement that a balance is needed when it comes to a regulator and 
the industry it oversees, but factual assessment of the results 
achieved by that relationship should weigh heavily on the minds of 
those so anxious to change it. Airlines do not compete when it comes to 
safety. Safety is simply not something anyone in our industry takes for 
granted, and it never will.
    Mr. Chairman, I would be remiss not to take the opportunity to 
thank you for your work on H.R. 1108, the Aviation Funding Stability 
Act of 2019. We sincerely appreciate the Committee's leadership and 
focus on practical solutions to mitigate federal shutdown impacts. As 
you know, the impact of government shutdowns is particularly acute on 
the aviation industry. With a robust FAA Airport and Airway Trust Fund 
balance there is absolutely no reason that thousands upon thousands of 
people should be forced to work without pay. As we look down the barrel 
of yet another controversial budget and funding season--we will 
continue to support your efforts. The systemic approach to improving 
aviation safety means you fixate on and reduce risk across all 
components. I think we can all agree, taking government shutdowns out 
of the picture will certainly improve our system.
    Thank you for the opportunity to testify. I look forward to your 
questions.

    Mr. Larsen. Thank you.
    Captain Carey, 5 minutes as well. Be sure, everyone, that 
you are pulling the microphone right up to your mouth.
    Captain Carey, 5 minutes. Thank you.
    Mr. Carey. Good morning, Chairman Larsen, Ranking Member 
Mr. Graves of Missouri, Chairman DeFazio, Ranking Member Mr. 
Graves of Louisiana, honorable members of this committee. My 
name is Captain Daniel Carey. I am a 35-year career pilot at 
American Airlines. I am also president of the Allied Pilots 
Association, the largest independent airline pilots union in 
the world.
    I also serve as a member of the board of the Coalition of 
Airline Pilots Associations here in Washington, a trade group 
representing 32,000 professional airline pilots whose concern 
is safety and security of the traveling public.
    The piloting profession is in my family. My father and two 
uncles were fighter pilots in World War II, one of whom lost 
his life in the service of our Nation. My father was an early 
pioneer with Trans World Airlines, and my daughter pursues a 
professional career as a commercial pilot today.
    I would also like to recognize the family of Samya Stumo, 
who is here today. God bless you all. Samya was a young woman 
as well, pursuing her career and young life, and tragically 
lost her life on ET 302.
    Mr. Chairman and members of the committee, what brings us 
together today is the tragic accidents of two Boeing MAX 
aircraft. We owe it to those 346 souls and the flying public 
around the world to make sure these kinds of events never 
happen again.
    In my 35-year career at American Airlines, I have operated 
as captain on five different types of airplanes, 28 years on 
Boeing aircraft. I am here to tell you, Boeing designs and 
engineers and manufactures superb aircraft.
    Unfortunately, in the case of the MAX, I will have to agree 
with the Boeing CEO, they let the traveling public down in a 
fatal and catastrophic way. As said here earlier by some of the 
speakers, we will await the conclusion of the several 
investigations underway around the world before we determine 
the final judgment of the MAX disasters.
    There are a few facts we do know. The MAX was designed to 
provide the same aircraft feel as the 737. This was intended to 
minimize costs to Boeing's customers by allowing the MAX to be 
certified as a 737 typed aircraft. This led Boeing engineers to 
add the MCAS system. Many mistakes were subsequently made by 
Boeing, as the MCAS was designed as a federated, not an 
integrated aircraft system.
    As a single port of failure, this design meant that the 
redundancy of the system went back to the captain and first 
officer of the aircraft. The huge error of omission was the 
fact that Boeing failed to disclose the existence of the MCAS 
system to the pilot community around the world. The final fatal 
mistake was, therefore, the absence of robust pilot training in 
the event of an MCAS failure.
    The most important issue now is the question of the 
airworthiness of the MAX aircraft. I believe the Boeing 
engineers have indeed found the problems to the software 
problems--issues facing the MAX. And, therefore, the 
redundancies are now embedded in the aircraft in the event of a 
misfiring of the MCAS going forward. However, at APA, we remain 
concerned about whether the new training protocol, materials, 
and methods of instruction suggested by Boeing are adequate to 
ensure that pilots across the Nation and around the world can 
operate the MAX fleet with absolute and complete safety.
    In fact, during a meeting with the FAA in April, the FAA 
officials highlighted a critical checklist that Boeing directed 
pilots to use to recover the MAX after an MCAS firing. The FAA 
officials stated that this critical checklist had not been 
validated since 1967. This is an example of why the APA has 
integrated into the flight standardization board comments, 
calling for the review, improvement, and training of critical 
MCAS misfire recovery checklists.
    I don't have all the answers today, nobody does, but I do 
have some questions. First, is the FAA sufficiently independent 
of the manufacturers as to provide legitimately rigorous audit 
of manufacturing design and engineering? Second, should a 
federated system, which may lead to an unrecoverable event, be 
certified ever by the FAA? Third, should the FAA aircraft 
certification, as for example, a 737 designation from 1967, 
have a timeline or a sunset date? Finally, is the FAA 
sufficiently equipped to ensure that pilot training protocols 
are vigorous and robust as aircraft become more and more 
sophisticated?
    Mr. Chairman, these are among the questions that I hope 
this committee examines, and of course, there are many others. 
Unfortunately, as pilots know, improvements in aviation are 
often, too often, written in the blood of the unfortunate 
victims of these airplane accidents. But all of us--pilots, 
flight attendants, airline companies, manufacturers, the 
executive branch of our government, and Congress--owe it to the 
victims at the highest level of diligence to make sure these 
kind of accidents never happen again.
    This is a global aviation crisis of trust and will require 
global solutions to restore and bolster culture and respect----
    Mr. Larsen. I am going to have to ask you to wrap up.
    Mr. Carey. The pilots of the Allied Pilots Association are 
humbled and proud to be part of this noble cause. Thank you, 
and I look forward to your questions.
    [Mr. Carey's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Captain Daniel Carey, President, Allied Pilots 
                              Association
    Good morning, Chairman Larsen and Ranking Member Mr. Graves of 
Louisiana. Good morning, Chairman DeFazio and Ranking Member Mr. Graves 
of Missouri. Good morning to you, Honorable Members of the Committee.
    My name is Daniel Carey. I am a 35-year career captain with 
American Airlines and president of the Allied Pilots Association. The 
Allied Pilots Association is the largest independent pilot union in the 
world. I am not just privileged, but honored to represent the 15,000 
professional men and women pilots of American Airlines. I can tell you 
that they are an outstanding group of professional pilots dedicated to 
ensuring the safe passage of all people who fly on American Airlines in 
our country and around the world. I am also a member of the board of 
the Coalition of Airline Pilots Associations, a trade association 
representing 32,000 professional pilots dedicated to airline safety and 
security.
    The piloting profession is in my DNA. My father and two uncles were 
distinguished World War II fighter pilots who served our nation, one of 
whom gave his life. My father was also an early pilot pioneer for Trans 
World Airlines. My daughter, his granddaughter, continues the family 
tradition as a commercial pilot.
    Mr. Chairman and Members of the Committee, what brings us together 
today are the tragic accidents involving two Boeing 737 MAX aircraft. 
The hearts of all our 15,000 American Airlines pilots go out to the 
families, friends and associates of the 346 souls lost in the Lion Air 
and Ethiopian Air crashes. We owe it to those lost souls and to the 
flying public, worldwide, to make sure these kinds of events never 
happen again.
    In my 35-year career at American Airlines, I have flown as Captain 
in five models of American's aircraft with more than 28 years on Boeing 
aircraft. My professional view is that the Boeing Corporation has 
manufactured superbly engineered and designed aircraft over many 
decades. Unfortunately, in the matter of the 737 MAX, I completely 
agree with the Boeing CEO's assessment that the company let down the 
public with catastrophic consequences.
    As professional pilots, we understand that the ultimate conclusion 
regarding the causes of these accidents must await the final findings 
of the exhaustive investigations underway.
    There are certain facts we know:
    1.  The 737 MAX was designed to provide the same aircraft feel to 
the pilots as the 737. This was intended to minimize the operating cost 
to Boeing's customers by allowing the MAX to be certified by the FAA as 
a 737. The point was to provide Boeing's customers with a new advanced 
aircraft while minimizing the training cost associated with a different 
aircraft certification. This led Boeing's engineers to add the MCAS 
system. Many mistakes were subsequently made by Boeing engineers as 
MCAS was designed as a ``federated'' not ``integrated'' system. As a 
single-point-of-failure design, this meant that any redundancy to the 
system, if it failed, was completely dependent on the Captain and First 
Officer of the aircraft.
    2.  The huge error of omission is that Boeing failed to disclose 
the existence of MCAS to the pilot community.
    3.  The final fatal mistake was, therefore, the absence of robust 
pilot training in the event that the MCAS failed.
    I can tell you that the members of APA are offended by remarks made 
by those who seem to blame the pilots killed in those two crashes. Some 
negative aspersions have appeared in the press relating to the quality 
of pilots trained in Africa. I am here to tell you that I worked in 
Africa and trained African pilots to fly large aircraft. I am very 
familiar with Ethiopian Air's pilot training program and facilities, 
and I can tell you that they are world-class. In fact, while not one 
U.S. airline has a MAX simulator, one non-U.S. airline does--Ethiopian 
Air. To make the claim that these accidents would not happen to U.S.-
trained pilots is presumptuous and not supported by fact. Vilifying 
non-U.S. pilots is disrespectful and not solution-based, nor is it in 
line with a sorely needed global safety culture that delivers one 
standard of safety and training. Simply put, Boeing does not produce 
aircraft for U.S. pilots vs. pilots from the rest of the world.
    The most important issue now is the question of the airworthiness 
of the 737 MAX fleet. I believe that the Boeing engineers have indeed 
made significant positive changes with the new software fixes, many of 
which our pilots demanded when we met with Boeing officials in November 
2018. There are now redundancies embedded in the aircraft in the event 
of the ``firing'' of MCAS. However, at APA we remained concerned about 
whether the new training protocol, materials and method of instruction 
suggested by Boeing are adequate to ensure that pilots across the globe 
flying the MAX fleet can do so in absolute complete safety.
    In fact, during a meeting with the FAA on April 12, 2019, with U.S. 
airlines and pilot unions, FAA officials highlighted a critical 
checklist that Boeing directed pilots to use to recover the MAX after 
an MCAS misfire. The FAA official stated that this critical checklist 
had not been validated since 1967, noting that the 737 has been 
dramatically modified many times since. The FAA official cited 
potential issues with pilot ``manual trim effort'' required and 
challenging ``elevator loads'' confronting pilots when this checklist 
is executed. This is an example of why APA's comments to the Flight 
Standardization Board include calling for a review, improvement and 
training of critical MCAS misfire recovery checklists.
    With regard to the public policy issues generated by the fatal MAX 
crashes, the foremost and most urgent, in my view, is assessment of the 
adequacy of the FAA aircraft certification process. This is a complex 
subject because the certification process is extremely sophisticated. 
So, I do not have all the answers about ways to improve the FAA 
aircraft certification process, but I do have some questions:
    1.  First, is the FAA sufficiently independent of the manufacturers 
so as to provide a legitimately rigorous audit of the manufacturers' 
design and engineering?
    2.  Second, should a ``federated'' system, which may lead to an 
unrecoverable event, ever be certified by the FAA?
    3.  Third, should an FAA aircraft certification--such as a 737 
designation from 1967--have a date for termination or sunset?
    4.  Finally, is the FAA sufficiently equipped to ensure that pilot 
training protocols are vigorous and robust as aircraft are becoming 
more and more technologically sophisticated?
    Mr. Chairman, these are among the questions that I respectfully 
hope this committee examines. Of course, there are many others as well. 
Unfortunately, as pilots know, improvements in aviation are often 
written in the blood of the unfortunate victims of airplane accidents. 
But all of us--the pilots, flight attendants, airline companies, 
manufacturers, the executive branch of our government, and Congress--
owe those victims the highest level of diligence to make sure these 
kinds of accidents never happen again.
    This is a global aviation crisis of trust and will require global 
solutions to restore and bolster aviation's global safety culture and 
reputation. As sad and grim as these crashes were, there is an 
opportunity to lead and bring something positive out of this darkness. 
As the last line of defense for our passengers, the members of the 
Allied Pilots Association are humbled and proud to be a part of this 
noble cause.
    Thank you and I look forward to your questions.

    Mr. Larsen. Thank you.
    The Chair now recognizes Captain Chesley B. Sullenberger 
III, for 5 minutes.
    Mr. Sullenberger. Thank you, Chairman Larsen, Ranking 
Member Graves, Chairman DeFazio, Ranking Member Graves, and 
other members of the committee. It is my honor to appear today 
before this Subcommittee on Aviation. Like Americans and many 
others around the world, I am shocked and saddened by these two 
awful tragedies and terrible loss of life.
    I just met the parents of 24-year-old Samya Stumo, and I 
saw in their eyes the incomprehensible immensity of their loss. 
These crashes are demonstrable evidence that our current system 
of aircraft design and certification has failed us. These 
accidents should never have happened. The accident 
investigations of these crashes will be not completed but for 
many months, but some things are clear, accidents are the end 
result of a causal chain of events, but in this case, the chain 
began with decisions that had been made years before to update 
a half-century-old design.
    Boeing added MCAS, but the existence of it was not 
communicated to pilots until after the first crash. Some have 
said that even though MCAS software had flaws, the pilots on 
these flights should have performed better and been able to 
solve the sudden, unanticipated crisis they faced. Boeing has 
said that they did not categorize a failure of MCAS as more 
critical because they assumed that pilot action would be the 
safeguard.
    From my 52 years of flying experience and my many decades 
of safety work, I know that we must consider all the human 
factors of these accidents and how system design determines how 
many and what kinds of errors will be made and how 
consequential they will be. These two recent crashes happened 
in foreign countries. But if we do not address all the 
important issues and factors, they can and will happen here.
    We owe it to everyone who flies, passengers and crews 
alike, to make sure that pilots will be able to handle an 
unexpected emergency and keep their passengers and crew safe, 
but first, we should design aircraft for them to fly that do 
not have inadvertent traps set for them.
    I am one of a relatively small group of people who have 
experienced such a crisis and lived to share what we learned 
about it. I can tell you firsthand that the startle factor is 
real and it is huge. It absolutely interferes with one's 
ability to quickly analyze the crisis and take effective 
action.
    Within seconds, these crews would have been fighting for 
their lives in the fight of their lives. In both 737 MAX 
accidents, the failure of a single angle-of-attack sensor 
quickly caused multiple instrument indication anomalies and 
sudden loud and in some cases false warnings, creating major 
distractions, masking the cause, and would have made it even 
harder to quickly analyze the situation and take effective 
corrective action.
    I recently experienced all these warnings in a 737 MAX 
flight simulator during recreations of the accident flights. 
Even knowing what was going to happen, I could see how crews 
could have run out of time before they could have solved the 
problems.
    Prior to these accidents, I think it is unlikely that any 
U.S. airline pilots were confronted with this scenario in 
simulator training. We must make sure that everyone who 
occupies a pilot seat is fully armed with the information, 
knowledge, training, skill, judgment and experience to be the 
absolute master of the aircraft and all its component systems 
and of the situation simultaneously and continuously throughout 
the flight.
    As aviation has become safer, we can no longer define 
safety solely as the absence of accidents. We must do much more 
than that, we must be more proactive than that. In essence, we 
must investigate accidents before they happen. We should all 
want pilots to experience these challenging situations for the 
first time in a simulator and not in flight with passengers and 
crew on board. And reading about it on an iPad is not even 
close to sufficient. Pilots must experience it physically 
firsthand.
    If we don't learn from these crashes, if we just file the 
findings away on a shelf to gather dust, we will only compound 
these tragedies. We will make the loss of lives in these 
accidents even more tragic if we say that these were just black 
swan events, unlikely to happen again, and decide not to act 
and, instead, just protect the status quo.
    Only by discovering and correcting the ways in which these 
tragedies occurred can we begin to regain the trust of our 
passengers, flight attendants, pilots, and the American people.
    [Mr. Sullenberger's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Captain Chesley B. ``Sully'' Sullenberger III, 
                      Pilot, US Airways (Retired)
    Thank you, Chairman Larsen, Ranking Member Graves, Chairman 
DeFazio, Ranking Member Graves, and other members of the committee. It 
is my honor to appear today before the Subcommittee on Aviation.
    We are here because of the tragic crashes within five months of 
Lion Air 610 and Ethiopian 302, two fatal accidents with no survivors 
on a new aircraft type, something that is unprecedented in modern 
aviation history.
    Like most Americans and many others around the world I'm shocked 
and saddened by these two awful tragedies and the terrible loss of 
life. Now we have an obligation to find out why these tragic crashes 
happened, and keep them from ever happening again.
    These crashes are demonstrable evidence that our current system of 
aircraft design and certification has failed us.
    We don't yet know in every way how it has failed us. Multiple 
investigations are ongoing. We owe it to everyone who flies to find out 
where and how the failures occurred, and what changes must be made to 
prevent them from happening in the future.
    It is obvious that grave errors were made that have had grave 
consequences, claiming 346 lives.
    The accident investigations of these crashes will not be completed 
for many months, but some things are already clear.
    Accidents are the end result of a causal chain of events, and in 
the case of the Boeing 737 MAX, the chain began with decisions that had 
been made years before, to update a half-century-old design.
    Late in the flight testing of the 737 MAX, Boeing discovered an 
aircraft handling issue. Because the 737 MAX engines were larger than 
the engines on previous 737 models they had to be mounted higher and 
farther forward for ground clearance, which reduced the aircraft's 
natural aerodynamic stability in certain conditions. Boeing decided to 
address the handling issue by adding a software feature, Maneuvering 
Characteristics Augmentation System (MCAS), to the 737 MAX. MCAS was 
made autonomous, able in certain conditions to move a secondary flight 
control by itself to push the nose down without pilot input.
    In adding MCAS, Boeing added a computer-controlled feature to a 
human-controlled airplane but without also adding to it the integrity, 
reliability and redundancy that a computer-controlled system requires.
    Boeing also designed MCAS to look at data from only one Angle of 
Attack (AOA) sensor, not two. One result of this decision was that it 
allowed false data from a single sensor to wrongly trigger the 
activation of MCAS, thus creating a single point of failure. A single 
point of failure in an aircraft goes against widely held aircraft 
design principles.
    On both accident flights, the triggering event was a failure of an 
AOA sensor. We do not yet know why the AOA sensors on these flights 
generated erroneous information, triggering MCAS, whether they were 
damaged, sheared off after being struck, were improperly maintained or 
repaired, or for some other reason.
    Boeing designers also gave MCAS too much authority, meaning that 
they allowed it to autonomously move the horizontal stabilizer to the 
full nose-down limit.
    And MCAS was allowed to move the stabilizer in large increments, 
rapidly and repeatedly until the limit was reached. Because it moved 
stabilizer trim intermittently, it was more difficult to recognize it 
as a runaway trim situation (an uncommanded and uncontrolled trim 
movement emergency), as appears to have happened in the first crash.
    Though MCAS was intended to enhance aircraft handling, it had the 
potential to have the opposite effect; being able to move the 
stabilizer to its limit could allow the stabilizer to overpower the 
pilots' ability to raise the nose and stop a dive toward the ground. 
Thus it was a trap that was set inadvertently during the aircraft 
design phase that would turn out to have deadly consequences.
    Obviously Boeing did not intend for this to happen. But to make 
matters worse, even the existence of MCAS, much less its operation, was 
not communicated to the pilots who were responsible for safely 
operating the aircraft until after the first crash.
    Also with the MAX, Boeing changed the way pilots can stop 
stabilizer trim from running when it shouldn't. In every previous 
version of the 737, pilots could simply move the control wheel to stop 
the trim from moving, but in the MAX, with MCAS activated, that method 
of stopping trim no longer worked. The logic was that if MCAS 
activated, it had to be because it was needed, and pulling back on the 
control wheel shouldn't stop it.
    It is clear that the original version of MCAS was fatally flawed 
and should never have been approved.
    It has been suggested that even if the MCAS software had flaws, the 
pilots on these flights should have performed better and been able to 
solve the sudden unanticipated crises they faced. Boeing has even said 
that in designing MCAS they did not categorize a failure of MCAS as 
critical because they assumed that pilot action would be the ultimate 
safeguard.
    We owe it to everyone who flies, passengers and crews alike, to do 
much better than to design aircraft with inherent flaws that we intend 
pilots will have to compensate for and overcome.
    Pilots must be able to handle an unexpected emergency and still 
keep their passengers and crew safe, but we should first design 
aircraft for them to fly that do not have inadvertent traps set for 
them.
    We must also consider the human factors of these accidents.
    From my 52 years of flying experience, and my many decades of 
safety work--I know that nothing happens in a vacuum, and we must find 
out how design issues, training, policies, procedures, safety culture, 
pilot experience and other factors affected the pilots' ability to 
handle these sudden emergencies, especially in this global aviation 
industry.
    Dr. Nancy Leveson, of the Massachusetts Institute of Technology, 
has a quote that succinctly encapsulates much of what I have learned 
over many years: ``Human error is a symptom of a system that needs to 
be redesigned.''
    These two recent crashes happened in foreign countries, but if we 
do not address all the important issues and factors, they can and will 
happen here. To suggest otherwise is not only wrong, it's hubris.
    As one of our preeminent human factors scientists, Dr. Key 
Dismukes, now retired as Chief Scientist for Human Factors at the NASA 
Ames Research Center, has said, ``Human performance is variable and it 
is situation-dependent.''
    I'm one of the relatively small group of people who have 
experienced such a sudden crisis--and lived to share what we learned 
about it. I can tell you firsthand that the startle factor is real and 
it is huge--it interferes with one's ability to quickly analyze the 
crisis and take effective action.
    Within seconds, these crews would have been fighting for their 
lives in the fight of their lives.
    These two accidents, as well as Air France 447 which crashed in the 
South Atlantic in June 2009, are also vivid illustrations of the 
growing level of interconnectedness of devices in aircraft. Previously, 
with older aircraft designs, there were mostly stand-alone devices, in 
which a fault or failure was limited to a single device that could 
quickly be determined to be faulty and the fault remain isolated. But 
with integrated cockpits and data being shared and used by many 
devices, a single fault or failure can now have rapidly cascading 
effects through multiple systems, causing multiple cockpit alarms, 
cautions and warnings, which can cause distraction and increase 
workload, creating a situation that can quickly become ambiguous, 
confusing and overwhelming, making it much harder to analyze and solve 
the problem.
    In both 737 MAX accidents, the failure of an AOA sensor quickly 
caused multiple instrument indication anomalies and cockpit warnings. 
And because in this airplane type the AOA sensors provide information 
to airspeed and altitude displays, the failure triggered false warnings 
simultaneously of speed being too low and also of speed being too fast. 
The too slow warning was a `stick-shaker' rapidly and loudly shaking 
the pilot's control wheel. The too fast warning was a `clacker', 
another loud repetitive noise signaling overspeed. These sudden loud 
false warnings would have created major distractions and would have 
made it even harder to quickly analyze the situation and take effective 
corrective action.
    I recently experienced all these warnings in a 737 MAX flight 
simulator during recreations of the accident flights. Even knowing what 
was going to happen, I could see how crews could have run out of time 
and altitude before they could have solved the problems.
    Prior to these accidents, I doubt if any U.S. airline pilots were 
confronted with this scenario in simulator training.
    We must make sure that everyone who occupies a pilot seat is fully 
armed with the information, knowledge, training, skill, experience and 
judgment they need to be able to be the absolute master of the aircraft 
and all its component systems, and of the situation, simultaneously and 
continuously throughout a flight.
    As aviation has become safer, it has become harder to avoid 
complacency. We have made air travel so safe and routine, some have 
assumed that because we haven't had a lot of accidents in recent years 
we must be doing everything right.
    But we can no longer define safety solely as the absence of 
accidents. We must do much more than that; we must be much more 
proactive than that.
    We need to proactively find flaws and risks and mitigate them 
before they lead to harm.
    We must investigate accidents before they happen.
    Each aircraft manufacturer must have a comprehensive safety risk 
assessment system that can review an entire aircraft design 
holistically, looking for risks, not only singly, but in combination.
    We must also look at the human factors and assumptions made about 
human performance in aircraft design and certification, and pilot 
procedure design.
    In addition to fixing MCAS in a way that resolves all the many 
issues with it, including that the AOA Disagree light be made operative 
on all Max aircraft, we must greatly improve the procedures to deal 
with uncommanded trim movement, provide detailed system information to 
pilots that is more complete, give pilots who fly the 737 MAX 
additional Level D full flight simulator training so that they will 
see, hear, feel, experience and understand the challenges associated 
with MCAS, such as Unreliable Airspeed, AOA Disagree, Runaway 
Stabilizer and Manual Trim. They must have the training opportunity to 
understand how higher airspeeds greatly increase the airloads on the 
stabilizer, making it much more difficult to move manually, often 
requiring a pilot to use two hands, or even the efforts of both pilots 
to move it. And in some cases, how it cannot be moved at all unless the 
pilot flying temporarily stops trying to raise the nose and relieves 
some of the airloads by moving the control wheel forward.
    Pilots must develop the muscle memory to be able to quickly and 
effectively respond to a sudden emergency. Reading about it on an iPad 
is not even close to sufficient; pilots must experience it physically, 
firsthand.
    We should all want pilots to experience these challenging 
situations for the first time in a simulator, not in flight with 
passengers and crew on board.
    We must look closely at the certification process. There have been 
concerns about the aircraft certification process for decades. Just a 
brief search revealed 18 reports produced by GAO, DOT OIG, and 
Congressional committees since 1992.
    Many questions remain to be and must be answered:
    Has the Federal Aviation Administration (FAA) outsourced too much 
certification work?
    Should FAA be selecting the manufacturer employees who do 
certification work on behalf of FAA, instead of the employer, as is 
currently the case?
    Did oversight fail to result in accountability?
    Do the Federal Aviation Administration (FAA) employees and Boeing 
employees doing certification work have the independence they need to 
ensure safe designs?
    Was there a failure to identify risks and their implications?
    Was the analysis of failure modes and effects inadequate?
    How was it that critically important information was not 
effectively communicated and shared with airlines and pilots?
    Many other questions must be asked about the role Boeing played in 
these accidents:
    Was there a leadership failure?
    A governance failure?
    An engineering failure?
    A risk analysis failure?
    A safety culture failure?
    Whistle-blower protection must be strong and effective, and if it 
is not strong enough, we must strengthen it.
    Key leaders and members of each safety-critical aviation 
organization must have subject matter expertise; in other words, they 
must be pilots who understand the science of safety. There should be at 
least one person so qualified on each corporate board of directors of 
each aviation company. Top project engineers of aircraft manufacturers 
must also be pilots.
    Airlines worldwide must adhere to the highest standards of aircraft 
maintenance and crew training.
    All the layers of safety must be in place. They are the safety net 
that helps keep air travelers and crews from harm.
    Only by investigating, discovering, and correcting the ways in 
which our design, certification, training and other systems have failed 
us and led to these tragedies can we begin to regain the trust of our 
passengers, flight attendants, pilots and the American people. And, of 
course, in order for passengers to trust that the 737 MAX is safe to 
fly, pilots will have to trust that it is.
    We have a moral obligation to do this.
    If we don't--if we just file the findings away on a shelf to gather 
dust, we will compound these tragedies. What would make the loss of 
lives in these accidents ever more tragic is if we say these were black 
swan events, unlikely to happen again, and decide not act on what we 
learn from them. To protect the status quo.
    The best way to honor the lives tragically lost is to make sure 
that nothing like this ever happens again.

    Mr. Larsen. Thank you, Captain Sullenberger.
    I now recognize Sara Nelson, Ms. Nelson, for 5 minutes.
    Ms. Nelson. Thank you, Chairman DeFazio, Ranking Member 
Graves, Chairman Larsen, Ranking Member Graves, and the entire 
committee, for the opportunity to testify on the issues 
surrounding the Boeing 737 MAX.
    As a 23-year flight attendant and international president 
of the Association of Flight Attendants--CWA, AFL-CIO, 
representing nearly 50,000 of aviation's first responders at 20 
airlines, I am here today because the public looks to flight 
attendants when it comes to aviation safety. We are aviation's 
first responders and last line of defense, and we have more 
public contact and interaction than any other profession within 
aviation, and the public trusts us to look out for their 
interests.
    We are all here today because 346 lives were lost on Lion 
Air flight 610 and Ethiopian Airlines flight 302. This hearing 
room has many people in it who have lost loved ones due to 
tragedy in aviation. We can see their faces, feel the warmth of 
their smiles, and try with all our strength to carry on without 
them. Some days we do this with more success than others.
    But we also know, with certainty, that if there was 
anything at all that we could have done to prevent their lives 
being cut short, we would do it. This reality is inescapable. 
We know that aviation safety and security is written in their 
blood, and we must ensure their sacrifices mean that we fully 
examine the chain of events that led to their death so that 
this is never repeated.
    As I stated on March 13, shortly after the grounding of the 
737 MAX, lives must always come first. But a brand is at stake 
as well, and that brand is not just Boeing, it is America. What 
America means in international aviation and by extension in the 
larger world more generally, that we set the standard for 
safety, competence, and honesty in governance of aviation.
    Under various agreements between the FAA and other 
countries or groups of countries, foreign authorities agree to 
work with the FAA to accept U.S. certification of aircraft and 
manufactured aeronautical products. This system of 
international aircraft certification has been built upon global 
recognition of the FAA and its statutory mandate to maintain 
safety at the highest possible level. This is now under 
question, and it means that the FAA must ensure that it has 
taken all measures to assure the safety of the 737 MAX within 
the U.S. as well as all countries who must also approve the 
aircraft for its return to service.
    Both Boeing and the FAA seem to recognize the need to win 
back public support and the importance of involving 
stakeholders in the process. Over the course of the last 
several months, our union has witnessed a chastened tone from 
Boeing and what appears to be a real desire to regain trust. 
This is critically important if remaining questions are to be 
answered and stakeholders around the world are to be convinced 
that the 737 MAX is safe to fly.
    It is significant that the FAA has formed the Technical 
Advisory Board and that they are engaging the rest of the world 
and conducting a rigorous review of the software fix and full 
accounting of human interaction with the functionality of the 
plane. The fix must be rigorously tested and communicated with 
utmost transparency and required training. And while this is 
not an area of expertise for our union, flight attendants must 
be assured that operators, pilots, regulators, and an 
independent assessment is confident in the safe return to 
flight. We put our own lives on the line when we return to 
flight, and we will do so knowing all has been done to ensure 
safety.
    We are heartened to receive assurance that Acting 
Administrator Elwell is working in close coordination with 
worldwide regulators in returning the MAX to service. Mr. 
Elwell's time in leadership has not been easy, and yet he is 
tasked with securing the confidence of regulators around the 
world and the traveling public, and we need to do all we can to 
help him.
    Questions remain, but we believe that the FAA's engagement 
of all stakeholders is the right leadership approach. We 
encourage both Boeing and regulators to continue efforts with 
stakeholders to answer all the questions and communicate fully 
the lessons learned, along with any necessary changes in 
procedure.
    Flight attendants take our role in aviation seriously. And 
while we are not yet there, we look forward to assuring the 
public that it is safe to return to flight.
    We continue to receive questions from the traveling public 
about the 737 MAX, and there is confusion about the progression 
of the 737 aircraft models. It is common for crew to receive 
questions, when working the 737 NG, about whether or not the 
aircraft is safe. This signals the fundamental question about 
the progression of the 737 aircraft models and whether or not 
the MAX should have been designated as an entirely new aircraft 
type. And this is the type of question that has to be answered 
if we can regain public confidence. I should also note that we 
do not have one question from flight attendants asking when we 
will regain the flight hours that we have lost with the 737 
MAX, because safety is nonnegotiable.
    We believe that we need to take a close look at ODA and the 
process for certification, and we also think that this 
committee's work to ensure a review of cabin aircraft 
certification in the FAA Reauthorization Act of 2018 is 
critically important. We believe that funding and ensuring a 
government shutdown----
    Mr. Larsen. I would ask, Ms. Nelson, to wrap up.
    Ms. Nelson [continuing]. Never happens again is critically 
important, and we support H.R. 1108 to ensure that doesn't 
happen.
    Again, we commend this committee for its diligence in 
promoting aviation safety, and we look forward to the continued 
leadership from Acting Administrator Elwell in promoting a 737 
MAX return to service that inspires confidence among aviation 
workers, our counterparts around the world, and the traveling 
public.
    Thank you.
    [Ms. Nelson's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Sara Nelson, International President, Association 
                   of Flight Attendants--CWA, AFL-CIO
    Thank you Chairman DeFazio, Chairman Larsen, Ranking Member Sam 
Graves, and Ranking Member Garret Graves for the opportunity to testify 
on the issues surrounding the Boeing 737 Max. My name is Sara Nelson, 
International President of the Association of Flight Attendants--CWA, 
AFL-CIO (AFA), representing nearly 50,000 of aviation's first 
responders at 20 airlines.
    As I said on March 13th shortly after the U.S. grounding of the 
737Max,
        ``It is good news that the 737 MAX will now get the focus it 
        needs to address the concerns of undetermined safety issues. We 
        must focus on the needed fix, rather than the uncertainty of 
        flight. Lives must come first always. But a brand is at stake 
        as well. And that brand is not just Boeing. It's America. What 
        America means in international aviation and by extension in the 
        larger world more generally--that we set the standard for 
        safety, competence, and honesty in governance of aviation.''
    I am here today because the public looks to flight attendants when 
it comes to aviation safety. We are aviation's first responders and 
last line of defense. We have more public interaction than any other 
profession within aviation, and the public trusts us to look out for 
their interests.
    That is why both Boeing and the Federal Aviation Administration 
(FAA) have individually come to our union to engage us in discussions 
about our concerns and the process to return the 737 MAX to service.
    Both Boeing and the FAA deserve credit for recognizing the need to 
win back public support and the importance of involving stakeholders in 
this process. The truth is that these tragic incidents and the 
revelations surrounding them have shaken the public trust in our entire 
aviation system due to the decisions made by Boeing during the original 
certification process, the slow and inadequate response in the wake of 
the loss of Lion Air flight 610 and Ethiopian Airlines flight 302, and 
the questions surrounding FAA oversight throughout.
    Over the course of the last several months our union has witnessed 
a chastened tone from Boeing and what appears to be a real desire to 
regain trust. This is critically important if remaining questions are 
to be answered and stakeholders around the world are to be convinced 
the 737 Max is safe to fly.
    It is significant that the FAA formed the Technical Advisory Board, 
with individuals not involved in any aspect of the Boeing 737 MAX 
certification including NASA, the U.S. Air Force and Volpe National 
Transportation Systems Center, to evaluate Boeing and FAA efforts 
related to Boeing's software update and its integration into the 737 
MAX flight control system. We are also heartened to receive assurance 
from Acting Administrator Elwell that certification of the 737 Max is 
being done in close coordination with world-wide regulators under the 
most conservative approach and all of the time necessary to regain 
public trust around the world.
    Regaining that trust first and foremost requires transparency. 
Congressional oversight is important, and we commend this Committee for 
its diligence in investigating the events surrounding the loss of 346 
lives, and what must be done to ensure this never happens again.
    We recognize the efforts of both Boeing and the FAA for seeking our 
input and help in reassuring the public. Questions remain, but we 
believe this is the right leadership approach. We encourage both Boeing 
and regulators to continue efforts with stakeholders to answer all 
questions and communicate fully the lessons learned along with any 
necessary changes in procedures. Flight Attendants take seriously our 
role in aviation safety. While we are not there yet, we look forward to 
being able to reassure the public when this process is complete.
                            questions remain
    On May 15, 2019, the House Transportation and Infrastructure 
Committee held a hearing on the ``Status of the Boeing 737 MAX.'' In 
their opening remarks,\1\ Committee Chair Peter DeFazio and Aviation 
Subcommittee Chair Rick Larsen addressed the importance of this and 
subsequent hearings and investigations by this Committee and other 
investigative bodies into the two fatal accidents that occurred in a 
five month span of time and involved Boeing 737 MAX airplanes.
---------------------------------------------------------------------------
    \1\ House Committee on Transportation and Infrastructure, Chairs 
DeFazio, Larsen Statements from Hearing on ``Status of the Boeing 737 
MAX'', May 15, 2019. https://transportation.house.gov/news/press-
releases/chairs-defazio-larsen-statements-from-hearing-on-status-of-
the-boeing-737-max, accessed June 12, 2019.
---------------------------------------------------------------------------
    Chair Larsen noted, ``[i]f the public doesn't feel safe about 
flying then they won't fly; if they don't fly, airlines don't need to 
buy airplanes; if they don't need to buy airplanes, then airplanes 
don't need to be built; and if there is no need to build the airplanes, 
then there will be no jobs . . . the foundation of the U.S. aviation 
system is safety.'' Clearly, AFA and the aviation industry agree that 
the ``foundation of the U.S. aviation system is safety.'' Without 
safety, the commercial aviation system our economy is so reliant upon 
today would simply not exist, and neither would tens of thousands jobs 
held by flight attendants, pilots, dispatchers, maintenance 
technicians, baggage handlers, customer service representatives, the 
list goes on and on.
    In his opening remarks on May 15, Chair DeFazio remarked on the 
historical process the Federal Aviation Administration (FAA) has used 
to approve airplane designs, noting that ``[s]ince the 1950s, the FAA 
has relied on a system of delegating certain certification authorities 
to manufacturers. And it has done so safely. However, for years, I have 
raised questions about how the FAA oversees the work of manufacturers 
that have been delegated these responsibilities.'' Some of the 
questions Chair DeFazio asked regarding FAA oversight include the 
following: ``Does the FAA have sufficient resources to oversee the 
delegation program? Does the FAA have enough internal expertise to 
oversee the most sophisticated engineering work in the world? What 
firewalls exist between manufacturers and its FAA-designated 
representatives to ensure proper oversight and that there is no undue 
influence placed on them?''
    Obtaining comprehensive answers to these questions through an open, 
transparent public investigative process will be the first step to 
addressing the concerns of crew members and the traveling public 
regarding the safety of commercial aviation. Equally critical to 
ensuring confidence is the effectiveness of any subsequent legislative 
and regulatory measures taken in response to identified shortcomings. 
This process will be long and resource intensive, but it is absolutely 
critical that it be done right to guarantee that the foundation of the 
U.S. aviation system continues to be safety.
    On March 10, 2019, the Association of Flight Attendants released a 
statement regarding the crash of Ethiopian Airlines Flight 302 and 
called on U.S. airlines to ``work with Boeing, the FAA, and the NTSB to 
address concerns and take steps to ensure confidence for the traveling 
public and working crews.'' In a March 11, 2019 letter addressed to 
Acting FAA Administrator Dan Elwell, AFA recommended a comprehensive, 
public review of all potential issues that may have contributed to the 
two tragic accidents involving Flight 302 and last October's Lion Air 
Flight 610 accidents. We noted at the time that these reviews should 
consider at minimum the ``certification basis, maintenance practices, 
operational procedures, and crew training aspects of the 737 MAX 
program.''
                          certification issues
    The 737 MAX program is not the first recent Boeing aircraft to face 
intense scrutiny of its design certification process following a 
safety-related incident. In January, 2013, an auxiliary power unit 
(APU) lithium-ion battery on a Japan Airlines Boeing 787-8 caught fire, 
which led to the grounding of the U.S. 787 fleet, an investigation by 
the National Transportation Safety Board (NTSB), and modifications to 
the main and APU batteries. In its November, 2014 final report \2\ on 
the 787 APU battery incident, the NTSB noted several safety issues that 
occurred during the design certification process. These issues bear 
troubling similarities to problems that may have occurred during 
certification of the 737 MAX as alleged in recent media reports.
---------------------------------------------------------------------------
    \2\ NTSB, Incident Report--Auxiliary Power Unit Battery Fire, Japan 
Airlines Boeing 787-8, JA829J, Boston, Massachusetts, January 7, 2013, 
Adopted November 21, 2014. https://www.ntsb.gov/investigations/
AccidentReports/Reports/AIR1401.pdf, accessed June 12, 2019.
---------------------------------------------------------------------------
    For example, the NTSB stated that the Boeing battery analyses ``did 
not consider the possibility that cascading thermal runaway of the 
battery could occur as a result of a cell internal short circuit.'' 
This may have reflected a lack of imagination, with unfortunately 
severe economic consequences for Boeing. A lack of imagination during 
the 737 MAX certification process may have led to far more tragic 
consequences. A June 1, 2019 article in the New York Times \3\ states 
that while some potential failures of the MCAS were flight-tested, the 
one test not conducted was activation of the MCAS ``as a result of a 
faulty angle-of-attack sensor--a problem in the two [Lion Air and 
Ethiopian Airlines] crashes.''
---------------------------------------------------------------------------
    \3\ New York Times, Boeing Built Deadly Assumptions Into 737 Max, 
Blind to a Late Design Change, June 1, 2019. https://www.nytimes.com/
2019/06/01/business/boeing-737-max-crash.html, accessed June 12, 2019.
---------------------------------------------------------------------------
    The NTSB report also stated that there was insufficient guidance 
provided in ``determining and justifying key assumptions in safety 
assessments'' for the 787 batteries. Boeing had assumed that ``an 
internal short circuit within a cell would be limited to venting of 
only that cell without fire.'' The NTSB report noted that the 
``assessment did not explicitly discuss this key assumption or provide 
the engineering rationale and justifications to support the assumption. 
Also, as demonstrated by the circumstances of this incident, Boeing's 
assumption was incorrect, and Boeing's assessment did not consider the 
consequences if the assumption were incorrect or incorporate design 
mitigations to limit the safety effects that could result in such a 
case.'' The June 1, 2019 New York Times article suggests that incorrect 
assumptions by Boeing engineers working on the 737 MAX design may have 
also occurred: ``Current and former employees at Boeing and the Federal 
Aviation Administration who spoke with The New York Times said they had 
assumed the system [MCAS] relied on more sensors and would rarely, if 
ever, activate. Based on those misguided assumptions, many made 
critical decisions, affecting design, certification and training.''
    The NTSB 787 battery report also noted that insufficient guidance 
was provided to FAA certification engineers whose role was to ensure 
compliance with certification requirements: ``Guidance to FAA 
certification staff at the time that Boeing submitted its application 
for the 787 type certificate, including FAA Order 8110.4, `Type 
Certification,' did not clearly indicate how individual special 
conditions should be traced to compliance deliverables (such as test 
procedures, test reports, and safety assessments) in a certification 
plan.'' Similarly, the June 1, 2019 New York Times article appears to 
suggest that insufficient guidance provided to FAA engineers during the 
certification process may have also contributed to the flawed 737 MAX 
safety assessment: ``Regulators didn't conduct a formal safety 
assessment of the new version of MCAS. The current and former 
employees, many of whom spoke on the condition of anonymity because of 
the continuing investigations, said that after the first crash, they 
were stunned to discover MCAS relied on a single sensor. `That's nuts,' 
said an engineer who helped design MCAS. `I'm shocked,' said a safety 
analyst who scrutinized it. `To me, it seems like somebody didn't 
understand what they were doing,'' said an engineer who assessed the 
system's sensors.' ''
    Another issue that may have impacted the 737 MAX certification 
process arises from conflicts of interest due to inappropriate 
relationships between regulator and regulated party. An example of how 
a personal relationship has affected oversight was discussed on March 
27, 2019 by the Department of Transportation (DOT) Inspector General 
(IG) in testimony to Congress.\4\ He made the following points 
regarding the relationship one inspector had with the regulated party, 
an airline: ``FAA guidance recognizes the impact that a single 
inspector can have on safety culture and establishes standards that 
require inspectors to act impartially and avoid the appearance of 
preferential treatment when they perform their official duties. 
Nonetheless, our recent work identified concerns regarding an FAA 
inspector's oversight of [an airline's] flight test program, which is 
used to verify the airworthiness of aircraft following major repairs. 
We found that an inspector had developed a personal relationship with 
the head of the carrier's flight test program and appeared to give the 
carrier preferential treatment when safety concerns were raised. The 
inspector also worked with the carrier to suppress future complaints. 
Ensuring that FAA's inspector workforce meets standards of impartiality 
remains a key oversight challenge for the Agency to strengthen its 
safety culture and effectively identify and mitigate risks.'' Compare 
this to the following from the June 1, 2019 New York Times 737 MAX 
article: ``On March 30, 2016 . . . [the 737 MAX chief technical pilot] 
sent an email to senior F.A.A. officials with a seemingly innocuous 
request: Would it be O.K. to remove MCAS from the pilot's manual? The 
officials, who helped determine pilot training needs, had been briefed 
on the original version of MCAS months earlier. . . . Under the 
impression that the system was relatively benign and rarely used, the 
F.A.A. eventually approved . . . [the] request, the three officials 
said. . . . [The chief technical pilot], a former F.A.A. employee, was 
at the front lines of this effort.''
---------------------------------------------------------------------------
    \4\ DOT/OIG, Perspectives on Overseeing the Safety of the U.S. Air 
Transportation System, Statement of Calvin L. Scovel, III, Inspector 
General, U.S. Department of Transportation, Before the Committee on 
Commerce, Science, and Transportation, Subcommittee on Aviation and 
Space, United States Senate, March 27, 2019. https://www.oig.dot.gov/
sites/default/files/Aviation%20Safety%20Long%20Statement_3-27-
19_final.pdf, accessed June 12, 2019.
---------------------------------------------------------------------------
    The close relationship between the FAA, airplane manufacturers and 
airlines can be seen in how the FAA has changed policy over the years 
regarding design changes and its certification requirement that an 
airplane with a passenger seating capacity of more than 44 seats can be 
evacuated from the airplane to the ground within 90 seconds, often 
referred to as the 90 second rule.
    Design standards are used in the design phase of a project, and can 
be verified while the product, in this case, an airplane, ``is still on 
the drawing board.'' i.e., before the airplane is built. Performance 
standards evaluate the performance of the product, often under the 
influence of factors that cannot be effectively integrated or evaluated 
during the design. Typically, a performance standard involves a test of 
the product after it is built. In the case of a full scale evacuation 
demonstration (a performance standard) of an airplane, the factors that 
must be evaluated are the performance of the passengers and crew.
    Clearly, the original intent of the evacuation demonstration was to 
show the satisfactory accomplishment of emergency evacuation 
procedures. The final rule reinforced this intent and required 
airlines, as a Part 121 operational requirement, to conduct evacuation 
demonstrations. (30 FR 3200, March 9, 1965).
    The following year, FAA Notice 66-26 (31 FR 10275, July 29, 1966) 
proposed to establish comparable requirements for the airplane 
manufacturers. This notice stated that `` . . . traditionally, it has 
been considered sufficient to provide the necessary components for 
emergency evacuation through detailed quantitative requirements 
prescribed in the airworthiness rules. However, experience has shown 
that compliance with these requirements does not ensure that the 
airplane can be evacuated, during an emergency, within an acceptable 
time interval. Differences in the relationships between elements of the 
emergency evacuation system introduce a considerable variation in 
evacuation time, and this variation is expected to be even more marked 
on larger transport aircraft under development.'' Thus, it was 
acknowledged that relationships between the various elements of the 
evacuation system, not just the elements themselves, had a critical 
influence on evacuation time. In other words, the whole was 
considerably more complicated than the sum of its parts. Since the 
manufacturer would be demonstrating the basic capability of a new 
airplane type without regard to crewmember training, operating 
procedures and similar items (such demonstration of procedures was 
still required under Part 121, the operational requirements), this new 
demonstration was not expected to validate the evacuation procedures of 
the air carriers or operators. FAA Notice 66-26 also proposed that once 
a manufacturer had successfully conducted an evacuation demonstration 
for a particular airplane type, the passenger seating capacity could be 
increased by no more than five percent if the manufacturer could 
substantiate, by analysis that all the passengers could be evacuated 
within the prescribed time limit. This appears to be the first proposal 
to suggest the use of ``analysis'' in lieu of full-scale evacuation 
testing. However, this analysis was intended to provide comparison with 
the full-scale evacuation actually conducted on the airplane. These 
proposals were adopted as a final rule (32 FR 13255, September 20, 
1967).
    The tests conducted by operators to show satisfactory 
accomplishment of emergency evacuation procedures and by manufacturers 
to show that the aircraft interior configuration and the relationship 
between the elements of its emergency evacuation system could be 
evacuated within a specified time period were allowed to be satisfied 
under a single test under Amendment 25-46 (43 FR 50578, October 30, 
1978). Under this amendment, the FAA also stated that ``A combination 
of analysis and tests may be used to show that the airplane is capable 
of being evacuated within 90 seconds under the conditions specified in 
25.803(c) of this section if the Administrator finds that the 
combination of analysis and tests will provide data with respect to the 
emergency evacuation capability of the aircraft equivalent to that 
which would be obtained by actual demonstration.'' The FAA recognized 
the problems with this new provision and in its discussion of it 
concluded that: ``Several commentators objected to the proposed 
amendment to 25.803(d) which would allow analysis in showing that the 
airplane is capable of being evacuated within 90 seconds. One 
commentator stated that analysis alone is an incomplete means of 
showing compliance and should not be allowed. Another commentator 
stated that extrapolations based on analytical testing have no 
practical relation to actual conditions which occur in accidents and 
evacuation demonstrations. The FAA agrees that the limitations on the 
use of analytical procedures should be made clear. The requirement that 
the Administrator find the analysis data acceptable was intended to 
preclude approvals which might be based on insufficient test data, such 
as in the case of a completely new model or a model which has major 
changes or a considerably larger passenger capacity than a previously 
approved model'' (Italics ours.)
    Despite this intent, the FAA granted a request from Boeing to 
remove a pair of exits from the B747 airplane in the early 1980's. AFA 
strongly protested this action that would make it more difficult for 
flight attendants to safely evacuate passengers from the airplane.
    In a 1985 hearing before the U.S. House of Representatives 
Subcommittee on Investigations and Oversight of this Committee 
(formerly named Public Works and Transportation Committee) and its 
Chairman, James Oberstar, AFA testified and presented data and past 
accident experience to illustrate our concerns, as well as those of 
passengers, with this emergency exit reduction. The FAA Administrator 
took steps that resulted in no US airline removing exits from their 
747s, and at this hearing, suggested that a reassessment of regulations 
pertaining to emergency evacuation of transport airplanes was 
warranted. Consequently, an Emergency Evacuation Task Force, open to 
the public, for that purpose was established in September, 1985. The 
continued use of full-scale emergency evacuation demonstrations was one 
of the matters considered by that task force. One of the presentations, 
by Boeing, suggested that a rudimentary analytical procedure be used in 
lieu of full scale demonstrations. Basically, the manufacturers favored 
analysis, while the representatives of people who flew on the 
airplanes, either as crewmembers or passengers, opposed analysis. The 
task force was unable to reach consensus on when to accept analysis in 
lieu of a demonstration. A similar process was undertaken by an 
advisory committee to the FAA in the 1990s with the same failure to 
reach consensus.
    The procedures used by the flight attendants in a full scale 
emergency evacuation certification demonstration are intended to become 
the baseline procedures for the aircraft type and model tested. This 
was the reason for the promulgation of the 1965 rule requiring 
operators to conduct full scale emergency evacuation demonstrations. 
These procedures are found in the Flight Standardization Board Report 
for each type and model of aircraft. Yet some demonstrations conducted 
since 1996 have utilized a procedure, with FAA allowance, that makes it 
easier for the manufacturer to pass the test, but it is not a procedure 
that is used by U.S. scheduled operators. The intent of the regulation 
requiring full scale evacuation demonstrations is not being carried out 
by the FAA.
    The analytical method does little more than calculate that, if the 
design standards are met, the aircraft could be evacuated within the 
requirements of the performance standard. Since the design requirements 
were intended to provide an airplane capable of being evacuated within 
the requirements of the performance standard, use of the analytical 
method is redundant.
    Analysis is not a method that can predict failure of an emergency 
evacuation system, unlike a full-scale demonstration utilizing 
appropriate evacuation procedures.
    The result of the FAA's policy and of the currently inadequate 
``state of the art'' analytical methods accepted under the policy, is 
that the first full scale evacuation of a new airplane will be 
performed by the traveling public under emergency conditions rather 
than by paid test subjects under the controlled test conditions of a 
demonstration. There is no assurance that the evacuation would be 
successful. For this reason, the FAA should be required to rescind its 
policy of allowing the use of analysis in lieu of the full-scale 
demonstration until a scientifically valid method is developed, 
including current demographic changes in the passenger population.
    This close relationship between FAA, airplane manufacturers and 
airlines was further touted and cemented on February 20, 2003 when, in 
her first major speech \5\ after becoming FAA Administrator, Marion 
Blakey referred to those regulated by the FAA as its ``customers.'' She 
said that the FAA needed to be more consistent in responding to ``our 
customers.'' Then Ms. Blakey said:
---------------------------------------------------------------------------
    \5\ FAA, Speech--``The Spirit of December 14th'', Marion C. Blakey, 
Washington, DC, February 20, 2003. https://www.faa.gov/news/speeches/
news_story.cfm?contentKey=2992, accessed June 12, 2019.
---------------------------------------------------------------------------
        ``So, I'm announcing today a new customer-service initiative 
        that provides written guidance and training to all managers and 
        supervisors in our regulation and certification offices 
        throughout the country on applying FAA rules and policies in a 
        standard and consistent manner. And, we want to know from our 
        customers if we're not being consistent. We're going to let 
        them know that they have the right to ask for review on any 
        inspector's decision on any call that's made in the 
        certification process . . . that they can ``buck it up'' to 
        first-line supervisors, field office managers, regional 
        division managers, or even to Washington if necessary--with no 
        fear of retribution. Information on how to do this--names, 
        titles, and phone numbers--will be prominently displayed on the 
        Web and in all our regional and field offices. We need your 
        help to make this program a success.''
    According to a USA Today article's \6\ reference to an April 3, 
2008 hearing before this Committee, ``Inspectors who testified before 
Congress last month and others who spoke in recent interviews said they 
bitterly recalled the introduction of the program. They said it sent a 
not-too-subtle message that the airlines were encouraged to complain 
about them and had the upper hand in any dispute over safety-compliance 
issues.''
---------------------------------------------------------------------------
    \6\ USA Today, FAA's Customer Initiative Undercut Safety 
Inspectors, May 30, 2008.
---------------------------------------------------------------------------
    In addition to its effect on safety regulation of airlines, the FAA 
``Customer Service Initiative'' specifically stated that customers 
``have the right to ask for review on any inspector's decision on any 
call that's made in the certification process'' from all levels 
including FAA Washington.
    On October 13, 2005, the FAA published its final rule \7\ 
(Establishment of Organization Designation Authorization Program, 70 FR 
59931) establishing the Organization Designation Authorization (ODA) 
program. This rule expanded the scope of approved tasks, increased the 
number of eligible organizations, and established a systems-based 
approach to managing designated organizations. According to the rule's 
summary, the ``effect of this program will be to increase the 
efficiency with which the FAA appoints and oversees designee 
organizations, and allow the FAA to concentrate its resources on the 
most safety-critical matters.'' Of course, not all who submitted 
comments to this rule agreed; one dissent in particular, from the 
National Air Traffic Controllers Association, was summarized in the 
rule's preamble as arguing that the ``proposed ODA program 
significantly modifies the current regulatory oversight system, 
deteriorating the established technical FAA oversight by going to a 
`systems' oversight approach that would provide less specific and 
technical FAA oversight and would, in time, reduce safety.'' The FAA 
disagreed, asserting that a systems approach will increase safety, as 
more effective delegation programs will free up resources for tasks 
more critical to safety. Unfortunately, the subsequent incidents 
involving the 787 main battery and 737 Max crashes appear to support 
the commenter's prediction that safety will, in fact, be reduced over 
time.
---------------------------------------------------------------------------
    \7\ FAA, Establishment of Organization Designation Authorization 
Program, 70 FR 59931, October 13, 2005. https://
www.federalregister.gov/documents/2005/10/13/05-20470/establishment-of-
organization-designation-authorization-program, accessed June 12, 2019.
---------------------------------------------------------------------------
    Under various agreements between the FAA and other countries or 
groups of countries, foreign authorities agree to work with the FAA to 
enable acceptance of US Type certificated and manufactured aeronautical 
products, including aircraft, engines, propellers, rotorcraft, and 
aeronautical components. In many of these agreements, the FAA is relied 
upon to assist in the certification process of products for the 
aviation authority and country to approve these products. This system 
of international aircraft certification has been built upon global 
recognition of the FAA and its statutory mandate to maintain safety at 
the highest possible level. The loss of this past esteem of FAA 
certification and regulation of US aviation and the profound tragedies 
of two US aircraft crashes within five months, in addition to the other 
safety problems we've discussed, means that the FAA must ensure that it 
has taken all measures to assure the safety of the 737 MAX within the 
U.S. as well as in all countries who must also approve the this 
aircraft for return to service.
    In 2006, the NTSB published the results of a study, Safety Report 
on the Treatment of Safety-Critical Systems in Transport Airplanes.\8\ 
This report, which focused on certification of systems critical to 
flight safety and seems as relevant today as then, was prompted by four 
recently-concluded accident investigations involving two Boeing, one 
McDonnell-Douglas, and one Airbus aircraft: USAir flight 427 in 1999; 
TWA flight 800 in 2000; Alaska Airlines flight 261 in 2002; and 
American Airlines flight 587 in 2004. The NTSB suggested improvements 
to the certification process for the following three reasons, quoted 
directly from the report:
---------------------------------------------------------------------------
    \8\ NTSB/SR-06/02, Adopted April 25, 2006
---------------------------------------------------------------------------
    1.  The process for assessing risks to aircraft systems does not 
adequately address important failure conditions associated with 
structures and with human/system interaction.
    2.  The results of the process for assessing risks to safety-
critical systems are not adequately preserved to support continued 
airworthiness of certificated airplanes.
    3.  Existing policy, practices, and procedures for the ongoing 
assessment of risks to safety-critical systems do not ensure that the 
underlying assumptions made during design and certification are 
adequately and continuously assessed in light of operational 
experience, lessons learned, and new knowledge.
    The NTSB also concluded that ``a program must be in place, once the 
type certification process is completed, to ensure the ongoing 
assessment of risks to safety-critical systems. Such a program must 
recognize that ongoing decisions about design, operations, maintenance, 
and continued airworthiness must be done in light of operational data, 
service history, lessons learned, and new knowledge, for designs that 
are derivatives of previously certificated airplanes.''
    Given the possibility that problems in the type certification 
process may have contributed to the recent 737 MAX accidents, as well 
as the concerns that have been expressed by Congress, the NTSB, DOT IG, 
and others, a return to the FAA certification processes prior to the 
2005 FAA rule on ODA, footnote 7 supra, with inclusion of learned 
safety enhancements since then may be the best way to prevent a 
certification applicant's pecuniary and market-based interests from 
interfering with ensuring safety of the airplane and related 
requirements directly by the FAA. Such a return to direct FAA 
certification with designated engineering representatives will likely 
require increased FAA personnel and funding, with compensation for 
certification engineers to be more competitive with the private sector.
                   stable funding for aviation safety
    The ``foundation of the U.S. aviation system is safety.'' In the 
case of the Boeing 737 Max we not only need a conservative, transparent 
process for certification--we need to recognize the systemic issues 
that have undermined safety. We need an aviation system that is 
supported by stable, long-term funding and is shielded from political 
cliffs of government funding.
    AFA supports HR 1108, the ``Aviation Funding Stability Act of 
2019,'' introduced by Transportation & Infrastructure Committee 
Chairman Peter DeFazio and Aviation Subcommittee Chairman Rick Larsen. 
Aviation safety is non-negotiable. HR 1108 would authorize the FAA to 
keep all of its programs running and all of its employees working by 
drawing from the Airports and Airways Trust Fund (AATF) during any 
lapse in typical government appropriations. By drawing from the AATF 
during a shutdown, the FAA would ensure that all FAA employees would be 
paid for work during a funding lapse and FAA programs would continue to 
operate. This bill should be acted on with urgency.
    We encourage Congress to give serious attention in all budgeting to 
properly funding the Department of Transportation and the Federal 
Aviation Administration in order to fully support aviation safety.
                                closing
    Safety is not something ``customers'' buy, it is something we all 
fundamentally expect as a baseline of operation. Regulator oversight 
cannot be put in terms of client/customer relations.
    Again, we commend this Committee for its diligence in promoting 
aviation safety. We look forward to continued leadership from Acting 
Administrator Elwell in promoting a 737 Max return to service that 
inspires confidence among aviation workers, our counterparts around the 
world, and the traveling public.

    Mr. Larsen. Thank you.
    I now recognize Randy Babbitt, former Administrator of FAA, 
for 5 minutes. Good to see you, Randy.
    Mr. Babbitt. Good morning. Pardon me.
    Good morning. Chairman Larsen, Ranking Member Graves, 
Chairman DeFazio, and Ranking Member, also, Graves, and to the 
full members of the committee, thank you for the opportunity to 
come here today and discuss the return to service and 
certification issues surrounding the Boeing 737 MAX.
    I would also like to take a second and offer my 
condolences, heartfelt condolences to the family and the 
friends and the loved ones of the passengers and the crew, 
crewmembers, and all aboard Lion Air 610 as well as the 
Ethiopian flight 302.
    In interest of disclosure, not in my original testimony, I 
have had the opportunity to fly the Boeing simulator yesterday, 
and I flew both scenarios of the old software and the new 
software. Obviously, this came after I turned in my testimony.
    But I have had a pilot's license from the time I soloed in 
1962 to date. I have also been an aviation safety advocate for 
over 40 years, so I do bring some background and, I believe, 
some understanding of accident investigations and changes that 
have been made subsequently to improve aviation safety and 
efficiency over the last 40 years.
    As president of ALPA in the nineties, I championed the One 
Level of Safety, which essentially melded the regulations under 
part 121 into the operations of part 135, and that provided a 
vast improvement of regional carriers airline safety standards. 
And while serving as the FAA's Administrator, the program for 
Aviation Safety Information Analysis and Sharing, known as 
ASIAS, was introduced, and today, provides a collection of data 
that has dramatically improved safety by having stakeholders 
and operators reporting and sharing problems and issues that 
they encounter, operational issues, and they report these 
before they become accidents.
    We also began to purposely focus on collaboration with all 
facets of aviation operations to be more forthcoming with 
mistakes, errors uncovered, and other issues, and we have also 
asked that the FAA consider to be less punitive in order to 
inspire more voluntary disclosures.
    Following the tragic accident in Buffalo, I called on the 
industry and the organizations representing the professional 
airplane pilots of the country together for a call to action 
focused on professionalism. We revisited a lot of past actions 
and then entered into a partnership with the industry to 
actively address concerns raised by the discoveries uncovered 
in the Colgan Air flight 3407 tragedy.
    We identified steps to strengthen and improve pilot 
training, hiring, testing, and all the practices surrounding 
aviation at the regional airlines and major carriers. 
Participants agreed on best practices and changes to them for 
pilot record checks, development of pilot mentoring programs, 
and reassessing rules for pilot fatigue, flight, and duty time, 
and this time based on scientific research about fatigue.
    And we should acknowledge that the FAA's mission is to 
provide the safest and most efficient transportation and 
aerospace system in the world. In an aviation system, data is 
our friend. Ninety million flights, seven billion passengers 
carried over the last decade in the U.S. is the most incredible 
safety record the world has ever seen, and it is also not 
symptomatic of a flawed safety structure.
    In 1970, to take a look back, in 1970, we were losing a 
hull in this country every 6 weeks. Eight accidents a year. And 
looking back today, we haven't lost a hull in 10 years. That is 
quite a dramatic recommendation of the dramatic efforts that 
safety continues--or that continuous safety improvements will 
bring you.
    Our Nation's system of certification of aircraft has been 
evolving also for over 60 years, and it must continue to evolve 
and improve. But as we move forward with increased reliance on 
automation, the linkage and the interface between man and the 
machine must also evolve. It is imperative that pilots have a 
full and complete understanding of the automation of the 
equipment that they operate and the systems designed to protect 
the operational envelope of the aircraft. But of equal 
importance is ensuring that pilots have the full training, 
operational knowledge, and understanding of those operational 
boundaries and the limitations of those systems.
    Automation and training must also keep improving on 
maintaining situational and operational awareness of what 
equipment and automation is actually controlling. Pilots need 
to understand the operational realm in which automation takes 
control of an aircraft and be aware of the situation calling 
for the action, as well as the full range of possibility that 
that action can be.
    No pilot should ever be surprised by an event that takes 
place in an airplane in which they are certified. That includes 
training exposure to all phases of the operational envelope as 
well as the safety protections that are designed to protect the 
operating envelope and protect it from excursions.
    In closing, a retrospective look into the introduction of 
service shows that assumptions were made by Boeing and accepted 
by the FAA and design changes incorporated that should have 
been more rigorously tested and flight crews better educated 
and trained in reaction to a new safety protection system that 
Boeing had introduced.
    History tells us that this is not a new problem, but in 
fact, has been part of aviation history, unfortunately. Going 
back to aircraft such as early jets, like the Comet, and metal 
fatigue, later Douglas DC-10s, Lockheed Electra engine mounts 
had to be redesigned----
    Mr. Larsen. Thank you.
    Mr. Babbitt [continuing]. Douglas pitch trim compensators, 
all of which had to be redesigned, but those aircraft did 
finish out their lives with--successfully after the required 
modifications.
    I am comfortable, in closing, that the FAA and Boeing, 
working together, have rigorously evaluated and reevaluated the 
design, along with revised training requirements that will 
ensure reintroduction----
    Mr. Larsen. I have to ask you to wrap up.
    Mr. Babbitt [continuing]. To service by the 737 MAX.
    Thank you, and I look forward to your questions.
    [Mr. Babbitt's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. J. Randolph Babbitt, Former Administrator, 
                    Federal Aviation Administration
    Good morning, Chairman Larsen, Ranking Member Graves, and Members 
of the Subcommittee. Thank you for the opportunity to discuss the 
Status of the Boeing 737 MAX: Stakeholder Perspectives.
    I would also like to offer my most heartfelt condolences to the 
families, friends and loved ones of the passengers and crew members 
aboard both Lion Air 610 and Ethiopian Airlines 302. My thoughts and 
prayers are with them.
                               background
    I have had a pilot's license from the time I soloed in 1962 to 
date. I have been an aviation safety advocate for over 40 years, so I 
do bring some background and understanding to accident investigations 
and changes that have subsequently been made to improve aviation safety 
and efficiency over the last forty plus years.
    As the President of ALPA I championed ``One Level of Safety'' which 
essentially melded the regulations of Part 121 operations into Part 135 
providing a vast improvement of Regional Carriers safety standards. 
While serving as the FAA's Administrator the program for Aviation 
Safety Information Analysis and Sharing (``ASIAS'') was introduced and 
provides data today that dramatically has improved safety by having 
stakeholders and operators reporting and identifying problems and 
operational issues before they become accidents. We also began to 
purposely focus on collaboration with all facets of aviation operations 
to be more forthcoming with mistakes and errors and at the same time 
moving the FAA to be less punitive to inspire more voluntary 
disclosures.
    Following the tragic accident in Buffalo I called on the industry 
and the organizations representing Professional Airline pilots of the 
country together for a ``Call to Action'' focused on professionalism. 
Safety starts with professionalism and we revisited our past actions 
and then entered into a partnership with the industry to actively 
address concerns raised by the Colgan Air Flight 3407 tragedy. We 
identified immediate steps to strengthen and improve pilot hiring, 
training, and testing practices at airlines that provide regional 
service, as well as at our major air carriers. Participants agreed on 
best practices for pilot record checks, development of pilot mentoring 
programs and reassessing rules for pilot flight and duty time to 
incorporate scientific research about fatigue. Professionalism is not 
something we can regulate, but I am proud to note that Labor 
organizations answered our Call to Action and supported either the 
establishment or expansion of professional standards and ethics 
committees, codes of ethics, and safety risk management meetings 
between FAA and major and regional air carriers. The FAA has worked in 
full cooperation with the industry to raise professional standards and 
improve cockpit discipline. I believe the ``Call to Action'' has proven 
the critical importance of professionalism in aviation safety.
                                 safety
    The FAA's mission is to provide the safest, most efficient 
aerospace system in the world. And in the aviation system, data is our 
friend. 90 million flights and 7 billion passengers carried over the 
last decade in the U.S. is the most incredible safety record the world 
has ever seen and is not symptomatic of a flawed safety structure. But, 
like aviation itself, we must strive to improve and continue to evolve 
in our ever-changing environment of advancing technology and oversight. 
And the evolution and adoption of safety management systems has proven 
success. In 1970 the U.S. was suffering major airline hull losses of 
one every 6 weeks! As noted earlier, we have not lost a domestic 
aircraft in over a decade which reflects the dramatic effect of 
continuous safety improvements.
    Quoting from my own testimony made almost a decade ago, ``Safety 
remains the vital core of the FAA mission. The flying public must have 
confidence that the airplanes they board are properly designed and 
maintained. They must know that their pilots are qualified, trained for 
their mission, and fit for duty. Nothing less is worthy of the FAA 
name, or our responsibility for preserving the lives of the flying 
American public.'' I concluded with the observation that ``The FAA has 
demonstrated a consistent track record of protecting the safety of the 
flying American public. Our successes in aviation safety continue to 
set a global standard of American leadership that is not only 
acknowledged, but also emulated throughout the world.'' I believe those 
statements are equally valid today.
                             certification
    Our nation's system of Aircraft certification has been evolving for 
over 60 years and must continue to evolve and improve. But as we move 
forward with increased reliance on automation, the linkage or interface 
between man and the machine must evolve as well. It is imperative that 
pilots have a full and complete understating of the automation of the 
equipment they operate. The FAA works with the industry to improve 
Flight deck layout and alert/warning display strategies that influence 
a crew's ability to interface with their airplane. And today's modern 
Aircraft continue to introduce systems that now incorporate even better 
systems to protect the ``operational envelope'' of the aircraft but of 
equal importance is ensuring that pilots have a full training and 
operational knowledge and understanding of those operational boundaries 
and the limitations of those systems. We also must continue to improve 
the operational knowledge and training of our flight crews. And we 
should be fully aware--to quote Chris Hart, former Chairman of the NTSB 
``Weaknesses in pilot skills are masked by automation when it works but 
amplified when it doesn't''.
    We have made remarkable technological improvements and the current 
safety record is proof positive of their importance. And key to 
continuing our introduction of innovative improvements to tomorrow's 
aircraft operational and safety systems is to ensure that safety 
regulations not stifle innovation, but to ensure that changes and 
innovation have safety and risk assessment as part of the design 
incorporated and built into them.
                         automation & training
    Automation and therefore training must keep improving to maintain 
the man-machine interface. Training should also include maintaining 
situational and operational awareness of what equipment including 
artificial intelligence and automation is controlling. Pilots need to 
understand the operational realm in which automation takes control of 
an aircraft and be appropriately aware of the situation calling for the 
action as well as the full range of possibility of that action.
    Pilots in today's system need to continue improved training to 
operate in today's operational environment. We have the technology to 
expand training with the use of visual reality and high-fidelity 
simulation so that no pilot should ever be surprised by event that 
takes place in an aircraft in which they are certified. That includes 
exposure to all phases of the operational envelope and environment as 
well as the built-in safety protections that are designed to protect 
the operating envelope from excursions.
                                closing
    A retrospective look into the introduction into service shows that 
assumptions were made, and design changes incorporated that should have 
been more rigorously tested and flight crews better educated and 
trained in reaction to a new safety protection system that Boeing had 
introduced.
    History shows us that this is not a new problem but in fact has 
been part of Aviation history unfortunately. Going back to aircraft 
such as early jets and understanding metal fatigue that occurred in the 
de Havilland Comet. Later, Douglas DC 10 and Lockheed Electra engine 
mounts required redesign and maintenance procedures. Douglas DC-8 Pitch 
Trim compensators, all of which had to be re-designed after 
introduction to service. All of those aircraft finished their aviation 
lives successfully after required modifications.
    And I am quite comfortable that Boeing and the FAA together have 
rigorously reevaluated the redesign along with revised training 
requirements that will ensure the re-introduction to service by the 
Boeing 737 Max will be safe and successful.
    Thank you for the opportunity to testify. I look forward to your 
questions.

    Mr. Larsen. Thank you, Mr. Babbitt. I appreciate it.
    I appreciate everyone's patience with my impatience as 
well. And we now move to Member questions, and we will 
recognize Members for 5 minutes, and I will start by 
recognizing myself.
    My questions are going to largely focus on the training and 
training standard, the training recommendations that will be 
necessary to get to return to service, and I just want to 
explore that.
    Captain Sullenberger, although you weren't specific, you 
were more generalized, is it your position that there ought to 
be required simulator training for pilots on the new--on the--
for the software fix for the 737 MAX before it is returned to 
service, versus a computer-based simulator training?
    Mr. Sullenberger. Yes. It is critical that we address all 
the issues. It is critical that pilots, as soon as possible, 
experience in a full motion level D simulator and not just a 
part task trainer, all the effects of the MCAS system, and also 
all the other things that likely have not been trained either 
at all or since initial qualification on the airplane, like 
unreliable air speed, manual trim operation, including manual 
trim operation at very high indicated air speeds where it may 
require either two hands or the efforts of two pilots to 
actually move the trim manually, or in some cases it may not be 
possible to move to trim manually until air loads are reduced. 
They need to develop a muscle memory of their experiences so 
that it will be immediately accessible to them in the future, 
even years from now, when they face such a crisis.
    Mr. Larsen. OK. I am just going to ask our staff, and we 
don't need to get into the technical details of what D level 
versus B level training is, but if staff can do a memo for the 
subcommittee members, that is kind of some basic stuff, so we 
don't need to spend time here talking about those differences, 
but if you could do that for the Members so we understand that.
    Captain Carey, do Allied Pilots have a different position 
or the same position as Captain Sullenberger?
    Mr. Carey. Thank you, Chairman Larsen. While Captain 
Sullenberger's recommendations are certainly the best-case 
scenario, logistically, American Airlines has 4,200 pilots on 
the 737 MAX, Southwest would have 9,000 737 pilots, we are in 
favor of the scenario that Captain Sullenberger described in a 
video concept. And we do 9-month training protocols, so our 
pilots would receive a CBT program----
    Mr. Larsen. CBT means what?
    Mr. Carey. Computer-based training.
    Mr. Larsen. OK.
    Mr. Carey. And then the video training program of the 
scenario that Captain Sullenberger suggests. And after that, we 
have a 9-month training program, which would enable every 
American Airlines pilot to go through that simulator scenario 
and that muscle memory exercise within 10 months.
    Mr. Larsen. So it would be----
    Mr. Sullenberger. May I add that a spot scenario might help 
get pilots in the simulator more often and sooner.
    Mr. Larsen. Spot scenario?
    Mr. Sullenberger. I understand that that is a logistical 
matter of great importance, but the point is, there are other 
ways to accommodate more pilots sooner than waiting for their 
recurrent training cycle to occur.
    Mr. Larsen. OK. Ms. Pinkerton, from the airlines' 
perspective, how does this--where do you come down on this 
training issue to get to return to service?
    Ms. Pinkerton. As you know, I am not a pilot, so I don't 
have this kind of expertise, but we are relying on people who 
do have the expertise. The FAA is utilizing the Flight 
Standards Board on this very topic. And we are confident that 
working with those independent experts, involving our pilots' 
unions, they will come to the right decision about what kind of 
training is needed, and we will provide that training.
    Mr. Larsen. So from the airline perspective, you are saying 
that the Flight Standards Board, given the recommendation of 
the FAA, is where this committee should look for advice on how 
we should think about the training necessary to go to return to 
service?
    Ms. Pinkerton. Yes.
    Mr. Larsen. OK. Mr. Babbitt, have you considered this 
decision, and could you give us your views on it?
    Yeah. Have you considered this question, and give us your 
views?
    Mr. Babbitt. Yes. I think that, you know, some training--as 
I said in my testimony, I don't think a pilot should ever be 
surprised by anything that happens in an airplane, and this is 
a pretty substantial piece, and I had the opportunity to see it 
both ways. However, I think it is a very similar maneuver to 
other things that happen in the aircraft.
    My suggestion would be to evaluate it. And quite often, I 
know ALPA was often involved with the FAA and carriers to 
decide what training was needed. And I think a consortium of a 
group like that could make a recommendation, perhaps it is give 
them computer-based training, but maybe the next check--next 
cycle of checks that you should be exposed to it.
    Mr. Larsen. Thanks. And, President Nelson, I have a 
question for you. I just want to affirm what you said. Flight 
attendants are the ones answering the questions from the flying 
public about is this--is this that plane or is this a different 
kind of plane. So I just want to emphasize, the FAA needs to 
continue to include you all in the outreach because you are the 
ones answering the questions of the flying public more so than 
any other group of people.
    Ms. Nelson. I appreciate that. And I think that there has 
been a recognition of that that we have to be fully involved 
for there to be a successful return to flight.
    Mr. Larsen. Thank you.
    I understand, on the Republican side, we are going to go 
with Mr. Mitchell first for 5 minutes.
    Mr. Mitchell. Thank you, Mr. Chair.
    I share the concern, and I can't imagine the pain of the 
families of the victims of both flights. I will meet tomorrow 
with the family of Ms. Stumo to talk about this. They can share 
with me their concerns. Couldn't schedule it today.
    They have a need for answers to the problems, what caused 
this. They have a need for responses sooner than later.
    I am concerned--I talked to Chairman Larsen about the 
delays of the FAA responding to questions that were asked 
several months ago. We haven't had much response from FAA as to 
some simple questions. The design of MCAS. The review of 
certification process of MCAS. What role Boeing had versus what 
roles were undertaken by the FAA. So they need to be reviewed.
    It should be clear to us, however, that what happened in 
both flights were cascading issues, errors, whatever term you 
want to put on it. One fed another. There was a chain of events 
that if any one or more--if a couple of those things hadn't 
happened, we would not have had the outcomes we had. I raised 
at the last hearing that also included in that is the 
qualifications and training of the pilots, both in terms of 
MCAS and in general.
    One thing I think the families deserve is full information. 
Not having bits and pieces wander out or have pieces used for 
political process has been noted.
    Captain Carey, you have made more than a few headlines of 
late by releasing portions of an apparently secret recording 
made in November. I would like to ask you some questions about 
that. First--and I would like your responses also for the 
record if you are unable to respond--who made that recording, 
sir?
    Mr. Carey. I did, Mr. Mitchell.
    Mr. Mitchell. Thank you. Did the board of directors 
authorize that or know in advance you were making a recording?
    Mr. Carey. No, sir.
    Mr. Mitchell. Did you tell Boeing officials you were making 
that recording prior to the meeting or subsequent to that?
    Mr. Carey. No, sir. That is not required under Texas law.
    Mr. Mitchell. I am glad you are aware of that. Are you 
aware that--I am sure you are--that in April, you issued a 
press release fully confident in the Boeing 737 MAX and its 
capabilities? This is your organization, correct?
    Mr. Carey. Yes, sir.
    Mr. Mitchell. Shortly thereafter, and this is deeply 
concerning to me, that then portions of the tape were released 
in the midst of a union campaign, being it is everyone's 
problems, that it is Boeing's fault, they did it. Bits and 
pieces of information.
    What is--what is the value of that to either the system or 
the family in doing that? We don't have complete information 
out yet, so explain to me what warranted that.
    Mr. Carey. Sir, the APA is founded on safety. Safety first 
always, and safety is not for sale. Boeing came to visit us in 
November 27 of 2018. We were ready to record the meeting if we 
thought it was a PR meeting and not a sincere exchange of 
technical data.
    Mr. Mitchell. Stop a second. It wasn't we, because you said 
they were unaware. So you----
    Mr. Carey. We, my team. My subject matter experts at APA, 
my safety committee chairman, and my training committee 
chairman, and our subject matter experts. My team. We decided 
if we thought Boeing was insincere at the meeting, we would 
record the meeting.
    Boeing has a history with the 737 rudder control back in 
the nineties, a USAir accident, which Captain Sullenberger is 
very familiar with, of being dishonest, or less than 
forthright. Talk about honesty, sir. I made FOIA requests on 
November 28, 2018, on all MCAS data between the FAA and Boeing. 
To date, we have not had one piece of data arrive.
    Mr. Mitchell. Well, I have not had a response either to the 
requests I made to the FAA, so I share your frustration.
    Mr. Carey. Thank you, sir.
    Mr. Mitchell. But let me make a point, which is, your board 
supports the equipment, and then shortly thereafter in May, you 
release----
    Mr. Carey. Sir, our initial press release----
    Mr. Mitchell. Let me finish the question, sir. That is the 
way it works.
    You then release portions of a tape, portions of it. I 
would ask you for the record here that you submit the entire 
tape so we can hear it in its entirety.
    Mr. Carey. The entire tape has been submitted to the 
committee, sir. It has been submitted to Chairman DeFazio.
    Mr. Mitchell. Mr. Chairman, do you have it? Mr. DeFazio?
    Mr. Carey. We submitted an entire transcript of the tape to 
Chairman DeFazio and the tape itself.
    Mr. Mitchell. Do we have that?
    OK. I would like to hear that.
    Let me make one final comment because we are almost out of 
time.
    Mr. Carey. We will certainly--APA will certainly supply 
you, sir, with a copy of that written transcript and the tape.
    Mr. Mitchell. I would appreciate that.
    One final comment before I get gaveled out here. I believe, 
as I said earlier, it is a cascade of errors. One of the 
questions I posed in the last hearing, which continues to 
trouble me a great deal, is the pilots of Ethiopian Air, their 
hours give me a great deal of question. The pilot in the right 
seat could not fly under our standards here. We need to look at 
the ICAO standards versus our standards in North America for 
pilot qualifications and training, and reconcile that, along 
with all these other questions, because there are a series of 
them. And until we get those answers, I would respectfully ask 
let's not give up bits and pieces because it is damaging.
    Mr. Larsen. Thank you, Mr. Mitchell.
    I turn to Chair DeFazio for 5 minutes.
    Mr. DeFazio. Captain Carey, it says in your testimony, 737 
MAX does not provide the same aircraft field to the pilots as 
the 737. This was intended to minimize the operating costs to 
Boeing's customers by allowing the MAX to be certified by the 
FAA as a 737.
    And then in Captain Sullenberger's testimony, he mentions 
that it disturbed the engine mounts, disturbed the natural 
aerodynamic stability of the 737 in certain conditions.
    I got a--what are those conditions, and why was this 
necessary? Or was it just about avoiding certification and 
pilot training? What are those conditions? Can either of you 
answer that quickly? We got only 5 minutes.
    Mr. Sullenberger. I would like to know and hear from Boeing 
why MCAS was necessary. Was it to meet a certification standard 
or was it to achieve a common type certificate that would not 
require additional training for pilots and, therefore, for 
airlines?
    Mr. DeFazio. OK. So we don't know the answer to that 
question. That's a pretty critical question.
    Mr. Sullenberger. I do not know the answer.
    Mr. DeFazio. OK. Anybody there know the answer?
    Mr. Carey. Sir, there is some speculation or there is some 
data coming in from Boeing engineers that have contacted us 
that there may be some negative dynamic stabilization problems 
with the aircraft, which required Boeing engineers to add the 
MCAS system to the 737 MAX 8 and 9 design.
    Mr. DeFazio. OK. We really need----
    Mr. Babbitt. If I could comment?
    Mr. DeFazio. We really need to--quickly.
    Mr. Babbitt. If I might comment, Boeing's description to me 
was that the airplane, at high angles of attack, had a softer 
elevator feel than the original aircraft, and they wanted it to 
have more field.
    Mr. DeFazio. Feel. But it wasn't dangerous. So the pilots 
would be trained to deal with that.
    Mr. Babbitt. That is correct, and that is quite common.
    Mr. DeFazio. But if they hadn't experienced it, they 
wouldn't be trained to deal with it.
    Mr. Babbitt. It is quite common in the industry. For 
example, Airbuses, I have flown every Airbus made, and----
    Mr. DeFazio. Well, I don't want anybody, if you could, 
avoiding, you know, things that cost a little bit of money or 
delay the deployment of an aircraft that could lead to pilots 
who are not informed as to all the characteristics of that 
aircraft, which you already said earlier, the MCAS, people 
should be informed of this system.
    Now, there is also, you know, because of the pilot 
discussion, there is in Captain Sullenberger's, he said that 
there were many false warnings simultaneously?
    Mr. Sullenberger. Yes. As opposed to older aircraft designs 
where cockpit instruments were essentially standalone devices 
and information was not shared between them, and a fault in one 
could be easily identified and isolated and disregarded.
    Now, in modern airplanes with higher levels of 
integration--that is, higher levels of electronic 
interconnectedness and sharing of data between devices--it is 
now possible, as happened on these cases and in the June 1, 
2009, crash of Air France 447, where a single errant data bit, 
a single fault, a single failure can now have cascading effects 
rapidly through multiple systems and create a condition of 
multiple warnings, some of them false. It is difficult to sort 
it out because of the startle factor, the workload, the task 
saturation to identify the root cause, and it can be 
contradictory, ambiguous, confusing, and ultimately 
overwhelming.
    Mr. DeFazio. Would a disagree light have helped in that 
situation?
    Mr. Sullenberger. It might. With so much going on, such 
loud warnings, so many other disparate indications, they might 
have missed it, but had they seen it, it might have had been 
that one----
    Mr. DeFazio. Captain Carey, looks like you wanted to say 
something there. Did you, or are you just taking notes?
    Mr. Carey. Yes, sir, I would like to comment. Excuse me, 
Captain Sullenberger.
    The MCAS system is a federated system, which means it is 
not integrated into the control laws and logic of the computers 
on the 73 MAX aircraft. Again, the failure was that Boeing did 
not disclose the existence of MCAS to the pilot community 
around the world. Therefore, robust training was not conducted.
    The last line of defense in the MCAS system--when we asked 
Boeing at the November 27th meeting in Texas what the last line 
of defense was with the MCAS firing and firing and firing till 
the aircraft stabilized was full nose down, they said the 
pilots. Well, they didn't ever tell us the system existed. So, 
therefore, we did not have robust training.
    Mr. Sullenberger. And let me add, I think some false 
assumptions were made about how the system would operate, how 
it would be noticed or become aware of by pilots, and what 
human performance would be in those conditions. I think it was 
a false assumption to think that, before MCAS' existence, much 
less its operation, was even disclosed to pilots, that they 
would interpret this particular scenario----
    Mr. DeFazio. One other quick thing here----
    Mr. Sullenberger [continuing]. As a runaway trim----
    Mr. DeFazio. Thank you. And that leads to some of Ms. 
Nelson's testimony that I wanted to get to, which is 
questioning engineering assumptions. She questions the 
engineering assumptions that went into the battery on the 787. 
They were wrong. She is questioning the engineering assumptions 
that went into the MCAS system as they radically changed it on 
the 737 MAX and didn't disclose it, and then also evacuation 
standards, which will be an ongoing concern of this committee, 
which are only computer simulated. Computers are not humans. 
They are not human factors. They don't anticipate everything.
    With that, I yield back the balance of my time.
    Mr. Larsen. Thank you, Mr. Chair.
    I now recognize for 5 minutes Ranking Member Graves of 
Missouri.
    Mr. Graves of Missouri. I yield back.
    Mr. Larsen. OK. Thank you.
    Then we will go with--I think we have Representative 
Balderson from Ohio.
    Mr. Balderson. Thank you, Mr. Chairman.
    Thank you to the folks here testifying today. I appreciate 
your time.
    My first question is for Ms. Pinkerton. You note that 
following the grounding of the 737 MAX, the airline industry 
employed a variety of mechanisms to cope with the disruptions. 
Southwest has the most 737 MAX air jets in operation of any 
carrier in the United States. Southwest is also the largest 
passenger carrier in central Ohio. Can you discuss how 
Southwest and A4A member carriers have accommodated the loss of 
the 737 with minimal disruptions for service?
    Ms. Pinkerton. Yes. As I mentioned, the A4A carriers that 
had the MAX grounded have done several things: rebooking 
passengers, rerouting. But in addition to that, they have had 
to make systemic changes. They are utilizing spare aircraft. 
They are doing things like delaying optional enhancements like 
souped-up Wi-Fi and painting the aircraft. Unfortunately, we 
have had, our carriers have had to completely eliminate some 
service or take flights on markets that are more likely flown 
and reduce frequencies, but for the most part, carriers have 
been able, like I said, to accommodate 99 percent of folks.
    We are anticipating that, despite the capacity drawdown 
that Southwest, American, and United have had to do, we are 
going to see a 3-percent increase in seats overall this summer, 
and that is with other carriers filling in the capacity and 
different airlines, different aircraft coming online also that 
are providing that capacity.
    Mr. Balderson. OK. Thank you very much.
    My next question is for Captain Carey and Captain 
Sullenberger. You both mentioned the need to ensure pilot 
training protocols are vigorous and robust, especially as 
aircraft are becoming more and more high tech. I agree that 
passenger safety should always be the most important aspect of 
our aviation industry and that our pilots should receive the 
best possible training.
    Are there any obvious or necessary changes you believe 
should be made to licensure requirements or pilot training?
    Mr. Carey. Thank you, Mr. Balderson. I was interested to 
know that Boeing afforded Captain Babbitt, former Captain 
Babbitt, retired Captain Babbitt the opportunity to utilize 
their simulator, their 737 MAX simulator full-motion down in 
Miami yesterday. Boeing invited two of our pilots who are here 
today who have accumulated over 5,000 hours on the Boeing 737 
aircraft to use that simulator on June 5. Shortly before that 
appointment, Boeing rescinded that invitation.
    So it is curious to me, while Boeing is working on this 
fix, they don't want the people who fly it to actually see it. 
So as far as the APA getting behind the software changes and 
the FAA recertification of the 737 MAX return to service, we 
would like our safety committee chairman and our safety 
committee and training experts to be permitted to fly the 737 
MAX simulator. The only one in existence right now in North 
America is in Boeing's facility in Miami. However, there is 
another one. It is in Addis Ababa. It belongs to Ethiopian 
Airlines.
    Mr. Balderson. Captain.
    Mr. Sullenberger. It needs to be a priority for every 
manufacturer, for every airline to provide all pilots and 
flight attendants with all the information that they need to 
operate their equipment safely, to understand it. As complexity 
increases, it makes resilience harder without the proper 
knowledge. And the most important trait that every technology 
must have is that it be intuitive. It has to make sense. It has 
to--it has to be additive to one's training, one's experience, 
and not contrary to it.
    And so especially for things that operate in a surprising 
or counterintuitive way, we must be made aware of it and its 
complications and its implications. We must experience it 
firsthand in the simulator before we face a crisis in flight 
with an airplane full of passengers and crew.
    Mr. Balderson. Thank you both very much.
    I yield back my remaining time, Mr. Chairman.
    Mr. Larsen. Thank you, Representative Balderson.
    Representative Lipinski for 5 minutes.
    Mr. Lipinski. I thank you, Chairman Larsen and Ranking 
Member Graves for holding this hearing.
    It is clear we all know, we all agree, we need to get to 
the bottom of what happened with these two crashes so that we 
can provide answers to the families and friends of the victims, 
but also to do all we can to try to ensure nothing like this 
ever happens again.
    I want to focus my questions on the certification process. 
You know, I had said at the hearing we had a few weeks ago, I 
think that there was something went wrong. We need to figure 
out what that is. We are still waiting for answers and 
investigation here. But I want to ask more general questions 
about the ODA program, and I want to start with Captain 
Sullenberger.
    In your testimony, you pose a lot of important questions 
for Congress to consider with respect to the certification 
process. Do you have any specific recommendations at the moment 
with regards to general reforms of the process?
    Mr. Sullenberger. It is important that oversight include 
accountability or it means nothing. First, it is important that 
FAA be provided the budgets that are sufficient consistently to 
fulfill its responsibilities--the safety of the traveling 
public--in terms of staffing, in terms of providing those who 
oversee certification with the subject matter expertise to be 
able to do their jobs, especially as technology improves and 
especially in this global aviation industry.
    It is often very difficult internationally for FAA to have 
the budget, the staffing, and the subject matter expertise to 
do the oversight that is necessary, in particular for foreign 
manufacturers.
    It is important, as Captain Carey has said and Ms. Nelson 
has said, that the FAA have the independence to do their jobs 
without political or economic influence. It is important that 
whistleblower protections be in place, and that the safety 
culture in our organizations, FAA and manufacturers, be strong 
enough that those who have the integrity and the courage to 
insist on the highest design standards for the safety of the 
public not be overruled by supervisors with other agendas.
    Mr. Lipinski. How do we do those things?
    Mr. Sullenberger. Pardon me?
    Mr. Lipinski. How do we do those?
    Mr. Sullenberger. We start with the organization itself, 
and we start with how the incentives in each organization are 
aligned. Are they aligned for expedience or for economy, or are 
they aligned for consistent application of best practices? Are 
people hired and promoted and receive bonuses based upon 
production numbers or based upon quality safety?
    We get what we measure, we get what we reward. And right 
now, in the important ways, the incentives are not aligned 
toward consistent public good sufficiently in all our 
organizations. Key members and leaders of each safety-critical 
aviation organization must have subject matter expertise, and 
in some cases, they must not be only engineers, they must also 
be pilots, so they understand in a firsthand way the 
implications of design choices.
    Every design involves compromises between strength and 
weight, performance and cost. We need to make sure that these 
decisions are made in a fully informed fashion, in a 
transparent way, and that communication about them is 
communicated effectively at every level so we know what risks 
are and why we are taking them.
    We also must look at faults, not just individually, but in 
combination. I think that may be a part of what happened here, 
that there was not a full appreciation of the magnitude of the 
risk to a single fault to these systems and the lack of 
knowledge among the operators.
    Mr. Lipinski. I want to give Ms. Nelson a chance to address 
this in the last minute I have.
    Thank you.
    Ms. Nelson. OK. So we have talked with engineering experts 
who advised us that a culture of safety would engineer a plane 
from a clean sheet and a software fix is not a fix to a 
manufacturing problem. Now, they have also assured us that 
there can be, it is possible to have a software fix to make the 
737 MAX safe, but starting from a place of the FAA, turning at 
the same time to say that the manufacturers and the airlines or 
their customers, as opposed to providing that direct oversight 
and creating the Organizational Designation Authorization 
program, ODA, there were many warnings that, over time, this 
program would lead to a deterioration of safety. And that is 
because there is not the rigorous oversight throughout the 
process that may have led Boeing, from the very beginning, to 
make very different decisions here because of the oversight 
that would have been involved if we were to return to the FAA 
oversight prior to ODA.
    Mr. Lipinski. Thank you very much.
    I yield back.
    Mr. Larsen. Thank you.
    I now recognize Representative Spano for 5 minutes.
    Mr. Spano. Thank you, Mr. Chairman.
    Thank you, witnesses, for being here. We appreciate it.
    And thank you to the family members for being here. Again, 
I want to as well wish you all the best, and express our 
condolences to you, and tell you that our prayers are with you. 
And so thank you for being here.
    I would like to ask a series of questions to the panel, if 
I may, just have you respond, if you would, by raising your 
hand, all right, then I will acknowledge which one of you--for 
the record, I will indicate which ones of you have answered in 
the affirmative.
    How many of you would describe yourselves as a safety 
advocate?
    Let the record reflect that every single person on the 
panel has raised their hand.
    How many of you are pilots?
    Let the record reflect that Captain Carey, Captain 
Sullenberger, and Mr. Babbitt are pilots.
    How many of you are licensed airline pilots?
    Let the record reflect as well that Captain Carey, Captain 
Sullenberger, and Mr. Babbitt are licensed airline pilots.
    How many of you are aeronautical engineers?
    Let the record reflect that no one on the panel is an 
aeronautical engineer.
    How many of you have designed a commercial transport 
aircraft?
    Let the record reflect that no one on the panel has 
designed a commercial transport aircraft.
    How many of you are software engineers?
    Let the record reflect that no one on the panel is a 
software engineer.
    How many of you have designed software for commercial 
transport aircraft?
    Let the record reflect that no one on the panel has 
designed software for commercial transport aircraft.
    How many of have you certified a commercial transport 
aircraft? How many of you have certified a commercial transport 
aircraft?
    Let the record reflect that Mr. Babbitt has certified a 
commercial transport aircraft.
    And finally, how many of you have conducted an accident 
investigation or been an official party representative to an 
accident investigation?
    Let the record reflect--raise your hand. OK. Let the record 
reflect that Captain Carey, Captain Sullenberger, Ms. Nelson, 
and Mr. Babbitt have been an official party representative to 
an accident investigation.
    Thank you for that. I follow up with a couple of questions.
    First of all, Captain Sullenberger, you indicate in your 
statement that we can, quote/unquote, ``no longer define safety 
solely as the absence of accidents.''
    From a layperson's perspective, to me, safety is preventing 
an accident. So can you unpack that statement for me? Why is it 
that we can no longer define safety as the absence of 
accidents?
    Mr. Sullenberger. The short answer is because we have been 
able to make them much more rare. And if we do only that, we 
are not doing our jobs. We need to look at all the near misses. 
We need to look at all the unresolved systemic risks and latent 
conditions. We need to do a lot more of what we are currently 
doing, doing audits, relying upon self-reporting of safety 
incidents, all the little things that become links in a causal 
chain that might lead to an incident or an accident.
    Mr. Spano. Understood. Thank you.
    Mr. Sullenberger. And to intervene and break that chain, to 
resolve these risks and these conditions before they can lead 
to harm. And then--and we have been doing that for many years. 
We are doing it more and more, but we need to do it even more 
than we are. If we had, we might have been able to avoid these 
two most recent ones.
    Mr. Spano. My next question is for Mr. Babbitt, and then if 
any of you want to follow up with a response as well.
    Can you just briefly speak to the challenge that we face to 
ensure public safety in a global aviation landscape? Like--so, 
for instance, what are the FAA's duties and responsibilities? 
What are our responsibilities as policymakers? What should our 
objectives be? What should the regulatory framework look like 
when we have many variables around the world that we cannot 
control?
    Mr. Babbitt. That is an excellent question, and it presents 
quite a challenge to the FAA or any regulator. And the 
challenge is you have to make assumptions on the base level of 
education that you have for pilots, and if you say, for 
example, two pilots sitting here and you say, do either of 
you--put your hand up if you have an ATP, and we both put our 
hands up. We have got one captain down here who has got, you 
know, 35 years with American Airlines. And the one sitting next 
to me over here has an ATP in a 172.
    Mr. Spano. Could you clarify--could you--let me interject. 
So what is an ATP, just for the record, if you could clarify?
    Mr. Babbitt. I am sorry. Air transport pilot.
    Mr. Spano. Thank you.
    Mr. Babbitt. But you can get an air transport pilot rating 
in a Cessna 172. That doesn't compare to Captain Carey's 
experience or Captain Sully's experience, but yet they both 
have ATPs. So we make these assumptions. We need a little more 
information when we design airplanes to say, well, they have to 
have an ATP. Well, OK. They have an ATP, but we need more than 
that.
    And I agree with Captain Sullenberger that, you know, the 
data mining that we have today, ASIAS--ASIAS, that I mentioned 
in my testimony, is providing incredible data where everyone 
can report, without repercussion, and we use that data to 
prevent accidents. We would rather investigate data today than 
we would accidents. It is that simple. But we also need to have 
a better understanding of the assumptions that the FAA, the 
manufacturers--because the assumptions we make in the United 
States may not be the assumptions made in Germany or France or 
other places.
    Mr. Spano. Thank you. Thank you, sir.
    Mr. Chair, I yield back.
    Mr. Larsen. I recognize Representative Johnson of Georgia 
for 5 minutes.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman. Thank you 
for holding this hearing.
    I want to express my condolences to the friends and 
relatives of the victims of these two air crashes, and thank 
you for your presence today.
    Captain Sullenberger, you, in your testimony, stated 
essentially that this 737 platform which had been around for 50 
years or so was updated with the design of the 737 MAX, which 
pretty much sits on the same platform as the 737 but the 737 
MAX has larger engines. And these larger engines, because of 
ground clearance, those engines on the MAX were required to be 
mounted higher and further forward on the wings. Is that 
correct?
    Mr. Sullenberger. Yes.
    Mr. Johnson of Georgia. And because of that design need, 
the new engines actually reduced the aircraft's aerodynamic 
stability in certain conditions which, therefore, inspired the 
folks at Boeing to address that issue with adding a software 
feature called the Maneuvering Characteristics Augmentation 
System, also known as MCAS. Is that correct?
    Mr. Sullenberger. Yes.
    Mr. Johnson of Georgia. And the MCAS system operated 
automatically, causing the nose of the plane to be pushed down 
without pilot input, if conditions warrant it?
    Mr. Sullenberger. Yes.
    Mr. Johnson of Georgia. And the condition that warranted it 
would derive from the operation of one angle-of-attack sensor. 
That would be something that would happen to the sensor would 
cause the MCAS system to operate and push the nose down without 
pilot input.
    Mr. Sullenberger. Yes.
    Mr. Johnson of Georgia. And if that angle-of-attack sensor 
failed in some way, it could result in a problem in the 
operation of the aircraft. Pushing the nose down, that means 
the plane is going to go down, correct?
    Mr. Sullenberger. Yes. And not just once but repeatedly.
    Mr. Johnson of Georgia. And the MCAS system was not a 
system that was revealed to the airline industry, and thus to 
the pilots, prior to the first aircraft disaster in the 
Philippines.
    Mr. Sullenberger. My understanding is that it may have been 
revealed to some airlines, but to my knowledge, no airline 
pilots around the world knew of its existence before the first 
crash.
    Mr. Johnson of Georgia. No pilot around the world knew that 
the MCAS system could thrust the nose of the plane downward. 
They did not know that, and so, therefore, they had no training 
in terms of how to react to a sudden nosedive by the plane. Is 
that correct?
    Mr. Sullenberger. I am sorry. Would you say that again?
    Mr. Johnson of Georgia. A pilot without knowledge of an 
MCAS system in the plane, flying a 737 MAX, a pilot not knowing 
of this MCAS system and now the plane is suddenly, the nose of 
the plane is headed downward, you are not trained or no pilot 
was trained in how to react to that occurring, prior to the 
crash in the Philippines of the 737 MAX.
    Mr. Sullenberger. That is essentially correct. As I 
understand it, the assumption on the part of Boeing and the 
designers was that pilots, even though they did not know of the 
existence of the MCAS feature, the software, that they would 
somehow interpret this repeated nose-down movement as being a 
runaway stabilizer procedure, which would be something that 
they were familiar with. But it is, as I said, demonstrably 
evident that at least two professional airline crews were 
unable to do that.
    Mr. Johnson of Georgia. Was the FAA notified of the MCAS 
addition to the 737 platform prior to the crashes?
    Mr. Sullenberger. My understanding is that, at some point, 
they were made aware of the feature, but that they were not 
aware of the changes to the operation of the feature prior to 
the first crash; that it had been redesigned to activate with 
greater movement each time it activated, and it would activate 
until the full range of motion that could be achieved was 
achieved. In other words, it would act repeatedly until the 
nose was forced as far down as it could go.
    Mr. Larsen. Thank you, Captain Sullenberger.
    Thank you, Mr. Johnson.
    Mr. Massie is recognized for 5 minutes.
    Mr. Massie. Thank you, Mr. Chairman.
    I want to thank all the witnesses for coming today.
    Captain Sullenberger, do you think that better trained 
pilots or more experienced pilots should have been able to 
handle the situation and the malfunctions in the Lion Air and 
Ethiopian Airlines crashes?
    Mr. Sullenberger. Congressman, the first thing that we have 
to remember is that we are all, as humans, subject to hindsight 
bias, and it makes it very difficult for us to know with 
certainty what one might have done suddenly facing an 
unanticipated situation that we now have knowledge of.
    I think that it is unlikely that other crews would have had 
very different experiences or performed very differently than 
these two crews did on their accident flights, prior to 
knowledge of the system, certainly in the first case, and not 
having practiced it in a simulator since then.
    Mr. Massie. Wasn't there a crew on the same plane on Lion 
Air that experienced a malfunction----
    Mr. Sullenberger. Yes.
    Mr. Massie [continuing]. Prior to the crash?
    Mr. Sullenberger. Yes.
    Mr. Massie. And how did they----
    Mr. Sullenberger. At least one apparently experienced this 
and was successful, but obviously two were not. I don't know 
what the probability of success would be, but some--at least 
one did and at least two did not.
    Mr. Carey. May I comment, sir?
    Mr. Massie. Sure. Let me ask you a question first, Captain 
Carey. Are your members trained on runaway trim procedures, 
U.S. pilots?
    Mr. Carey. It would depend on what aircraft type they have 
been on and how many years they have been with the airline. The 
simple answer would be, yes, at some time in their career they 
were trained on a runaway stabilizer situation, either on the 
aircraft they are flying or previous model.
    What I would like to comment, sir, at your pleasure, the 
Lion Air airplane that did successfully land after the MCAS 
experience was fortunate enough to have a third pilot in the 
jump seat, and that pilot recognized the malfunction and led to 
the safe landing of that aircraft.
    Mr. Massie. If the other pilots had had the same training 
as the third pilot, would they have recognized it?
    Mr. Carey. It may have just been fate that the third pilot 
was there while the--you have to remember, sir, and members of 
the panel, this is a sudden, violent, and terrifying event. 
This airplane is pitching up and down rapidly and violently. 
There's bells, warnings, and clackers sounding. Communication 
is difficult. The third pilot in the jump seat, those stab trim 
wheels are right in front of that observer, and that pilot was 
fortunate enough to recognize the malfunction.
    Mr. Massie. Let's talk about your members and colleagues. 
Would they know how to respond to that situation or how to 
identify and respond to runaway trim?
    Mr. Carey. I would have to completely concur with Captain 
Sullenberger's remarks. In this situation, I believe that some 
crews would have recognized it in time to recover and some 
would not have.
    Mr. Massie. Mr. Babbitt, can you tell us about your 
experience in the simulator in encountering this similar 
situation? What was that like?
    Mr. Babbitt. It was a very educational experience, I will 
say that. I think I would agree with Captain Sullenberger that, 
you know, any of these events, all of us up here have 
experienced different emergencies, and they are very attention 
getting, and sometimes, you know, you might have been focused 
over here.
    I had the advantage, as did Captain Sullenberger, I knew 
what was going to happen. I have read, and I knew what the 
procedures should have been in the old system; I knew what the 
procedures were in the new system. And so I was able to follow 
the procedures, but essentially, I had training. I had been 
briefed as to what the reaction of the airplane was going to 
be, and nevertheless, it is any emergency. When a fire bell 
goes off in the aircraft--I have had engine fires--it is quite 
discerning, and one of the first things you do is stop the 
noise.
    In this case, you can't stop the noise. The stick shaker 
continues to go, and we figured out--I mean, my experience in 
Boeing is we had one going and one not. That would tell you you 
have got an indicator problem. But yes. And then the new 
software fix was, I think, a very good one. It obviously limits 
the amount of authority given to the pitch-down, and it only 
does it once. I mean, you either fix it or you don't, and it is 
a runaway stabilizer trim.
    Mr. Massie. I would like to ask one more question----
    Mr. Babbitt. Sure.
    Mr. Massie [continuing]. Real quick of Captain 
Sullenberger.
    I think you are spot on by, in your statement, that we need 
to--we can no longer define safety solely as the absence of 
accidents. We need to look at the near misses.
    But how do you balance the pilots not wanting somebody 
looking over their shoulder versus going back and looking at 
the near misses?
    And if he could respond, I am done asking questions.
    Mr. Larsen. You have 15 seconds.
    Mr. Sullenberger. The key to that is trust. When pilots 
trust that their professional observations, self-reported, will 
be de-identified and used only for safety purposes, they are 
willing to make those kinds of safety reports, that that can 
only come from them and not from somewhere else.
    Mr. Massie. Thank you.
    Mr. Larsen. Thank you.
    I recognize Representative Titus for 5 minutes, and then 
our side, Mr. Allred will be after Representative Titus.
    Representative Titus, 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman.
    As you all have said, this investigation is very important 
for the future. For the past, maybe it gives some solace to 
those who have family members or friends who are lost, but it 
is not going to bring back those lost lives. So as we think 
about the future, I would wonder if now that you are having 
greater scrutiny by the FAA, now that you are looking into what 
caused these problems, now that you are revisiting the ODA, 
have you discovered any other shortcuts that Boeing or some of 
the airlines might have taken that we don't know about and 
haven't caused accidents yet?
    Mr. Babbitt.
    Mr. Babbitt. No. The ODA process has been around the since 
the beginning of time and airplanes. I mean, the only pilots I 
know that didn't go through it were Orville and Wilbur. 
Everybody else has had to turn over their designs as they 
wanted things certified. And, you know, the process works. I 
mean, you simply don't have the manpower to do all--to 
absolutely, you know, watch every piece of design. Boeing has 
over 40,000 engineers. The FAA has 1,400, and you work hand in 
hand. And the ODA process is the same in the United States as 
it is at EASA, which is the European.
    So I think, you know, what we need to do--one of the things 
that is incumbent upon us now as we move forward with 
increasing technology is understanding and training pilots to 
appreciate more and more of the safety envelope is protected by 
automation, meaning that this is not the only airplane that 
will help you recover. Captain Sullenberger flew the A320. If 
that airplane gets too close to a stall, the airplane pushes up 
its own power. If you get going too fast, it pulls the nose up 
for you. It does a lot of things, and these are all things to 
protect the safety envelope, but the pilots need to have 
absolute training and understanding of what----
    Ms. Titus. I understand all that, we have been through all 
that, but that doesn't answer my question. Have you come up--
have you discovered any other problems that we just haven't 
made the news because there hasn't been a crash?
    Mr. Babbitt. No. I think----
    Ms. Titus. That is reassuring.
    Mr. Babbitt. Obviously, if I knew what those problems might 
be. I don't anticipate there were any. I think Boeing has done 
a respectably--they have built wonderful airplanes over the 
years, and I have put in my testimony, I think they made a bad 
assumption as to what they needed to tell people. They assumed 
the system was one everyone was familiar with, based on similar 
systems in the aircraft, and they were incorrect.
    Ms. Titus. OK. Thank you. I hope you are right.
    As you--uh-huh. Thank you.
    Mr. Carey. Ms. Titus, thank you.
    I would like to see more FAA oversight of foreign repair 
stations. This is vital to the future of aviation. More and 
more aviation maintenance, heavy maintenance is being 
outsourced overseas to countries like El Salvador, Brazil, 
China. As much as we would like to keep these jobs in the 
United States, and that is certainly our agenda, the economic 
reality is these maintenance facilities are going overseas, and 
we would like to see very robust oversight of these facilities.
    Mr. Sullenberger. May I comment also----
    Ms. Titus. Please.
    Mr. Sullenberger [continuing]. To clarify something that 
Captain Babbitt said?
    ODA is actually a fairly recent revision of the previous 
DER system, and one of the major changes in that is that the 
FAA no longer chooses their designees. They are chosen by the 
manufacturer. And so, again, the incentives are not aligned as 
consistently toward public good with those kinds of choices 
being made and depending upon who their supervisors are.
    Ms. Titus. Uh-huh. Would you like to comment, Ms. Nelson?
    Mr. Babbitt. I think the rationale behind that was, if you 
have 40,000 engineers, you know who the better ones are, you 
know the ones who should have risen to the management of the 
projects. The FAA doesn't know these people at all. They have 
oversight of them and they work in parallel with them. If you 
have been part of a certification team or service--
certification flights, which I have been, you have an FAA pilot 
in one seat and you have a Boeing pilot in the other putting 
the airplane through the paces. If you look at the records, the 
FAA has flown the airplane just about as much as the Boeing 
pilots have in testing.
    Ms. Titus. I appreciate that, but you say you lack the 
resources to have adequate oversight. I believe that is true, 
from all I have heard from FAA over the last several years, and 
there is going to be a tendency by someone who works for a 
company reviewing what that company is doing to be more 
positive than somebody who is objective and outside. I mean, 
that is just--that is just a fact.
    I would ask very quickly, Ms. Pinkerton, some of the 
airlines are now reconsidering the use of the 787 MAXes. They 
have ordered thousands of them. Some of them are changing out 
their whole fleet because they want to keep the same plane, and 
you understand all the economics of that.
    Have you heard any of the airlines addressing some 
reconsideration of this or how they are taking that into 
account with the grounding of all these planes?
    Ms. Pinkerton. Well, I have certainly seen the reports. 
Some of those are commercial decisions that each carrier is 
going to make.
    Ms. Titus. Thank you, Mr. Chairman.
    Mr. Larsen. Thank you.
    Mr. Allred for 5 minutes.
    Mr. Allred. Thank you, Mr. Chairman.
    I want to first express my deepest condolences to the 
families of those lost in these two crashes. I extend my 
condolences to the families who are here and those that are 
not. I want to do what we can to make sure that something like 
this doesn't happen again, not only with the MAX, but with 
future aircraft and iterations of aircraft.
    To that end, I want to begin with you, Captain Carey. At 
our May 15 hearing, I raised my concerns to Acting 
Administrator Elwell after reading a report in the Dallas 
Morning News regarding your meeting with Boeing that the FAA 
was not made aware of the concerns of your pilots.
    Moving forward, what role do you think pilots should play 
in alerting the FAA of concerns like those that you raised in 
that meeting?
    Mr. Carey. Thank you, Mr. Allred. First of all, I would 
like to thank Acting Administrator Elwell. He has been quite 
progressive in allowing us contact to his office and his 
professionals.
    Going forward, we would like to see our subject matter 
experts, our 737 pilots in our safety and training program at 
the Allied Pilots Association invited to future certification 
proceedings on all future designs. So we have the 777-900 
coming down the chute from Boeing shortly. This will be the 
first commercial aircraft with folding wings. Do we want that 
to be certified on the original Boeing 777 certificate from 
1996 or whenever it was? And this goes back to the timeline or 
the sunset of a certificate as we are speaking. The 737 is 
operating on a 1967 certificate.
    So we absolutely would like the stakeholders, the flight 
attendants, the pilots, the engineers, and the maintenance 
personnel to be involved in future certification with the 
manufacturer and progressively with the administration as these 
designs come to commercial use.
    Mr. Allred. After the designs have already been introduced, 
are you confident in the processes to raise those concerns now?
    Mr. Carey. I believe we--I am confident in the ability to 
raise the concerns through the ASAP program, the safety 
reporting program, the Whistleblower Program, and forums like 
this, public forums that you so graciously put forward.
    I would like to say, to answer a question that was raised 
earlier, the Allied Pilots Association only endorsed the safety 
of the American Airlines version of the MAX, because we were 
one of two airlines in the world to purchase the optional dual 
AOA system. So we professed our confidence in our version of 
the airplane. I called the president of Southwest pilots union 
and said, heads-up, you guys don't have the redundancy that we 
have.
    Mr. Allred. Well, you raised a point I wanted to follow up 
with Captain Sullenberger.
    In your written testimony, you state that, quote, 
``whistleblower protection must be strong and effective, and if 
it is not strong enough, we must strengthen it.''
    In your experience, do you believe that current protections 
are sufficient? And, if not, what can be done to ensure that 
employees are freely able to come forward with their concerns?
    Mr. Sullenberger. It is apparent to me it is not 
sufficient. I think there are those who need to come forward, 
and they need to feel free of recrimination, in order to make 
sure that the truth is known.
    Mr. Allred. Mr. Babbitt, same question to you.
    Mr. Babbitt. I can tell you at the FAA, when I was there, 
whistleblower reports were taken incredibly seriously. I, in 
fact, established an entire department to ensure that they were 
heard, that they had the protections that were needed, and the 
followups were made. It is a very robust system. And to my 
knowledge, I know of no one who has come forward later after 
leaving or anything and said, geez, I tried to be a 
whistleblower and no one would listen to me. That doesn't 
happen at the FAA, not at least in my tenure there.
    Mr. Carey. I think there may be a problem within the 
manufacturing side, the commercial side. For example, Boeing 
has what they call a Boeing ethics department. So if an 
engineer or an employee raises a vital concern, if it has 
economic impact to the corporation, they may be coached or 
counseled.
    Mr. Allred. Yeah. That is great. Well, I have about 40 
seconds left.
    And, Captain Carey, I just want to ask you one more 
question. From your written testimony, you state that there is 
only one standard of safety and training and that, quote, 
``simply put, Boeing does not produce aircraft for U.S. pilots 
versus pilots from the rest of the world.''
    Can you elaborate on that?
    Mr. Carey. Absolutely, sir. You know, we have to get away 
from the days of the American pilot machismo in the ``Top Gun'' 
movie. Ethiopian Airlines flies a plane into Washington Dulles 
every day from Addis Ababa, and they have been doing it for 
years. They have a proud aviation culture. They were founded by 
TWA in 1945 and managed through 1975. They are very proud of 
the fact that Emperor Selassie was the only head of state from 
Africa to attend JFK's funeral because he had a Boeing aircraft 
that brought him here.
    Mr. Allred. Thank you so much.
    Mr. Larsen. Thank you.
    I now recognize Representative Johnson of Texas, and 
followed by Representative Davids from Kansas.
    Representative Johnson, 5 minutes.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman.
    And let me express my appreciation for all of the witnesses 
being here and especially the family representatives.
    We care deeply about airline safety. For one thing, all of 
us get on a plane every week, going and coming home, and so we 
are as concerned about American safety as any other safety 
around the world.
    I live in Dallas, Texas, where we have DFW and Love Field, 
and both airports have airlines very involved in this area. And 
it does cross my mind often how aboveboard we are with the 
examination of the planes and the agencies in charge, and 
wonder sometimes if some laxity might cause a little slip-up.
    I know that we have very, very safe aviation activities, 
but I wonder if each of you could tell me anything that would 
give us a little bit more assurance that we are headed in the 
right direction for making sure that safety is the number one 
concern each time a plane is involved.
    This kind of accident gets your attention, and we want to 
be supportive of whatever it takes to ensure more and more 
safety. We have more and more air traffic and more and more 
technology involved. Change does come. So I am very concerned. 
As an old mind who does not move as fast as some young ones, I 
am basically very concerned about safety and aviation. We see 
more and more traffic.
    So each of you will take some time, if you will, to give me 
some of your thoughts of what we need to focus on to ensure 
that.
    Ms. Pinkerton. Congresswoman, I think that you can rest 
assured that our aviation system is the safest in the world. I 
have been an observer of this industry for 20 years. I worked 
on the Hill and did oversight of the FAA. I worked at the FAA, 
and now I represent the airlines. And I can tell you, the 
dedicated people that are at the FAA and that are in the 
airline industry, safety is absolutely our top priority. And 
when accidents like this happen, we take them incredibly 
seriously. We go back, we look, and we try to be better the 
next time.
    So even though we have had a decade of a perfect safety 
record, albeit that one terrible fatality, we recognize that we 
have to be better. And that is why I mentioned in my testimony, 
the types of programs that we have right now, allow us to 
predict and prevent. We identify trends.
    I can assure you that when the FAA, because--and I will 
tell you what the good sign is. I think Sara Nelson mentioned 
she has noticed a chastened attitude and motivation. When 
something like this happens in the aviation community, we 
redouble our efforts. We don't rely on our perfect record from 
the past. We know we have to get better, and we are committed 
to doing that.
    Ms. Johnson of Texas. Thank you.
    Ms. Nelson. I would like to note that I agree 
wholeheartedly with Sharon. And I think that there is no doubt 
that everyone across the industry, whether it is regulators, 
operators, or the frontline personnel who make the airlines 
fly, are absolutely committed to safety, and can tell you 
without a doubt that that is the foremost thought on their 
minds.
    There are some things that we can learn from this, though, 
and things that we can do better. And one of them is fully 
funding FAA personnel and making sure that we are competitive 
with the private sector for the certification engineers who are 
working at the FAA. And I think that we can also make sure that 
the reporting systems that Captain Carey was talking about that 
help us continue to analyze how we are doing, look at near 
misses, look at potential problems where employees had a 
distraction with their safety duties, and they are able to do 
that because they can report these issues without a punitive 
response.
    So that has been under attack in recent years, and in our 
experience, has been diminished somewhat, and we have had to 
fight very hard for the continued programs that ensure a 
nonpunitive reporting system so that all of the employees can 
identify when they see an issue. And I would say that those two 
issues especially could be addressed in this time, both the 
funding and also the continued support of the reporting systems 
that allow us to continue to analyze the safety----
    Mr. Larsen. All right.
    Ms. Nelson [continuing]. Of citizens and keep us safe.
    Mr. Larsen. Thank you, President Nelson.
    Thank you, Representative Johnson.
    I recognize Representative Davids for 5 minutes.
    Ms. Davids. Thank you, Chairman.
    And thank you to all the witnesses who are here today to 
testify, and thank you to the families. My condolences on your 
loss and condolences to those who are not here today.
    The first thing I would like to do is just to acknowledge 
that all of us--we have heard from you, we have heard in 
previous testimony and hearings that we have had--that all of 
us recognize that safety is the underlying most important 
foundational piece of our aviation system, not just in this 
country, but around the world. And as leaders in that space, I 
know that all of the folks here are putting that as a top 
priority. I can tell from your testimony, not just your verbal, 
but also your written testimony, and the meetings that I have 
had with folks who are also part of the FAA.
    And I think that one of the pieces that we have to also 
keep in mind is that pronouncements from anyone, whether it is 
manufacturers, stakeholders, Members of Congress, or other 
people who are performing oversight, about what any causes 
might have been of these accidents are premature until we get 
the results of the investigations. And I have appreciated all 
of you bringing that up and continuing to remind folks of that.
    One of the things I would like to start off with is 
actually a followup from the line of questioning that Mr. 
Balderson was on earlier, which is to ask, Mr. Carey, you 
mentioned that the invitation for the folks from Allied Pilots 
made on June 5 simulator training was canceled. I am curious if 
you could tell us what the reasoning for the cancellation was.
    Mr. Carey. We are still trying to determine that. We 
initially received an invitation to go down to the Boeing 
simulator at Miami, 737 MAX full-motion simulator, and Captains 
Goldberg, behind me, and Captain Tajer, were going to 
participate in a flight review of the MCAS system at Boeing's 
invitation. The invitation was withdrawn. We are trying to get 
some simulator time either at Boeing.
    I mentioned earlier Ethiopian has a simulator we are trying 
to get into to use. And also a correction to my earlier 
statement, there are also two 737 MAX simulators in Canada. So 
if Boeing will not renew their invitation, we will certainly go 
purchase time at one of those other carriers.
    Ms. Davids. So at this point, there hasn't been a 
rescheduling of the invitation?
    Mr. Carey. No. That is somewhat upsetting to us. I mean, we 
are the largest airline in the world, and we would like a fair 
take at reviewing this MCAS scenario, in a muscle memory 
scenario as Captain Sullenberger described earlier.
    Ms. Davids. And then I would like to--Mr. Babbitt, I would 
like to hear your thoughts on the funding question in making 
sure that we are keeping FAA properly funded, both what was 
your experience, and then if you can opine on where we are at 
right now? I am not sure if you feel comfortable doing that 
because you are not currently the Administrator, but I would 
like to hear a little bit about that.
    Mr. Babbitt. Thank goodness for that. Thank you.
    The funding is always an issue. You come in with a robust--
we have always an enormous amount of things that people would 
like the FAA to undertake and do. You simply don't have the 
funds. And so prioritizing what you need to do. And obviously, 
what is at the fulcrum of that prioritizing is safety.
    And I think in--I didn't get to answer Ms. Johnson's 
question, but I think the biggest fear we have is--and funding 
will help alleviate it, but the biggest fear that I have is 
complacency. We have a system that is incredibly safe and, 
therefore, a lot of people say, well, geez, it is running 
great. Why do we need to do anything else? Well, we need to do 
anything else because we are always breaking new boundaries, 
pioneering new areas, understanding new technology, and we have 
to evaluate those things.
    And remember, the FAA's task is not to design the systems; 
it is to design the safety boundaries that the system has to 
operate in. We--you know, it is sort of like baseball. You 
know, the commissioner set the rules. The players have to play 
by those rules, and that is what we do. That is what the FAA 
does.
    And so prioritizing--and I guess the best thing I could 
suggest is that we make certain that, when the FAA does, in 
fact, prioritize, they share those thoughts with the 
committees, which I know we do.
    Ms. Davids. Thank you.
    And finally, I would just say that the concept of oversight 
is something that is our duty under the Constitution. We also 
have the duty to make sure that we are properly funding all of 
our safety, especially aviation, but all of our safety 
mechanisms in this country. So that is on Congress.
    Thank you.
    Mr. Larsen. Thank you.
    I recognize Representative Craig of Minnesota for 5 
minutes.
    Ms. Craig. Thank you so much, Mr. Chairman.
    Again, as all of us, I want to express my sincere 
condolences to the families and friends of the victims of the 
Boeing 737 crashes. We take this responsibility in this 
Congress incredibly seriously. So thank you all for being here 
with us today.
    Before I came to Congress, I worked in a highly regulated 
space, the medical technology field, where we heeded very 
strict compliance and reporting requirements to disclose 
aftermarket or postmarket issues that were encountered by 
physicians, by hospitals, by many, many stakeholders with our 
devices. It was a government system, the FDA's Adverse Event 
Reporting System, sometimes referred to as the MAUDE database.
    Ms. Pinkerton, I found the voluntary reporting programs you 
mentioned to be incredibly interesting. And I wanted your 
thoughts on whether we should have a more structured approach, 
rather than a voluntary reporting system, so that, as Captain 
Sullenberger said, we resolve these risks before we encounter 
an event. If you would speak to that, and I am going to ask a 
number of you also to speak to whether you think the postmarket 
reporting requirements are adequate from an FAA perspective.
    Ms. Pinkerton. Thank you for the question. And with respect 
to the structure of our safety programs, I think the voluntary 
nature--and it will be great to hear from our union partners on 
that--the voluntary nature of it is part of the beauty of it, 
and Congress has passed statutory protections for voluntarily 
coming forward and, frankly, that has been a linchpin of our 
safety management systems and all of these data-sharing 
programs.
    So I would--you know, I think everything--and we certainly 
welcome any scrutiny of these programs. I think it is always 
good to ask the questions, but those programs are working 
remarkably successfully right now.
    With respect to the FAA standards on parts, I think--again, 
I think they are welcomed scrutiny. And that is the beauty of 
the oversight that you are taking seriously and that you all 
are performing. The IG, the Secretary has asked for oversight. 
Again, I think the scrutiny is welcomed. The standards are 
working very well right now.
    Ms. Craig. Captain Carey or Sullenberger, do you have 
anything to add to that?
    Mr. Carey. Well, we are quite proud of the fact that the 
Allied Pilots Association, in partnership with the FAA and 
American Airlines, established the first aviation safety 
reporting program nearly 25 years ago, it is now known as ASAP, 
and this has been tremendously successful in averting disasters 
over the last 25 years. And this program started with the 
pilots at American Airlines, but now it reaches out to the 
other stakeholder workgroups within the airline industry at 
every airline in the country.
    Mr. Sullenberger. Let me just add that I agree with Captain 
Carey. And as mentioned earlier about some of the maintenance 
issues with foreign repair stations and their oversight, those 
in particular are troubling. More and more, over time, 
airlines, for economic reasons, have outsourced much of their 
heavy maintenance that used to be done in-house by their own 
employees, supervised by their own employees, often there was 
an FAA overseer on the site, now to overseas locations where 
a--if the FAA even has the budget and the staff to make a 
foreign visit, it is virtually impossible for them to arrive 
unannounced.
    There is also a continuing problem within the industry of 
counterfeit parts, people trying to reuse parts or use parts 
without a proper provenance where you know with certainty its 
history from the manufacturer to its delivery onsite and to use 
in an airplane.
    So there still are some ongoing systemic issues that have 
never been resolved.
    Ms. Craig. Ms. Nelson, you mentioned in your testimony the 
2006 NTSB results of a study, ``Safety Report on the Treatment 
of Safety-Critical Systems in Transport Airplanes.'' The NTSB 
concluded that existing decisions made during design and 
certification process practices were not subject to ongoing 
risk assessment and consideration of new information from 
aftermarket operations and maintenance of aircraft.
    Do you believe that this 2006 NTSB recommendation has been 
addressed and implemented by the FAA?
    Ms. Nelson. This has been addressed, I would say, yes. It 
has not been fully implemented. And my assumption for the 
biggest reason that it has not been fully implemented is the 
funding to carry out those recommendations.
    Ms. Craig. It comes back to funding. Thank you so much.
    Mr. Chair, I yield the remainder of my time.
    Mr. Larsen. Thank you.
    I recognize Representative Stanton for 5 minutes.
    Mr. Stanton. Thank you very much, Chair Larsen. I 
appreciate it.
    Thanks for the witnesses for being here and being patient 
with this committee. Sorry we are coming in and out. Obviously, 
we serve on multiple committees.
    My first questions are for former FAA Administrator 
Babbitt. Mr. Babbitt, Captain Carey has questioned whether a 
sunset or termination date for FAA aircraft certification, 
particularly for those like the 737 designation from 1967, 
should be incorporated into the FAA certification process.
    As this committee examines the certification process, with 
your decades of FAA experience and as a pilot yourself, do you 
think this is an idea worth considering?
    Mr. Babbitt. Well, they actually do. Those certifications, 
the original certification in 1967, applied to that airplane 
obviously. And what you look at as, maybe 2 years later, we 
have a new engine we put on that airplane. Do we recertify it? 
Not really. It has maybe the same thrust, and so--and the 
parties work together. The airline, the manufacturer. They say 
this doesn't significantly operate the aircraft differently. It 
doesn't feel any differently. The pilots do need to understand 
what the new engine limitations might be, but that's that. 
Those are--every time there is a significant change made, it is 
evaluated by the FAA.
    I guess the point we should get to for this one is, were 
the changes made to this aircraft substantial enough that it 
should have dictated, wait a minute. It has got a different 
wing. It has got this. It has got that. Maybe we should have 
another type certificate for this airplane.
    And that is a valuable or, you know, something worth 
considering.
    Mr. Stanton. Thank you very much. As you know, Boeing 
advanced the 737 MAX as a fourth generation of the 737. This 
had several benefits for Boeing saving money. It gave them a 
jump-start on their design and engineering work and required 
less pilot training. But most importantly for Boeing, it 
allowed the company to apply for the same common type 
certification, saving considerable time in getting the aircraft 
off the ground.
    In your opinion, should the FAA have considered--under 
these circumstances, should the FAA have considered this a new 
aircraft model rather than a variation of an existing one?
    Mr. Babbitt. They did consider. I am certain that they 
looked at it, and there is an entire matrix of changes that you 
go through, and these are typically shared. I know in the past, 
most of the pilot unions involved get to look at that matrix, 
whether it is certification, minimum equipment, things like 
that. But what is important to remember, I have heard several 
times that if this was a new type certificate, it would be very 
expensive. Not necessarily. If the old airplane simply has one 
new feature and we say, well, we are going to have to give a 
different type rating for this, all you are going to have to 
train in is that difference.
    A great example is in the Airbus aircraft to transition 
from an A320 to an A330, which is a dramatically different 
airplane, it is 4 days of difference in training. If you had 
never flown an A320, it would be a 3- or 4-week course.
    Mr. Stanton. To your knowledge, has the FAA ever denied a 
manufacturer's application to treat an aircraft like a 
variation of an existing aircraft?
    Mr. Babbitt. Yes.
    Mr. Stanton. Thank you. My question is now for Captain 
Sullenberger. Captain, thank you for being here. I want to 
explore with you a question raised in Captain Carey's testimony 
on pilot training. As aircraft become more and technologically 
advanced, is the FAA equipped to make sure that pilot training 
is sufficiently rigorous to handle the potential scenarios that 
could arise?
    Mr. Sullenberger. I have concerns, Congressman, because 
over many years, pilots have been given less and less detailed 
information, especially in the documentation, the manuals that 
we have access to, even online. So it becomes harder and harder 
for those of us who really want to understand in a deep way 
exactly how these machines operate, where the surprises are, 
where the dark corners are, where the counterintuitive features 
are that we have that might bite us, it is a trap for us if we 
are unwary.
    And going back to the certification issue for a moment.
    Mr. Stanton. Please.
    Mr. Sullenberger. I want to address quickly one more, I 
think, unappreciated change that occurred with the MAX, having 
stretched this airplane even more than the previous version. 
The result of that, because of the legacy short landing gear, 
and the geometry that that affords for the nose angle on 
takeoff and landing, the speeds for takeoff and for landing 
have been increased significantly over previous versions, about 
20 knots, I understand, that is 23 miles an hour, which 
slightly increases the risk of a runway overrun.
    And when you are operating at airports like Burbank, like 
Chicago Midway, like LaGuardia that are short runways 
constrained by obstacles, in some cases by water, that becomes 
even more of a consideration, especially if the runways are wet 
or contaminated by snow and ice. And that is yet one more 
compromise that has been made in this latest stretch to the 
original design.
    Mr. Stanton. I thank you, Captain. I have more questions, 
but my time is short, so I will yield back. Thank you.
    Mr. Larsen. Thank you.
    Mr. Carbajal, you are recognized for 5 minutes. And I ask 
that you apologize to Mr. Brown.
    Mr. Carbajal. I apologize to whoever I need to apologize 
to.
    Thank you all for being here, for giving us your time and 
to share your thoughts and testimony with us.
    Captain Carey, thank you for your time again. I know you 
have a very distinguished career as a 35-year captain with 
American Airlines and spent time in Africa training African 
pilots.
    Based on your experience training non-U.S. pilots, why is 
it important for a company like Boeing to create an aircraft 
for pilots around the world and not just U.S. pilots? Are there 
any improvements you think the FAA can make to evaluate pilot 
training?
    Mr. Carey. Boeing is a national treasure. I worked as a kid 
in the machine shop on Long Island making parts for the 
aircraft industry. That is how I paid my way through flight 
training. The pilots in Africa or Europe--America--we are lucky 
here in the United States because we have a robust military, 
and we have a pool of well-trained military pilots. We also 
have a thriving corporate and commuter regional airline 
industry. So, again, we have a constant assembly line of well-
trained experienced pilots. That doesn't exist in small nations 
around the world, like Greece or Portugal or Ireland or even 
the United Kingdom. They have to use ab initio trainings, 
programs.
    Ethiopia. When I was in Africa in 2012 and 2013, I was 
training the Presidential pilots for the President of 
Equatorial Guinea on their new Boeing 777 aircraft. And I spent 
a year there. And we maintained a relationship to use the 
training and maintenance facilities at Ethiopian. Ethiopian has 
a world-class maintenance and training facility. They can do 
overhauls on Boeing aircraft, just like we do at Tulsa Tech, 
American Airlines' largest maintenance facility in the world.
    Going forward, I would like to see more training. When I 
was hired 35 years ago, we trained every 6 months, recurrent 
training. Captain Sullenberger can attest to that. Now, the FAA 
has given what they call a single visit exemption, where 
airlines can retrain their pilots every 12 months. American 
Airlines happens to do 9-month cycles. I think we should go 
back to more training. More training leads to a safer sky.
    One fatality in seven billion is one more than we need. As 
Captain Sullenberger said earlier, we need to prevent accidents 
from the factory floor to the sky, and we can do it.
    Mr. Carbajal. Thank you. Mr. Babbitt, you oversaw the FAA 
after the crash of the Air France flight 447, and the Colgan 
Air flight 3407. In your testimony, you mention our Nation's 
system of aircraft certification has been evolving for over 60 
years and must continue to evolve to improve.
    What are some of the improvements that FAA can make to the 
current certification process and, two, from your experience, 
are there any lessons learned that we should keep in mind as we 
work through the issues facing the 737 MAX?
    Mr. Babbitt. Thank you for the question. I think that what 
the FAA could do has been mentioned by several people here. You 
are certainly going to need experts in the various areas of new 
technology that we are seeing. You know, we are now seeing 
artificial intelligence induced into decisionmaking an 
aircraft. And the data behind those needs to continue to 
expand, all of that takes money.
    So, you know, in terms of subject matter experts, 
increasing, you know, where we need them, and anticipating that 
is going to be very important. As I said in my testimony, data 
is our friend. You know, what we did coming out of 3407 or the 
Air France, we took that data and made changes based on it. 
Unfortunately, we don't have much data, as of today, for either 
the Lion Air or the Ethiopian accidents. We know the basics of 
what happened, but we don't know, and our own NTSB will 
eventually look at that data and give us more information, 
which will provide a roadmap for us to, OK, we need to expand 
and do a better job in these areas if we are going to take the 
lessons learned from that data.
    Mr. Carbajal. Thank you very much. Thank you both.
    Mr. Chair, I yield back.
    Mr. Larsen. Thank you.
    I recognize Representative Brown for 5 minutes.
    Mr. Brown. Thank you, Mr. Chairman.
    I too want to offer my condolences to the family and 
friends of those who died in the two crashes involving the 
Boeing 737 and MAX 8.
    I want to thank the panel, not only for being here today 
and your testimony, but your work as aviation safety advocates.
    A lot of your testimony, a lot of the questions have 
focused on training, and I don't want to be redundant, so I 
have been able to check off a lot of my questions. I just want 
to clarify a few things.
    The simulators, Captain Sullenberger, you mentioned a level 
D, I think you categorize it as a full feel simulator. I 
understand there is one in the United States, two in Canada, 
one in Ethiopia. Is that accurate?
    Mr. Sullenberger. That is my understanding.
    Mr. Brown. Are there other simulators that either--you 
know, that may not provide full feel, but allow for ample 
training on emergency procedures, system failures, mechanical 
failures----
    Mr. Sullenberger. Captain Carey would know better than I, 
but there are, of course, simulators for previous versions, 
including the 737 NG, the immediate predecessor to the MAX. But 
that, of course, wouldn't be able to replicate the activation 
of MCAS.
    Mr. Carey. That is correct.
    Mr. Brown. Let me--the cockpit is a busy place, even in 
normal flight conditions. And when there is a flight condition 
that triggers an emergency indicated in an instrument or some 
other indicator, it gets really, really busy. I just want to 
sort of explore. I come out of the Army aviation community 
where, you know, I flew back in the 1980s, so we still had sort 
of steam gauges in the OH-58, and I know we have advanced 
considerably in every airframe, rotary wing, and fixed wing, 
but can you give us a sense of--for the 737--how many emergency 
procedures are in the documentation, either a pilot's manual, 
an operator's manual for mechanical or system failures? Give us 
a rough estimate.
    Mr. Carey. I have my 737 subject matter experts behind me. 
They inform me there are hundreds, sir.
    Mr. Brown. There are hundreds. And of those hundreds, is 
there sufficient simulator time to train on those hundreds?
    Mr. Carey. We train--at American, we train every 9 months, 
and we go through the major ones, the ones that would be most 
difficult for a pilot to handle.
    Mr. Brown. And now, of course, the training challenge with 
the MCAS is that we didn't, as Captain Sullenberger mentioned, 
we lacked the information that it was on board. But are there 
other automated systems? And I think this is a followup to a 
question that was asked by Representative Titus. Are there 
other systems that create automated systems----
    Mr. Larsen. Mr. Brown, make sure you are getting in the 
microphone there.
    Mr. Brown. Yeah, I just couldn't see the witnesses beyond 
Mrs. Napolitano. Sorry, Mr. Chairman.
    Are there other automated--it is the design flaw of the 
room, don't worry. No, you are fine.
    Are there other automated systems that present similar 
challenges in terms of--and I am focusing on the simulator--
that there is adequate simulator time to train on?
    Mr. Carey. Well, as far as the 737 MAX goes, the MCAS is 
the only federated system, which is not integrated into the 
flight control laws and logic. So this would be one that is 
unique in itself. As we talk about this in a static matter, you 
are an aviator yourself, we have to remember that as the pilots 
are trying to regain control of this aircraft, they experience 
+2 positive G forces and -.7 negative G forces. As you know, 
sir, those are extreme forces on the human body while you are 
trying to read a checklist, perform duties, move switches, move 
controls, not to mention the human suffering that was obviously 
heard behind the cockpit door. So this was a terrible situation 
to put an aircrew in.
    Mr. Brown. So, Captain Sullenberger, you mentioned that, 
you know, on the level D, there need to be more simulators or 
certainly more simulator time. Are there any other missing 
components in the training programs? This is a--you know, you 
mentioned simulators. Are there any other missing components?
    Mr. Sullenberger. Yes. And some things we are doing to some 
extent already, but we need to do much more. I have seen in my 
career a huge tsunami of change in technology and in training, 
and I have seen certain trims. One we mentioned already, the 
reduction in the information about their systems and their 
airplanes that is now available to pilots compared to years 
ago.
    Mr. Brown. Let me just jump in because I got 10 seconds. 
Does Congress need to legislate this or is this something that 
it can self-correct in the market or with the FAA?
    Mr. Sullenberger. I think it needs FAA direction. I think 
it needs--the airlines need incentives to do more training, not 
just in what we consider batting practice of one-off events, 
but really in an operational flying scenario. Give them 
multiple challenges that they have never seen before where they 
must have a creative reserve to use what they know, adapt it, 
and apply it in a new way to solve a new problem.
    Mr. Brown. Thank you, Mr. Chairman. I yield back.
    Mr. Carey. I concur.
    Mr. Larsen. Thank you.
    Just so we know, in order of the Members that are here, I 
will begin with Norton next, then Lynch, then Napolitano, and 
then Payne. That is the order that we have right now.
    Representative Norton, 5 minutes.
    Ms. Norton. I appreciate this hearing, but I particularly 
appreciate the families who are here. The least we owe you are 
our condolences.
    Actually, sometimes the committee learns more from the 
newspapers than from anyplace else. And I am looking at a--
perhaps this is best for the pilots. I am looking at a New York 
Times piece that indicates--I am sorry, it is a Wall Street 
Journal piece, that 25 percent of people who fly airplanes want 
to avoid the MAX, 38 percent said they weren't sure. The flying 
public doesn't know what to do, in other words.
    But the FAA has signaled that it is preparing for flight 
trials for the proposed 737 MAX enhancement as early as this 
week and preparing to take an important step toward returning 
the 737 MAX service by late summer. Now, we know it will 
require the FAA endorsement and, indeed, foreign regulators as 
well. But I need to ask you, is this the pace that you would 
expect, given what Boeing has gone through in the last several 
months? Is this the pace to get back into service?
    Mr. Carey. Thank you, Congresswoman Norton. I would expect 
that Boeing and the FAA have this as their top priority, as do 
the air carriers who have these airplanes on order. We have 24 
MAXes--we had 24 MAXes in service at American Airlines, and now 
I believe there are 6 more that are already off the assembly 
line, and that is just 1 airline. These aircraft are needed. 
They are needed for passenger service. We want them back in 
service.
    Ms. Norton. But you think that this pace is to be expected?
    Mr. Carey. I think that the Boeing Corporation and the FAA 
is capable of getting this airplane back in the sky by the end 
of the summer.
    Ms. Norton. I think the flying public would be very 
pleased, given your expertise, to hear that. But I am now 
interested, I have become more interested again from what I 
read in the press and what happens in the factory.
    Now, the information I have is from the North Charleston 
plant. Now, the 737 MAX was designed and assembled there, but 
the information we have really bewilders me because it is on 
the 737 Dreamers. So the verdict seems to be in on that. And 
that the employees from the plants were whistleblowers, and 
as--5 years ago, the agency did not allow the employees from 
the plants to certify the aircraft to FAA. That is 5 years ago 
for the Dreamers--I am sorry. Yeah, the Dreamers.
    And it bothers me because the MAX is also manufactured 
there. The employees, the whistleblowers, said that they 
believed the strong demand for this other plane, on which the 
information is in, the 787, had pushed Boeing to quickly turn 
out jets as it raced to meet deadlines.
    So I am trying to find whether there is something endemic 
in the culture that we ought to watch out for, given what we 
already know now about the 787 Dreamers. And what do you think, 
therefore, of the pace in light of what we know about the 
Dreamers, which were also manufactured at the south--at the 
south Charleston factory?
    Ms. Pinkerton. Congresswoman, if I can respond. From the 
airline perspective, we have no interest in a rapid pace. We 
want----
    Ms. Norton. Well, you sort of have some interest in it. 
Obviously, Boeing is losing money, it needs to get these planes 
up in the air.
    Ms. Pinkerton. We have much--a much stronger interest in 
the FAA and Boeing working with our pilots union in getting----
    Ms. Norton. I am asking about this plant, which also is a 
plant that produced the MAX. Does anyone have any misgivings 
about that?
    Mr. Sullenberger. Congresswoman, I have seen those same 
reports, and it gives me great concern that with both the 787 
manufacturer and the manufacturer of the Air Force tanker, the 
KC-46, there was some debris left in some bays of the interior 
of the aircraft that could possibly chafe wiring and cause 
future issues, and that Boeing has become aware of this and is 
aggressively trying to get to the root of the problems with the 
manufacturing process so that no foreign objects remain in 
manufactured aircraft.
    Mr. Larsen. Thank you very much.
    I recognize Mr. Lynch for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    I want to thank the witnesses for their help this morning. 
And I certainly want to join my colleagues in offering my 
condolences to the families of the victims, and thank you for 
your presence here today.
    Earlier in the hearing, the ranking member mentioned that 
we should avoid politicizing this issue. And I do agree that 
over a long period of time, our aviation system had been 
extremely safe, a stellar record. And as someone who gets on a 
commercial airliner at least a couple of times a week, and as 
someone who has very warm relations with many of the pilots--I 
have been doing this for 20 years, so I have come to know a lot 
of the pilots, flight attendants, machinists, and people who 
work at the airport. My brother-in-law works on the runway at 
Logan Airport in my district. They all take enormous pride in 
that long and stellar safety record.
    On October 29, 2018, that long excellent record was 
severely damaged when Lion Air flight 610, a Boeing 737 MAX, 
crashed into the Java Sea at about 450 miles an hour, killing 
184 passengers and 5 crewmembers on board. That long record of 
excellent safety operations was again damaged 4 months later on 
March 10 of this year when Ethiopian Airlines flight 302, 
again, a Boeing 737 MAX, crashed 6 minutes after takeoff. That 
crash resulted in the deaths of all on board, 149 passengers 
and 8 crewmembers.
    After that crash, I, along with many of my colleagues on 
this committee, signed a letter asking that the 737 MAX be 
grounded. That decision was not political. That decision was 
based on the tragic facts, on the tremendous loss of life. We 
supported the grounding of the 737 MAX because we felt it was 
the right thing to do. It was the right thing to do for the 
pilots. It was the right thing to do for the crew. It was the 
right thing to do for the flight attendants, for the 
passengers, and for the public.
    I represent an area that surrounds Logan Airport. The main 
runways out of Logan take the majority of flights over my 
district, over the homes and schools and neighborhoods of the 
people who live in my district and who I represent. An air 
disaster like Lion Air or Ethiopian Air 302, coming out of 
Logan Airport, crashing minutes after takeoff in a densely 
populated area would be a mass casualty event on the ground in 
my district.
    So it wasn't a political decision to ground the 737 MAX 
after those accidents, and it won't be a political decision to 
put those planes back in the air. It will be based on the 
assurances that we have because of the experts that we have 
here today and the diligence that we will apply to the testing 
of this system that will rule the day on that decision.
    I do want to ask Captain Sullenberger, you know, the 
descriptions of the Lion Air disaster report that because of 
the faulty data on that angle of attack--the angle-of-attack 
data, the MCAS system, forced the nose of the aircraft 
downward, quote, ``more than two dozen times during an 11-
minute span.'' And there were reports from other pilots who 
have had similar problems that the plane acted like a bucking 
bronco.
    I am just wondering, you know, some people are trying to 
blame the pilots here, and I am just wondering whether with an 
aircraft behaving like that, is it fair to blame--is it fair to 
blame these pilots? Because you would think that if we could 
get the software right, they wouldn't have to deal with an 
aircraft that is acting like a bucking bronco. I just don't 
want to take the easy path and blame the pilots.
    Mr. Sullenberger. I think asking--well, first, we shouldn't 
be blaming dead pilots. We need to do much more than that. But 
asking whether this was a pilot error or design error doesn't 
really address the right question, because human performance is 
a variable and it is situation dependent, and we must make 
accurate assumptions about what is possible in extreme 
emergencies, given the distractions, the workload, the task 
saturation.
    You are right, we shouldn't expect pilots to have to 
compensate for flawed designs. But we have to realize that 
everything we do, our entire system, the aircraft designs, the 
way we train pilots, the culture we have, the knowledge we give 
them, the information we give them or withhold from them 
determines three important things. How many errors----
    Mr. Larsen. Captain Sullenberger, I am sorry. You are going 
to have to get it in writing. Those three issues will have to 
be in writing to the committee.
    Mr. Sullenberger. I am sorry, what was that?
    Mr. Larsen. I am moving on to Mr. Payne. We will have to 
take it for the record.
    Mr. Sullenberger. I am sorry.
    Mr. Larsen. Thank you.
    Representative Payne for 5 minutes.
    Mr. Payne. Thank you, Mr. Chairman.
    And I too want to express my condolences to the family and 
friends who have suffered from this tragic event.
    But, Captain Carey, based on your experiences, what, if 
any, improvements can be made by the process that the FAA uses 
to evaluate what pilot training is required on new aircraft?
    Mr. Carey. Well, I would like the Administration to look 
into future designs. For example, the Boeing 777-900 will be in 
production in the near future. I would like to see pilot 
involvement, just like they do in the shipping industry or the 
United States Navy, where the crews are involved in the 
development of the airplane or the ship from when they lay the 
keel.
    I think that we have the subject matter experts at American 
Airlines management aviation side and the aviation side of the 
Allied Pilots Association to put significant input into the 
design and development of modern jet aircraft. I believe that 
if any of our pilots would have seen the MCAS system early on, 
that it would not have slipped through the cracks and not have 
entered service without robust training.
    Mr. Payne. Thank you. And that doesn't happen at this point 
now?
    Mr. Carey. No, sir.
    Mr. Payne. Thank you. Ms. Pinkerton, as you are aware, many 
airlines have canceled flights because of the grounding of the 
737 MAX causing immediate operational challenges and other 
issues. What are the long-term effects of a continued grounding 
on your carriers and the flying public?
    Ms. Pinkerton. Congressman, as I mentioned in my opening 
statement, carriers have been able to adapt. They are doing 
things like utilizing spare planes. They are postponing doing 
optional things like painting planes or putting on Wi-Fi. So 
they are taking a number of steps to ensure that we have the 
needed capacity in the system. And in fact, for the busy travel 
season, we are going to be up as an industry, up an overall 3-
percent increase in capacity. So these are challenges. I don't 
mean to make it sound easy, but we are managing it to really 
mitigate the impact on passengers.
    Mr. Payne. OK. And, Mr. Chairman, I will be kind and yield 
back.
    Mr. Larsen. You are my favorite Member today.
    So that covers committee members, and I will now recognize 
Representative DeSaulnier for 5 minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman. I always wanted to 
be on this subcommittee, so I will try to be your second 
favorite. That will be a challenge.
    To the family members here, I couldn't help but think--
search my memory from high school, the Arthur Miller play ``All 
My Sons,'' if you remember that, about people who built 
military aircraft in World War II and cut corners. And the 
ending of the play was by the person who was involved in 
cutting corners, and I am not saying that this was the case in 
this instance, said, I should have thought of all of those 
pilots as my children. And I think there is a good analogy here 
that we all should think of any loss of life should--although 
they weren't our children, we should think of it that way.
    Captain Sullenberger, nice to see you.
    Mr. Sullenberger. Good to see you, Congressman.
    Mr. DeSaulnier. For the chair and others, Captain 
Sullenberger has had the good wisdom to live in my district 
from time to time, so we have gotten to be friends, and I have 
great respect. We are working on a bill on safe landings, as a 
consequence of the Air Canada near miss at SFO. And I want to 
thank the committee staff and the chair for helping with that.
    We spent a lot of time, you and I, talking about human 
factors, and you talked about it in your comments, and, Captain 
Carey, maybe you can jump in here, and your comment that we can 
no longer define safety as the absence of accidents I think was 
very well put.
    So I look at the aviation industry. My perspective is you 
have got these issues on technology and human factors that we 
see in the chemical industry, the refining industry, the 
healthcare industry, and we are learning more and more about 
neuroscience and how we can help with that.
    So being able to do that is important, but you also have, 
in my view, the coming consequences for the aviation industry 
on climate change, how we are going to deal with that. I have 
an amendment put in Appropriations that the Academy of Sciences 
would look at that and look at all transportation, because we 
are going to have more disruptions, and pilots are going to 
have--and aircraft controllers, more challenges, and I 
anecdotally can see that.
    And then lastly is, what is a reasonable rate of return for 
the shareholders, knowing that you want private investors, but 
when they can move their investments around, there is pressure 
sometimes to cut corners. And sometimes to some people that is 
a euphemism for efficiency.
    So when it comes to human factors in the blending 
particularly of new technology, both of you have been eloquent, 
but could you add a little bit more to that that we could 
institutionalize it? Because I am afraid we are becoming 
complacent in this field because of our great safety record.
    Mr. Sullenberger. Well, first of all, I want to 
congratulate you for including in your bill much more emphasis 
on and funding for study of human factors. And as we use more 
and more technology, that human machine interface is going to 
become even more important.
    I would say that, talking about the federated versus 
integrated system where Boeing as a fix for this lately 
discovered instability issue with the MAX, they have appended 
to a conventional airplane a computer control system but 
without giving it the integrity, the reliability, the 
redundancy that it should have had.
    And so that needs to be part and parcel of everything that 
we do going forward, making sure that when we have any device 
or feature in an airplane that can autonomously move flight 
controls, in this case, a secondary flight control or a change 
engine thrust, it needs to be built to those highest standards 
and certified to those high standards.
    Mr. DeSaulnier. Captain Carey, do you have anything to add 
before I yield the balance of my time?
    Mr. Carey. I will leave you some time left, sir. I just 
have a quick comment about the near miss at San Francisco. And 
we talk about one level of safety all the time. The Canadian 
pilots have much more liberal flight time, duty time 
regulations than the U.S. pilots have. And I think maybe future 
panels should look into requiring overseas carriers to operate 
into our country under our rules and regulations.
    Mr. DeSaulnier. I am going to yield back the balance of my 
time, and thank the chairman for letting me sit on this 
hearing.
    Mr. Larsen. That is fine. Thank you, Representative 
DeSaulnier.
    So I understand there are no other questions from other 
Members. I do have one set of questions for the full panel.
    First off, for Captain Sullenberger, those three elements 
that you were going to cover for Mr. Lynch, what are they?
    Mr. Sullenberger. The design of our systems in which we 
operate determine how many errors will be made, what kinds of 
errors will be made, and how consequential those errors will 
be. And the safer we make our system, the fewer errors there 
will be, the less serious they will be, and the better the 
consequences of the inevitable human errors that are made.
    Mr. Larsen. Thank you.
    For all the members of the panel, is there one area of 
inquiry that you think this subcommittee should pursue? What 
would, in your view, the next step for the subcommittee be?
    Start here. If you have one now, then we will take it. If 
not, we will take it for the record.
    Ms. Pinkerton. I will think on that and provide you 
something for the record.
    Mr. Larsen. Thank you very much.
    Captain Carey?
    Mr. Carey. A critical checklist. For example, the MCAS--the 
airworthiness directive after the Lion Air crash that came out 
on the MCAS system. The manual trim, we learned after 
Ethiopian, that it was almost humanly not possible later stages 
in the event for a person to move the manual trim wheel. So we 
not only have to devise checklists, we have to make sure those 
checklists are able to be performed by a flight crew in that 
situation.
    Mr. Larsen. Thanks.
    Captain Sullenberger?
    Mr. Sullenberger. I would love to add two thoughts. First, 
that each aircraft manufacturer must have a systemic, a 
comprehensive way of safety risk assessment that can review 
holistically entire aircraft designs looking for risks, not 
singly, but in combination. And the second thought I would have 
is that leadership starts at the top, quality and safety start 
at the top, and it starts with governance at the board level of 
our aviation manufacturing companies.
    I would love to see more people with--men and women--with 
subject matter expertise and who understand the science of 
safety, and that means engineering expertise, someone needs to 
be a pilot on the board who understands the implication of 
design choices.
    Mr. Larsen. Interesting. Thank you.
    President Nelson?
    Ms. Nelson. In terms of getting the MAX back up in the air, 
there just simply needs to be transparency in the process and a 
full explanation to all the stakeholders and continued 
involvement. But what I think that this committee needs to 
really look at is the relationship between the FAA and the 
manufacturers and the airlines and this issue of client and 
customer relationship as opposed to governance and oversight 
from the FAA and proper funding to get that done.
    Mr. Larsen. Thank you.
    Mr. Babbitt?
    Mr. Babbitt. Yes, sir. I think the FAA, with committee 
oversight, and manufacturers as well need to devote a little 
more energy to understanding what is coming in the future with 
this relationship between the man and the machine and the 
interface. I have quoted in my written testimony, I didn't give 
it here, but in my written testimony, I quoted Chris Hart, 
former Chairman of the NTSB, who said, you know, automation 
does a wonderful job of masking weaknesses in human 
performance. But it is amplified when that automation fails, 
and I think we need to understand better what we could do to 
protect that from happening.
    Mr. Larsen. Thank you.
    Well, I want to thank the panel of witnesses for coming 
today, for responding to our request to be here, for helping 
the subcommittee understand better what the flying public 
thinks we ought to be doing, as opposed to what the FAA thinks 
or the industry thinks, and it is very helpful and appreciated.
    And before I gavel out, I do as well want to recognize the 
families, relatives, and friends of the men and women who were 
the victims of the two crashes. Thank you for coming, again, 
for being vocal in your efforts to ensure that this 
subcommittee stays accountable to the families and relatives 
and to the flying public here in the U.S.
    With that, there are no further questions. I ask unanimous 
consent the record of today's hearing remain open until such 
time as our witnesses have provided answers to any questions 
that may be submitted to them in writing. And unanimous consent 
that the record remain open for 15 days for any additional 
comments and information submitted by Members or witnesses to 
be included in the record of today's hearing. Without 
objection, so ordered.
    And if no other Members have anything to add, the 
subcommittee stands adjourned.
    [Whereupon, at 12:48 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


    Prepared Statement of Paul Hudson, President, FlyersRights.org, 
                Submitted for the Record by Hon. Larsen
    FlyersRights.org is the largest airline passenger organization with 
60,000 member/supporters and represents airline passengers on the FAA 
Aviation Rulemaking Advisory Committee (ARAC) on air safety issues. 
Paul Hudson has represented airline passengers and the general public 
on ARAC since 1993.
    As such we are a stakeholder with an abiding interest in the safety 
of the now grounded Boeing 737 MAX after two crashes in six months 
ended the lives of 346 passengers, crew, devastated several thousand 
family members and shocked the world aviation community and the general 
public.
    This is not the first time, FlyersRights.org has called for the 
grounding or limiting routes of Boeing airliners for safety reasons. In 
2013, we filed a petition for intervention with the NTSB with the 
support of three battery experts after battery fires caused the 
grounding of the Boeing 787 Dreamliner for six weeks. We have also 
criticized the safe use of this two engine aircraft by the FAA 
authorizing flights of five hours or more from the nearest emergency 
landing facility.
    We have also expressed concerns about the use of the two engine 737 
MAX for long distance over ocean flights to Hawaii and the North 
Atlantic, without several years of trouble-free operations which has 
been the traditional under FAA ETOPS certification standards.
    In early December 2018 we directly asked Boeing why it had not 
grounded the MAX based on the preliminary report of the Lion Air 
disaster and concerns by a pilot member familiar with Lion Air.
    The subject hearing has now exposed a slew of new and existing 
safety problems, plus a damning review of the MAX and its FAA 
certification in testimony by Captains Sullenberger, Carey and Babbitt, 
three of the most experienced commercial pilots and air safety experts 
in the US and the world.
    In our view this requires that the Boeing 737 MAX certainly not be 
ungrounded in the next 6-9 months, and that serious consideration be 
given to permanent revocation of its certification to offer air travel 
services to the general public. Some mistakes in its design are 
unfixable without a complete redesign to produce new aircraft that is 
inherently stable and safe for the public to fly.
    These likely unfixable safety problems include a design that is 
inherently unstable unlike any other airliner currently in service in 
US airspace, an MCAS automation system that is both needed to keep the 
plane from being unflyable or even crashing but that is subject to 
multiple failures requiring heroic efforts by pilots at best, to 
impossible ones at worst. Pilots must deal with about 100 emergency 
conditions already documented in flight manuals.
    On top of unfixable safety problems, the flying public, most 
aviation authorities and many pilots and flight attendants have lost 
confidence in both the MAX and its primary safety regulator the FAA. In 
a recent survey of our members, 70% said that they would not fly the 
MAX if it is ungrounded, 20% said they would and 10% responded other. 
Other surveys have shown before many of the revelations the past two 
months that 20-50% would not fly the MAX.
    Ultimately it is the flying public that will have the last word on 
whether this aircraft is commercially viable. Any airline that makes 
the current version of the 737 a major part of its fleet will be 
operating at a competitive disadvantage. And should a third crash occur 
it would threaten the viability of the Boeing Corporation, and the 
international leadership of the US commercial aviation industry with 
its 2 million jobs and the number one US goods export.
    History tells us that the public has little tolerance for mass 
fatality transportation disasters, be it the British ``unsinkable'' 
Titanic, the German dirigible Hindenburg, the UK Comet as first 
jetliner (3 crashes in one year). In each case the public lost 
confidence and the companies failed, and the sponsoring nations lost 
their leadership in that form of mass transportation.

                                 <F-dash>
 Photos of 89 of the 157 Victims of the Ethiopian Airlines Flight 302 
             Crash, Submitted for the Record by Hon. Larsen
             

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                Appendix

                              ----------                              


  Questions from Hon. Garret Graves for Sharon Pinkerton, Senior Vice 
   President, Legislative and Regulatory Policy, Airlines for America

    Question 1. There has been substantial focus on the quality and 
methodology of training at the major U.S. carriers. What training do 
U.S. carriers conduct to prevent an inflight loss of control accident?
    Answer. The FAA is extensively involved in virtually all aspects of 
Part 121 Carrier training of Pilots, Flight Attendants, and Mechanics. 
This includes not only the actual substance of the required training, 
but nearly every aspect of a Part 121 Carrier's training program, 
ranging from the adequacy of its facilities to the qualifications of 
its instructors.
    Requirements focused on preventing loss of control accidents--
specifically the manual handling maneuvers most critical to stall and 
upset prevention--are mandated within the ``extended envelope'' 
provisions of 24 CFR 121.423. This training consists of Extended 
Envelope Training (EET) and Upset Prevention and Recovery Training 
(UPRT), and as of March 12, 2019, is required of each pilot to be 
qualified to serve as either pilot in command or second in command for 
a Part 121 Air Carrier. Recurrent training follows on an annual basis. 
These two programs are typically required to be delivered in a Level C 
or higher full flight simulator and are intended to assure pilots gain 
confidence in their abilities and the capabilities of their aircraft in 
very dynamic conditions (ex. aircraft stall, upset, bounced landing). 
Both of these FAA mandated programs help ensure our Part 121 carriers 
are among the best trained aircrews in the world.

    Question 2. We heard comments/criticism that the B737 has been 
modified many times, yet pilots have been allowed to fly the various 
versions with little to no training. Can you comment on the role of the 
FAA regarding their oversight of Part 121 carriers and the operation of 
multiple models of the same aircraft type?
    Answer. As a routine part of the certification process, the FAA, in 
collaboration with the manufacturer, and operators, directs manual 
construction, training tables, and even limitations on the number of 
distinct models of an aircraft type an individual pilot can be deemed 
qualified to operate. For instance, when one U.S. airline began 
operating the B737 MAX aircraft, per FAA-imposed limitations, a pilot 
could maintain currency and qualification on only two variants of the 
B737. The FAA gave the airline a choice: its pilots could fly the B737 
Classic and the B737 Next Gen, or its pilots could fly the B737 Next 
Gen and the B737 MAX--but no pilot would be allowed to operate all 
three variants of the B737.

    Question 3. We have heard the term ``Advanced Qualification 
Program'' or AQP used regarding air carrier training. What does AQP 
refer to?
    Answer. An AQP is a training syllabus that seeks to integrate 
training and evaluation at each stage of a curriculum. For pass/fail 
purposes, pilots must demonstrate proficiency in scenarios that test 
both technical and crew resource management skills together. Air 
carriers participating in the AQP must design and implement data 
collection strategies which are diagnostic of cognitive and technical 
skills critical to their operations. In addition, they must implement 
procedures for refining curricula content based on quality control 
data. Thus, air carriers have a data informed, individual job task-
centered training program. The items that are trained change as the 
carrier uses assurance data gathered through its Safety Management 
System (SMS) to identify areas within the operation where performance 
can be improved.

    Question 4. Recent statements by a number of aviation professionals 
seem to call into question the value of training materials on an iPad. 
Do you care to comment on these statements?
    Answer. Our member carriers training curricula includes, but is not 
limited to, simulator training in the areas of; Extended Envelope 
Training (FAR 121.423, AC 120-109A), Upset Prevention and Recovery 
Training (AC 120-111), Unreliable Airspeed Training, Manual Flight (to 
include Pitch, Power and Trim), and Automation Management. As mentioned 
earlier, an AQP uses data to inform a carrier of particular areas it 
needs to train. AQP actually incorporates a taxonomy to determine the 
appropriate medium for training for the tasks that need emphasis.
    Utilizing computer based training for items that require specific 
understanding or items that need emphasis has become a much-relied upon 
method for training delivery across all industry and has proven not 
only efficient but extremely effective, especially given an 
individual's relative ease of access to computer delivery. Tablets 
(i.e. Ipads) allow a pilot to effectively focus their attention on a 
specific area of emphasis, not only when required, but additionally, 
whenever and wherever they choose.

   Question from Hon. Garret Graves for Captain Chesley B. ``Sully'' 
             Sullenberger III, Pilot, US Airways (Retired)

    Question 1. Having had the opportunity to participate in flight 
simulations of both the Lion Air and Ethiopian Airlines accidents, can 
you comment on your observations and experience?
    Answer. Within seconds, the crews of the Lion Air and Ethiopian 
flights would have been fighting for their lives in the fight of their 
lives.
    These two accidents, as well as Air France 447 which crashed in the 
South Atlantic in June 2009, are also vivid illustrations of the 
growing level of interconnectedness of devices in aircraft. Previously, 
with older aircraft designs, there were mostly stand-alone devices, in 
which a fault or failure was limited to a single device that could 
quickly be determined to be faulty and the fault remain isolated. But 
with integrated cockpits and data being shared and used by many 
devices, a single fault or failure can now have rapidly cascading 
effects through multiple systems, causing multiple cockpit alarms, 
cautions and warnings, which can cause distraction and increase 
workload, creating a situation that can quickly become ambiguous, 
confusing and overwhelming, making it much harder to analyze and solve 
the problem.
    MCAS was software that was designed to autonomously move flight 
controls (in this case a secondary flight control) and that was 
essentially a fly-by-wire system, but it was not designed with the 
integrity, reliability and redundancy that a fly-by-wire system 
requires.
    And the fact that MCAS was appended to a conventionally controlled 
airplane meant that it was federated and not integrated into it, thus 
it lacked appropriate protections.
    In both 737 MAX accidents, the failure of an AOA sensor quickly 
caused multiple instrument indication anomalies and cockpit warnings. 
And because in this airplane type the AOA sensors provide information 
to airspeed and altitude displays, the failure triggered warnings 
simultaneously of speed falsely being too low and also of speed being 
too high. The false too slow warning was a `stick-shaker' rapidly and 
loudly shaking the pilot's control wheel. The too fast warning was a 
`clacker', another loud repetitive noise signaling overspeed. These 
sudden loud warnings would have created major distractions and would 
have masked the cause and made it even harder to quickly analyze the 
situation and take effective corrective action.
    I recently experienced all these warnings and indications and more 
in a full motion Level D Boeing 737 MAX flight simulator during 
recreations of the accident flights. Even knowing what was going to 
happen, I could see how crews could have run out of time and altitude 
before they could have solved the problems.
    First, the startle factor of a sudden confusing emergency is real 
and huge. I know from personal experience on US Airways 1549 that it 
absolutely interferes with one's ability to respond effectively. One's 
pulse and blood pressure suddenly increase, and one can feel it 
happening. The sudden stress of a life-threatening crisis causes tunnel 
vision, a severe narrowing of focus.
    The fact that with MCAS active, simply pulling back on the controls 
would NOT stop MCAS from running the pitch trim nose down robbed the 
pilots of the single most effective and intuitive tool that pilots have 
in a situation like this, because MCAS inhibits the control column trim 
cutout switches. And the most insidious aspect of MCAS was that it kept 
repeatedly lowering the nose very rapidly. It was maniacal.
    The many loud, and in some cases, false warnings would have created 
a high workload, leading to task saturation, as the pilots tried to 
keep the nose of the aircraft from repeatedly being lowered by MCAS, 
and completely explain how it was that crews were not able to realize 
that thrust was causing rapid acceleration.
    And the fact that MCAS kept running the trim nose down in 
intermittent spurts made it much harder for these crews to recognize 
the emergency as a traditional runaway trim scenario.
    And I also experienced firsthand how difficult it was to move the 
pitch trim wheels manually, at high airspeeds requiring both hands or 
the efforts of both pilots, and at very high airspeeds, it may not be 
possible to move the trim manually until the control wheel is moved 
forward, further lowering the nose to reduce the very high airloads on 
the horizontal stabilizer.

Questions from Hon. Garret Graves for Hon. J. Randolph Babbitt, Former 
             Administrator, Federal Aviation Administration

    Question 1. Mr. Babbitt, when an aircraft like the 737 MAX receives 
an amended type certificate, is it certified based on current 
certification standards or under the standards the original type 
certificate was issued? Is there something inherently unsafe in using 
an amended type certificate to certify an aircraft?
    Answer. Before issuing an amended type certificate, the FAA reviews 
the new design to determine which design standards must be met. When 
the design changes are significant, the new design will be required to 
meet the latest standards. For some elements of the design where the 
safety of that design has been well established, changes to the 
standard may not be required. If the design includes new or novel 
design features for which there is no current design standard, a new 
standard will be established. The process for establishing the safety 
standards for the new design is a thorough and time-consuming review 
for the FAA and the manufacturer. These processes assure that the newly 
amended type certificate meets the appropriate safety standards.

    Question 2. One of your key safety initiatives was making sure 
pilots did not fall too reliant on automotive systems. How can we 
better train pilots to not become reliant on automation and equip them 
with the skills necessary to deal with system malfunction?
    Answer. Pilots in today's airspace system need to continue 
receiving advanced training to operate in today's operational 
environment. We should utilize the new technology available today to 
expand training with the use of visual reality and high-fidelity 
simulation so that no pilot should ever be surprised by events that 
take place in an aircraft in which they are certified. That includes 
exposure to all phases of the operational envelope and environment as 
well as the built-in safety protections and automation that is designed 
to protect the operating envelope from excursions. Pilot training 
should also require a full understanding of all possible control inputs 
produced by automation as well as the logic driving the automation 
actions.
    Additionally, training and line operation should include 
requirements and demonstrations of manually flying aircraft to confirm 
pilot skills are being maintained to guarantee safe operations when 
automation is not available or has failed for any reason.

    Question 3. Having had the opportunity to participate in flight 
simulations of both the Lion Air and Ethiopian Airlines accidents, can 
you comment on your observations and experience?
    Answer. The simulator session which I operated from the left seat 
as the pilot in command included both versions of the Max 8 software 
and both scenarios were flown with the Captain's Angle of Attack 
(``AOA'') sensor failed. On take-off, at rotation, the ``Stick Shaker'' 
warning went off, so I used the ``Failed Airspeed Indication'' 
procedures and proceeded to retract the flaps to ``clean''.
    Once the flaps retracted the MCAS became armed and began to trim 
the aircraft to a nose down (``AND'') attitude and I instinctively 
trimmed the nose back up to a neutral control column position and 
turned off the trim system, which is both instinctive and standard 
procedure in all Boeing Aircraft for a ``runaway stabilizer trim 
emergency''.
    The Boeing pilot asked me to repeat the same event but asked that I 
not turn off the trim switches nor trim the aircraft. The control 
column forces got fairly heavy as the MCAS trimmed and when back 
pressure on the control column was relaxed, MCAS again trimmed the nose 
down further. I allowed the MCAS to trim a third time and then 
electrically trimmed the aircraft back to ``neutral control column 
pressure'', turned the Stabilizer Trim Switches off and flew the 
aircraft to a normal landing using manual trim.
    Repeating with the upgraded software change the main difference was 
that MCAS only trimmed once and even without nose up trimming to 
neutral, the control column pressure to maintain level flight was very 
manageable and then later, by turning off the Stabilizer Trim switches, 
we returned to a normal landing again using manual trim.
    My overall impression was the original software was a bit 
aggressive and in retrospect could have had more background information 
for pilots in their initial training. Seeing the new software and the 
requirement for dual input from angle of attack indications for all 
practical purposes eliminates the potential for an accidental 
triggering of the MCAS system. Additionally, when the system does call 
for MCAS input, it is less aggressive and restricted to only one input 
occurrence.

                                    
</pre></body></html>
